<html>
<title> - IMPLEMENTATION OF THE BASE REALIGNMENT AND CLOSURE 2005 DECISIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   IMPLEMENTATION OF THE BASE REALIGNMENT AND CLOSURE 2005 DECISIONS

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 12, 2007


[GRAPHIC] [TIFF OMITTED] 




                     U.S. GOVERNMENT PRINTING OFFICE

40-814 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          MIKE ROGERS, Alabama
ROBERT A. BRADY, Pennsylvania        JOHN M. McHUGH, New York
JIM MARSHALL, Georgia                HOWARD P. ``BUCK'' McKEON, 
MADELEINE Z. BORDALLO, Guam              California
MARK UDALL, Colorado                 ROBIN HAYES, North Carolina
DAN BOREN, Oklahoma                  FRANK A. LoBIONDO, New Jersey
NANCY BOYDA, Kansas                  TOM COLE, Oklahoma
CAROL SHEA-PORTER, New Hampshire     ROB BISHOP, Utah
JOE COURTNEY, Connecticut            CANDICE S. MILLER, Michigan
DAVID LOEBSACK, Iowa                 TRENT FRANKS, Arizona
GABRIELLE GIFFORDS, Arizona          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                DOUG LAMBORN, Colorado
                Dave Sienicki, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                    Sarah Schaffer, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, December 12, 2007, Implementation of the Base 
  Realignment and Closure 2005 Decisions.........................     1

Appendix:

Wednesday, December 12, 2007.....................................    77
                              ----------                              

                      WEDNESDAY, DECEMBER 12, 2007
   IMPLEMENTATION OF THE BASE REALIGNMENT AND CLOSURE 2005 DECISIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Brown, Anthony G., Lt. Governor, State of Maryland...............    49
Deegan, Dr. John F., Executive Director, Military Impacted 
  Schools Association............................................    53
Ferlise, Victor J., Esq., Former Deputy to the Commanding General 
  for Operations, Support for the Communications-Electronics Life 
  Cycle Management Command, Fort Monmouth, NJ....................    55
Grone, Philip W., Deputy Under Secretary of Defense 
  (Installations and Environment)................................     4
Houlemard, Michael A., Jr., President, Association of Defense 
  Communities and Executive Officer, Fort Ord Reuse Authority....    51
Lepore, Brian J., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     7

                                APPENDIX

Prepared Statements:

    Brown, Anthony G.............................................   120
    Deegan, Dr. John F...........................................   142
    Ferlise, Victor J............................................   150
    Grone, Philip W..............................................    81
    Houlemard, Michael A., Jr....................................   131
    Lepore, Brian J..............................................    92
    LoBiondo, Hon. Frank A., a Representative from New Jersey, 
      Readiness Subcommittee.....................................   170

Documents Submitted for the Record:

    Article Posted by the Asbury Park Press on 08/5/07, 2 BRAC 
      analysts had Aberdeen ties, by Bill Bowman and Keith Brown 
      Staff Writers..............................................   197
    Letter of nine New Jersey Legislators submitted by Tom 
      Fitzsimmons................................................   201
    Letter submitted by Hon. Joe Courtney, Member of Congress, a 
      Representative from Connecticut............................   204
    Letter submitted by Justin Bernier, Acting Executive 
      Director, Office of Military Affairs, State of Connecticut.   205
    Written Statement of Hon. Rush Holt, Hon. Jim Saxton, Hon. 
      Frank Pallone and Hon. Chris Smith, Members of Congress....   175
    Written Statement of Jon S. Corzine, Governor of New Jersey..   190
    Written Statement of Robert F. Giordano, Former Director of 
      Research, Development, and Engineering.....................   181
    Written Statement of Vice Adm. Paul G. Gaffney, II (Ret.), 
      U.S. Navy..................................................   178
    Written Testimony on Behalf of American Federation of 
      Government Employees Local 1904, Located at Fort Monmouth, 
      NJ submitted by John R. Poitras............................   193

Questions and Answers Submitted for the Record:

    Ms. Bordallo.................................................   223
    Mrs. Boyda...................................................   223
    Mr. Holt.....................................................   224
    Mr. Loebsack.................................................   223
    Mr. Ortiz....................................................   209
    Mr. Reyes....................................................   224
    Mr. Rogers...................................................   227
   IMPLEMENTATION OF THE BASE REALIGNMENT AND CLOSURE 2005 DECISIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                      Washington, DC, Wednesday, December 12, 2007.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. Good morning. This subcommittee will come to 
order.
    We want to welcome all of you to the first hearing that 
will look critically at the way base closure decisions are 
being implemented across the nation. The critical look is long 
overdue by the United States Congress.
    We are not doing anything today that could or would reverse 
the 2005 Base Realignment and Closure (BRAC) decisions, 
although I wish we could do that. We are here to talk about the 
BRAC process and to better understand how the Department is 
implementing the BRAC's 2005 decision.
    The BRAC 2005 planning process, in my opinion, was flawed. 
It did not obtain realistic data upon which to base sound 
business decisions, and it was tainted, again, in my personal 
opinion, by politics that were supposed to be removed by the 
authorizing legislation.
    But most importantly, the 2005 BRAC round was carried out 
at a time when base closure was a profoundly bad idea. We were 
and at the same time were prosecuting a war on two fronts and 
unsure of what infrastructure would be needed for involving 
homeland security needs.
    At the end, the BRAC commission kept all their bases open 
and closed newer bases that were specifically positioned for 
the defense of our country. A prime example is Naval Station 
Ingleside in south Texas. Naval Station Ingleside is a new 
base, 9 years old now, with tremendous, extraordinary double-
decker piers and buildings and facilities located on the Gulf 
of Mexico with over 1,000 acres of land and a future to expand.
    By closing Naval Station Pascagoula in Mississippi and 
Naval Station Ingleside, the Nation will be left without a 
single naval base on the entire Gulf Coast of Mexico. The gulf 
is a very strategic trade corridor and our energy pipeline. And 
in the aftermath of BRAC, it is now our soft underbelly.
    To underscore that point, just days after BRAC ordered the 
closure of naval bases on the Gulf of Mexico, Hurricane Katrina 
blew her deadly destruction straight into Pascagoula. It was 
assets from Naval Station Pascagoula--wounded, but not down--
and Naval Station Ingleside that responded first and 
immediately, while East Coast assets, steaming as quickly as 
they could, arrived several days later.
    So today we are focusing on a more limited agenda to review 
how the Pentagon is implementing the BRAC law. I have always 
understood that costs are up and savings are down, but I had no 
idea how much BRAC 2005 execution has changed since the BRAC 
commission completed its review.
    After reading the Government Accountability Office (GAO) 
report, I was initially pleased to see that, over 20 years, the 
Department expects to save something like $15 billion. However, 
I was surprised to find that this is a 58 percent decrease from 
what BRAC commission estimated.
    Also, this committee was left to believe that BRAC was 
about reducing infrastructure, but we did not reduce any 
infrastructure in 2005. We just moved it to other locations. 
And I was equally concerned to learn that the Department hasn't 
figured out how to implement some of its own BRAC 
recommendations.
    Again, this subcommittee is not here today to overturn any 
decision already made. Communities with bases closing should 
continue planning, and communities with new bases assets coming 
should continue to prepare for that event to happen when it is 
due. We will look today only at how the Department of Defense 
(DOD) is or is now complying with the law.
    Before I move forward with the normal order of business, I 
wanted to welcome our new ranking member, Congressman Randy 
Forbes. Randy, I am so happy that you are with us as a ranking 
member. And he has been a valiant supporter of the military. He 
has individually worked to ensure that servicemembers and their 
families receive the training and support necessary to best 
complete their mission.
    I look forward to working with you on improving the 
readiness of our servicemembers. And now the chair recognizes 
my good friend, the distinguished gentleman from Virginia, 
Ranking Member Mr. Forbes, for any statement that he would like 
to make.

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman.
    I would like to thank the chairman just to say that I am 
honored to serve as his ranking member on this important and 
influential subcommittee. There is no chairman with whom I 
would rather serve than the honorable gentleman from Texas, who 
has a long and distinguished record of leadership as both 
chairman and ranking member of the Readiness Subcommittee.
    Mr. Chairman, I look forward to working with you.
    Since we have two panels of witnesses and many members 
present who wish to speak, I will keep my remarks brief. Even 
so, I must say at the outset that I am disappointed at the 
great increase in costs associated with this BRAC round, and 
particularly concerned about the lengthy payback period 
reported by the GAO in its testimony.
    I was one of 40 members who voted against BRAC when it was 
first voted upon several years ago, and it is particularly 
disappointing because many of the concerns cited there and here 
today could have been predicted and were predicted ahead of 
time. I wrote about many of them in a USA Today op-ed as far 
back as July 30, 2001.
    And I understand that the authors of the implementing 
legislation, suspicious of the fleeting nature of BRAC savings, 
deliberately required that the Secretary of Defense certify 
that this 2005 BRAC round would generate savings in six years 
in each military department as a prerequisite for conducting 
the round. In fact, the Secretary of Defense did certify that 
the Departments of the Army, the Navy and the Air Force would 
be each into the black by 2011, not 2017, a full six years 
later, as reported today by the GAO.
    Let me be clear that this subcommittee is quite concerned 
that the department failed to achieve a legally required 
Secretary of Defense-certified objective by six years.
    I understand that, in the conduct of the BRAC round, 
military value, not cost, was the primary criterion prescribed 
by the implementing legislation. I realize that the costs of 
construction have increased dramatically due to worldwide 
competition for materials, that the Army and Marine Corps are 
leveraging the BRAC process to reset their forces, and that the 
whole department used the BRAC round as a transformation 
enabler.
    While I support these transformational efforts and the 
increases in the Army and Marine Corps, it is still 
disappointing that more savings will not be realized. 
Nonetheless, the BRAC process was approved in 2005, and so this 
is a hearing on the implementation of BRAC.
    And as the chairman has emphasized, there is no intent to 
change or undue the BRAC recommendations. The communities 
affected by BRAC deserve to know that Congress is committed to 
seeing the BRAC process through. The worst thing we could do 
would be to change course in midstream. However, we should take 
this opportunity to learn how to more effectively manage this 
process in future rounds. According to the GAO, BRAC is still 
expected to save $15 billion. Since the savings are coming late 
in the process, we will be watching closely to be sure the 
much-touted military value of this BRAC round materializes.
    Mr. Grone's testimony reinforces the complexity of 
executing this round, which I can appreciate. Even today, the 
Army has not announced the final locations of additional 
brigade combat teams, the Army's major combat unit. Without 
that knowledge, military construction costs cannot be budgeted, 
nor can local communities accomplish the necessary planning for 
schools, roads and other amenities needed by an expanding 
population.
    I want to once again thank the chairman for scheduling this 
hearing and for selecting a broad cross-section of witnesses 
who can address all important aspects of this process from the 
point of view of the Department of Defense to both gaining and 
losing communities. And I look forward to hearing from our 
witnesses. And, Mr. Chairman, thank you, and I yield back the 
balance my time.
    Mr. Ortiz. Thank you.
    I know that we have received a few inquiries from Members 
outside the subcommittee to address the witnesses. And after 
consultation with the minority, I now ask unanimous consent 
that Members outside the House Armed Services Committee be 
authorized to question the panel members at today's hearing. 
These Members will be recognized at the conclusion of 
questioning by the members of the House Armed Services 
Committee.
    No objection? We will just do that. Okay.
    Now, today we have two panels of distinguished witnesses 
representing the Department of Defense, the Government 
Accountability Office, and other organizations that have been 
affected by BRAC.
    And without objection, the witnesses' prepared testimony 
will be accepted for the record.
    On the first panel, we have the principal architect of the 
BRAC's 2005 implementation process, Secretary Phil Grone, and 
the Government Accountability Office, Mr. Brian Lepore.
    Secretary Grone, it is so good to see you. You and I have 
had a great relationship. We appreciate the loyalty not only to 
the services, but to this country, and your outstanding work. 
And we have known each other for a long time, and we are just 
happy that you are here.
    And I understand that you are leaving us. And I know that 
your expertise and your experience will be missed, but I hope 
that we can continue to consult with you.
    Secretary Grone. Yes, sir.
    Mr. Ortiz. We can begin by--Mr. Secretary, you can come up 
with an opening statement. And just feel free to make your 
statement this morning. Good to see you, Phil.

STATEMENT OF PHILIP W. GRONE, DEPUTY UNDER SECRETARY OF DEFENSE 
                (INSTALLATIONS AND ENVIRONMENT)

    Secretary Grone. Thank you, sir. Thank you, Mr. Chairman, 
Mr. Forbes, members of the subcommittee, other distinguished 
members of the House.
    I am privileged to be here in my last week of service to 
the Department to discuss the 2005 round of base closure and 
realignment and the implementation thereof.
    As the chairman and the ranking member have indicated, the 
size of this round is extraordinary by any means compared to 
prior rounds of base closure and realignment. This effort 
touches over 800 separate locations across the Nation, with 24 
major closures, 24 major realignments, and 765 other actions.
    Those decisions resulted from a laborious, legally mandated 
process that took us from 1,200 candidate recommendations 
within the Department of Defense to 222 recommendations that 
the Secretary ultimately made to the independent commission.
    The commission then, considering all evidence before it, 
both provided by the Department and provided in field hearings 
and other sources of information, which the Department did not 
have access or could not provide under the terms of the 
statute, made changes to the Department's recommendations, 
supported, in the case of--35 percent of the department's 
recommendations were changed in some way, large or small, by 
the commission, which is a greater change rate than in all 
prior rounds of BRAC combined, where the change rate was 15 
percent.
    So the commission very actively considered the Department's 
recommendations, considered all of the evidence, and made a 
significant number of changes.
    Forty percent of what resulted from that process resulted 
from the Joint Cross-Service Group process, including some of 
the recommendations that are of interest to Members in this 
room today. The Department had been criticized over four rounds 
of base closure and realignment for things that we did not do.
    The Department was criticized for its inability to 
adequately get at joint processes and joint arrangements. And 
as part of that process, the criticism, including from some of 
the criticism from our friends in the Government Accountability 
Office, was that those efforts were too narrow.
    The Department responded to those criticisms by doing two 
things. First, it created Joint Cross-Service Groups with broad 
mandates. Rather than looking merely at military medical 
treatment facilities, we looked at the medical functions of the 
department broadly.
    Rather than looking merely at depots, we looked at 
industrial capability. Rather than merely looking at 
laboratories, we looked at technical capability, as well as 
examining other what we called back-office functions, 
headquarters and support activities among them, that had never 
been addressed on a joint cross-service basis before.
    And we gave those groups real authority to make 
recommendations to the senior leadership. These were not Office 
of the Secretary of Defense (OSD)-mandated requirements. They 
were jointly arrived at decisions that worked their way through 
the senior leadership, exercising their military judgment based 
on the data and the strategies that were available at the time.
    I understand the comments made by my friend that I have 
worked with so many years, the chairman, gentleman from Texas, 
on the complexity of this managing BRAC in the context of the 
global war on terror and broader force transformation.
    But as the Secretary said at the time and as the 
Administration continued to assert, this was precisely the time 
and the moment for us to re-look at the national military 
infrastructure because of the nature of the missions that we 
are being asked to undertake and the nature of force 
transformation ongoing within the Department of Defense.
    The Army is the principal exemplar of that. The Army is 
currently involved in the broadest force transformation, 
broadest reset, most complex installations transformation since 
1942.
    Our ability to establish maneuver centers of excellence, 
fires centers of excellence, and other things that are 
necessary to support the force, even in advance of decisions to 
grow the Army, could not have been accomplished without a Base 
Realignment and Closure round. And in that sense, they were 
necessary to the mission of today and the mission of tomorrow.
    I am also very sensitive to the questions of the increasing 
costs that have appeared in the round. As we extensively 
discussed with all four oversight subcommittees earlier this 
year, the budget justification documents in February provided 
the detail for the increases in those costs.
    As I said then and I will say again today, those costs 
basically fell into three broad baskets: $2 billion of the $8 
billion, $8 billion-plus of increase is derived from taking 
then-year dollars that the Cost of Base Realignment Actions 
(COBRA) model provided and putting it into an implementation 
plan over a six-year spread. Natural inflation causes $2 
billion of increase.
    An additional $2 billion was caused by other changes that 
resulted from site survey work. At certain locations, Fort Knox 
being among them for the human resources center of excellence, 
when we actually got people on the ground beyond COBRA to do 
siting work, the notion of renovating disconnected facilities 
with a very sparse Information Technology (IT) backbone and 
infrastructure was very difficult, so we substituted new 
construction for mere renovation to give us the 
transformational capability that the recommendation intended.
    And $4 billion, nearly half, approximately half of the 
increase, was due to an Army package of enhancements that was 
brought forward in that particular program review. Some of 
those items were items that had been omitted in earlier parts 
of the planning; some of them were enhancements for additional 
training ranges at places like Fort Benning; and others were 
enhancements for quality of life.
    Some of those may serve a dual purpose. Some of those may 
support parts of the force beyond the question of BRAC. But all 
of them support aspects of the BRAC realignment. And the 
decision of the leadership was to provide full cost visibility 
on all aspects directly and materially affected by BRAC. And 
they were included in the package.
    The question of savings is an important one. We and the 
Government Accountability Office have had a longstanding 
disagreement on the question on personnel savings and what they 
mean, in terms of savings in this process. Our view is that, to 
the extent that you are realigning manpower and forces or 
taking force structure out, that is the cleanest.
    But to the extent that you are avoiding having to pay for 
additional recruitment of military or civilian personnel or 
contractors in an inefficiently aligned system, those cost 
avoidances need to be counted as savings, and we have.
    Even after implementation, we are still expecting $4 
billion in annual recurring savings on an annual basis 
beginning in 2012. Implementation is complex. And one of the 
ways in which this committee and this Congress can help us in 
implementation is by addressing what has been one of the more 
disruptive aspects of implementation than in any prior round of 
BRAC.
    We are now in the 27th month of implementation. Fourteen of 
those 27 months have been constricted, constrained in some way 
by the inability of the Department to either access funds, 
through notice and wait or other limiting provisions, or 
through the inability to have full appropriation as requested 
by the President.
    For the last two years, we have been operating under 
continuing resolutions which have affected the management of 
this account. The budget request for the current fiscal year to 
implement the round--we are in a third of six years of 
implementation--is $8.2 billion. We are operating in the 
continuing resolution environment that gives us a piece of last 
year's appropriation of $5.6 billion.
    The department cannot effectively implement the round 
unless it has access to the resources that are necessary to 
implement it. So, Mr. Chairman, we urge you--and we have always 
had your strong support and the support of the gentleman from 
Virginia and others--to work with us and with the 
Appropriations Committee to ensure that we can access the funds 
that are necessary to implement the round.
    I know there is always a question of whether or not we can 
make their legally mandated deadline of September 15, 2011. I 
am not yet prepared to concede that that is not achievable, but 
time is rapidly working against us, and our inability to secure 
the necessary funds works against us.
    Oversight is important. The dialogue with the committees 
has been very, very critical to us in helping shape aspects of 
the implementation plan. But our ability to work together and 
our ability to complete the mission on time--for the good of 
the Army, the good of the forces, the good of the department, 
good of the country--is dependent on our ability to effectively 
implement in a timely way. And for that, we urgently need your 
support.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Grone can be found in 
the Appendix on page 81.]
    Mr. Ortiz. Thank you, Mr. Secretary. As always, you have 
always been very eloquent, and we certainly appreciate your 
testimony this morning.
    And now we will go to Mr. Lepore. Thank you so much, sir, 
for joining with us. And you can begin with your testimony, 
sir.

 STATEMENT OF BRIAN J. LEPORE, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the subcommittee, and invited 
Members, I am delighted to be here today to testify on 
implementation of BRAC 2005. This is the largest, most complex, 
and costliest BRAC ever. Unlike previous rounds, the Secretary 
of Defense saw this round as an opportunity to transform DOD, 
promote jointness, and save money. Thus, BRAC 2005 focuses more 
on business process reengineering and base realignments, rather 
than closures.
    Today in my testimony, I will address GAO's role in BRAC 
and how the estimated costs and savings have changed since 
2005. My testimony is based on our reviews of DOD's process for 
developing its recommendations and our reports on its 
implementation.
    Now I will turn to my first topic: our role in BRAC. We 
were required by law to monitor the process that DOD uses and 
did use in developing its recommendations. We issued our report 
on July 1, 2005, and concluded that DOD's process was generally 
logical, reasoned, and well-documented, but we also raised an 
important caution. That is the extent to which DOD achieved the 
savings it estimated was uncertain because of, one, the way in 
which military personnel reductions are counted; and, two, the 
fact that many of the recommendations focused on business 
process reengineering on transformation and, as a result, many 
of the savings were not validated and much would depend on how 
the recommendations were implemented.
    We also pointed out that DOD and the commission used the 
cost of base realignment actions, or COBRA model, to evaluate 
the recommendations. But we reported in both 1995 and in 2005 
that, while COBRA is a useful tool for developing data to 
compare against candidate recommendations, it is not intended 
to and consequently does not produce budget-quality numbers.
    Thus, DOD's budget request is likely to be different than 
the COBRA numbers. Once the recommendations become binding, we 
evaluate the efficiency and effectiveness of implementation 
just as we do other Federal programs, which brings me to my 
second topic.
    Yesterday, we issued our latest report on BRAC 
implementation and concluded that the costs have gone up from 
the 2005 commission estimates of about $21 billion to the 
President's fiscal year 2008 budget submission number of about 
$31 billion.
    Here is why: Construction and operations and maintenance is 
expected to be higher. In addition, inflation and environmental 
restoration costs are not included in COBRA but, in fact, are 
included, of course, in the President's budget submission.
    Conversely, net annual recurring savings are likely to be 
lower. In 2005, the commission projected net annual recurring 
savings of about $4.2 billion. As you know, it is now about $4 
billion. DOD attributes much of the savings to no longer 
operating closed bases and from military personnel reductions.
    These reductions generally consist of disestablishing 
organizations and transferring military personnel from one 
location to another, but maintaining the current end strength. 
So DOD still pays the salary and benefits while also claiming 
this as a savings.
    We do not believe this generates funds that can be spent on 
other defense priorities, since the individuals are still 
getting paid. Without these savings, projected net annual 
recurring savings falls to about $2.2 billion, still 
substantial.
    This is a longstanding point of disagreement between us and 
DOD, as Secretary Grone indicated. We talked about it in 1995; 
we talked about it in 2005. But we also felt that the Congress 
would not have adequate transparency over the savings estimated 
from BRAC. That is why yesterday we recommended that DOD 
explain its savings from personnel reductions versus other 
savings, and DOD agreed.
    One other measure for evaluating BRAC is 20-year net 
present value, which calculates the future value of costs and 
savings from BRAC. The overall payback period is expected to be 
less than 20 years, but the number of recommendations that do 
not pay back in 20 years has increased from 30 in the 
commission's 2005 report to 73, based on estimates in DOD's 
fiscal year 2008 budget submission.
    Finally, Mr. Chairman, we are to monitor BRAC 
implementation and report annually with a post-implementation 
report within one year of the end of implementation. We look 
forward to continuing to assist you in evaluating the 
efficiency and effectiveness of the implementation of BRAC 
2005.
    This concludes my prepared statement, and I would be happy 
to answer any questions that you or the other members may have.
    [The prepared statement of Mr. Lepore can be found in the 
Appendix on page 92.]
    Mr. Ortiz. Thank you so much for your testimony. And this 
is exactly what we need, a check-and-balance system, so that we 
as Members of Congress can do what is right now.
    I am going to start with a question, and I am going to--we 
have many Members who are with us today. And I am going to be 
sure that we allow them to ask questions this morning. As soon 
as all the Members of the committee have asked questions, we 
will allow them to do that.
    Mr. Grone, and I know you do support a compliance of the 
BRAC recommendations. And as to Naval Station Ingleside closure 
recommendations, I have become aware that the Department would 
like to bend the interpretation and place barracks and other 
supporting facilities at other locations besides Naval Station 
San Diego.
    And I was just wondering, will you support something like 
that? And I know that your days are short here. But sometimes, 
you know, they come and propose to us with a Plan A, and then 
somebody comes to us and presents a Plan B, and then we see 
that they are carrying out Plan C. This is why there is a 
little confusion, and maybe you can enlighten me on what we are 
hearing from several sides on this issue.
    Secretary Grone. Mr. Chairman, I will do the best I can. It 
is a question that affects most directly the Navy.
    The ships that are part of the recommendation will realign 
directly to the intended location, Naval Station San Diego, 
pursuant to the recommendation. I know there had been some 
discussion about whether or not those ships might relocate to 
another location in the vicinity of San Diego.
    There is no touch-and-go provision; there is no other 
appropriate provision for implementing the recommendation. 
Those ships will be at Naval Station San Diego.
    The support facilities--and as the BRAC process was moving 
along, the Navy was also further enhancing its regionalization 
concept. The Navy has a number of assets at Point Loma, very 
near Naval Station San Diego, that support various aspects of 
the fleet throughout the region.
    It is perfectly within the understanding of the 
recommendation, as well as the management of manpower building 
for the Navy, to have queues, quarters in the Point Loma area. 
They are a part of Naval Station San Diego from a management 
perspective. They do not need to be directly at the ship.
    So we have some flexibility, in terms of the best siting 
for quarters. But the stationing of the ships and their 
operational employment will be out of Naval Station San Diego.
    Mr. Ortiz. But, you know, I attended most of the BRAC 
hearings, and I never heard that they would be moving some 
place else. The testimony was always that they were moving to 
San Diego, and that they had also fishing facilities, and that 
that had everything.
    And all of a sudden, they said, ``No, we don't have 
facilities. We are going to have to probably build 
facilities.'' And what I am trying to get to is, you don't 
think that the base closure commission was misled when they 
said that they were moving to San Diego, and that they were 
going to be there, and that the facilities were ready, and they 
have adequate facilities and adequate berthing?
    Secretary Grone. I would have to go back and look at the 
specific testimony of what was meant by facilities, whether 
that was for the direct support of the ships or whether that 
was also in support of personnel and where they would be 
quartered.
    But the issue has been looked at with the Office of General 
Counsel in light of the record, and I am confident that as the 
Navy has designed the program is legally sufficient.
    Mr. Ortiz. I wish I knew who was going to replace you. Do 
you know who is going to replace you?
    Secretary Grone. That announcement has not been made yet, 
sir.
    Mr. Ortiz. And this is the concern, of course, when we are 
being told one thing and DOD does something else. And this 
concerns us. And this is why I am very, very interested.
    You know, one of the things that we have been trying to get 
from the Navy is their implementation program. We have been 
asking the Navy to give us a copy as to how they are going to 
make their plan work, their implementation. And up to this 
date, we haven't received anything.
    Do you think that, before you leave, you might be able to 
help us get the Navy to give us this plan?
    Secretary Grone. I don't see any obvious reason why the 
Navy couldn't detail how the plan would be implemented to 
members.
    [The information referred to can be found in the Appendix 
beginning on page 209.]
    Mr. Ortiz. You know, and I have a lot of other questions 
that I would like to ask, but I want to be fair to all the 
Members who have an interest in this hearing today. So I am 
going to cut it short, and then I will come back with some 
other questions.
    Now, I would like to yield to my good friend, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. I, too, will be brief 
so we can get as many questions in as possible.
    Mr. Secretary, thank you for being here and for your 
service. And I just have two questions for you.
    The first one is, we know military value is so important, 
and we know that, you know, one of the key things for the BRAC 
process is making sure about the readiness of our troops. And 
the question I would ask you this morning, is the BRAC process 
negatively impacting our soldiers' operational readiness or 
ability to prosecute the global war on terror, in your opinion?
    Secretary Grone. In my opinion, no.
    Mr. Forbes. Okay, second question is this. One of the 
concerns to those of us on the committee is whether the Army 
can meet the September 2011 statutory deadline, and you talked 
about that, too. In fact, I have checked in with the base in my 
district affected by BRAC, which is Fort Lee, and see how they 
are doing.
    Now, they asked them, ``Can you do it? Can you complete the 
construction on time?'' And they said, ``Absolutely, if we get 
the money.'' And then the question comes back to something you 
alluded to a little bit, and that is, can you explain to us on 
the committee the impact, if any, the delay in funding for 
fiscal year 2007, which I believe arrived just this past May, 
had to the schedule and cost of your construction plans?
    And can you also address the process as it relates to the 
fiscal year 2008 Military Construction (MILCON) bill that still 
hasn't passed yet?
    Secretary Grone. Well, sir, it is difficult to say with 
specificity what any particular delay in funding means, in 
terms of the cost of a given project at a given location. What 
I can tell you is how we go about managing those delays or the 
partial funding that we receive.
    One of the difficulties inside the department--I mean, in a 
complex management exercise like this--is the amount of time it 
takes with the components to realign how the plans are going to 
be done, because as we present the President's budget, there is 
an assumption of how the year will execute.
    Now, those execution plans can always change in 
implementation, but when we have partial funding and are 
uncertain as to when funding will come--the first two years of 
implementation were a bit easier. We could generally on a pro 
rata basis apportion those funds, and the components could 
execute what they could.
    As we are approaching this year, the third year, we are 
finding that a little bit more difficult to just do the peanut 
butter spread across the enterprise. So we are having to make 
discrete choices about what missions are to be or should be 
more effectively protected or enhanced in the distribution of 
limited funds. And that is causing, certainly, some things to 
slip to the right.
    And our hope is that we can get the full funding and then 
bring that program back, but it causes us to have to continue 
to adjust and readjust the program, and that provides for a 
lack of surety at the base level, and it does, to some degree, 
affect our ability to effectively engage with communities about 
when certain things are going to happen.
    That particularly is difficult when we are dealing with not 
just receiver sites in BRAC, but any site that it might also be 
affected be Army modularity or other initiatives. The inability 
to sort of be precise with regard to schedule makes it harder 
to work with communities to accommodate that growth in time.
    So we are looking at the question of costs very carefully. 
I want to try to have a better way of demonstrating how things 
are going to happen. But unless we already have a contract out 
that we then can't award, and then we have to go to an award 
later, it is going to be hard on a specific basis to say what 
that change order would be.
    Mr. Forbes. And thank you.
    Mr. Lepore, just a quick question for you. And if you can 
answer today, fine. If you need to submit it in writing, that 
is okay. But I know your report indicates an increase of about 
$10 billion in the BRAC implementation, and it indicates about 
$7 billion of that, as I understand, military construction, 
about $3 billion that stems from inflation, environmental 
cleanup, and other factors.
    And can you describe for us which of those costs you 
believe could have been accounted for ahead of time or in the 
assessment process? And it may be more generically--now with 
greater transparency in the BRAC implementation, costs have 
increased. In retrospect, should the BRAC process have built in 
additional methods to increase cost accuracy?
    Mr. Lepore. One of the challenges that the Department has, 
I think, in producing those numbers is they are, in effect, a 
forecast. What DOD is trying to do is to look forward over the 
6-year implementation period and try to determine, what will I 
need to do, what will DOD need to do to implement, in this 
case, 182 recommendations, over 800 individual BRAC actions, to 
implement those recommendations? So the challenge is an 
important one and I think should not be missed.
    The COBRA model does not account for inflation. It works 
with standards and averages. It uses constant dollars. And as a 
result, by definition, inflation is not built in.
    The reason in our report we compared the 2005 dollars with 
the 2008 dollars and actually presents the inflation, if you 
will, is that the Congress ultimately appropriates in current 
dollars, not constant dollars, and DOD requests funds in 
current dollars and not constant dollars.
    So certainly the question, is there something that could 
have been foreseen? Certainly, inflation was a factor. 
Estimating how much it is, is certainly particularly 
challenging.
    And the other point I would make is that the COBRA model 
also does not include environmental restoration costs by 
design. And the theory behind that is that cleaning up 
environmental contamination on an installation is a liability 
to DOD, regardless of whether a base is to be closed or not, to 
protect human life, health and safety. And so those two items--
in this case, totaling on the order of $3.5 billion, were not 
included in COBRA and were not designed to be included.
    And so one can certainly recognize it is not there, but one 
would have to estimate how much that is going to be over the 
six-year period.
    Mr. Forbes. Thank you both.
    Mr. Chairman, thank you. I yield back.
    Mr. Ortiz. We will try our best to stay within the five-
minute rule, because we have a lot of Members, and we want to 
be fair to give everybody an opportunity to ask a question. And 
so be sure that you stay within the five minutes.
    And now let me yield to my good friend, Ms. Boyda.
    Mrs. Boyda. Thank you, Mr. Chairman.
    I have the honor--I am Nancy Boyda from Kansas. I have the 
honor and the responsibility of representing Fort Leavenworth, 
Fort Riley, Parsons Army Ammunition Plant, which is big, so I 
have three points that I would like to--if I can't get an 
answer, I would like to get on the record that are deeply, 
deeply concerning to us.
    Clearly, the two combat brigade teams that are going to 
stay in Europe, one of those was scheduled to come back, a 
heavy brigade team coming back to Fort Riley. How do you intend 
to comply with the BRAC and keep those there? Is it temporary? 
Can you just expand on--give us the information there?
    Secretary Grone. Ma'am, I will. I know some of these 
questions arise from some reports that appeared in the New York 
Times. And there is a good deal about that article that was 
incorrect.
    The incorrect part starts with the Secretary has not yet 
made a decision on that question and it is a matter still under 
consideration by the senior leadership.
    The other aspect of the story that got maybe a little 
garbled is that words like ``defer'' and ``delay'' create the 
opportunity for misinterpretation, because individuals like 
yourself understandably attach that to the units that are there 
now.
    The issue is, and before the leadership, is whether or not 
there would be an American military presence larger than was 
previously contemplated in those locations for a longer, 
slightly longer period of time than was otherwise in the 
original plan.
    A question of whether 1st Armor Division (AD), 1st Infantry 
Division (ID) come back to the United States and the 
capabilities represented by 1 AD and 1 ID by the statutory 
deadline is not at issue. The department will comply with its 
obligations under BRAC for that capability to be in place by 
the deadline.
    Mrs. Boyda. All right, thank you very much.
    The Parsons Army Ammunition Plant, which was one of the 
closing sites, I had a question about equipment that is left 
there. We have been having several conversations with your shop 
about the equipment. And their question is, what savings are we 
trying to realize by not moving equipment around and storing 
it? What savings--are we looking at what we can save, our BRAC 
dollars, and use them for something else, if equipment is 
merely going to be moved and stored to just leave it? Do you 
have any thoughts that you could share with us on that?
    Secretary Grone. That is an implementation detail that I am 
not that close to, as it is an Army action.
    Mrs. Boyda. Do you understand basically the purpose--it is 
very difficult----
    Secretary Grone. I do.
    Mrs. Boyda [continuing]. To see why we are sending very 
limited----
    Secretary Grone. I do.
    Mrs. Boyda [continuing]. Precious dollars. And it is very 
difficult to see what actual benefit is coming from that.
    Secretary Grone. What I would like to do is take that back, 
and in light of not just written for the record, but in light 
of my departure on Friday, I will try to come back to you with 
an answer before the end of the day on Friday, if I can.
    Mrs. Boyda. Thank you so much. It would mean a great deal.
    Secretary Grone. And if I can't, I will tell you why not 
and who is going to get back to you, if I could.
    [The information referred to can be found in the Appendix 
beginning on page 223.]
    Mrs. Boyda. The third question has to do with commissaries 
and appropriated funds versus the nonappropriated funds and 
having the site. Do you have any--and, again, are you familiar 
with that issue, if I could shortcut the----
    Secretary Grone. In a generic way, in terms of whether 
items that we----
    Mrs. Boyda. Yes, with BRAC, we are being asked to provide 
funds from the users for commissaries when, in fact, this is 
really--we are building a commissary because of the increased--
because we were a gaining facility.
    Secretary Grone. So to make sure that I understand you, it 
is that the question of whether or not MILCON, BRAC or the 
surcharge ought to fund the requirement.
    Mrs. Boyda. Yes. And obviously the surcharge is the least 
desirable of those.
    Secretary Grone. That is understood. This has been a 
subject of some correspondence and discussion between Members 
in both chambers with my colleagues and the undersecretary for 
personnel and readiness, as they run the lion's share of those 
programs. The----
    Mrs. Boyda. Well, let me just say, as my time is going, let 
me say for the record that clearly that surcharge is by far the 
least preferable.
    Secretary Grone. Yes, ma'am.
    Mrs. Boyda. You know, the need for these extra facilities 
results from our--and we are very happy in Kansas to have these 
extra brigades there.
    Secretary Grone. What my colleagues in Personnel and 
Readiness (PNR) are doing right now is looking very clearly at 
those various requirements and bending them, what ought to be 
MILCON, what ought to be surcharged, what ought to be attached 
to BRAC as a result of BRAC actions. And then they will come 
back to the Congress with, I assume, all the necessary 
proposals in that regard and will do what is necessary to 
support those quality of life facilities.
    Mrs. Boyda. Okay, thank you so much. And good luck in your 
new life.
    Secretary Grone. Thank you, ma'am.
    Mrs. Boyda. Thank you.
    Mr. Ortiz. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I think my questions will be like most people's questions 
today, parochial. I have Fort Benning, which straddles the 
Georgia-Alabama line, as you know. And I am wondering if you 
can tell me how many soldiers are going to be relocated to Fort 
Benning as a part of BRAC?
    Secretary Grone. Sir, the last information I had from the 
Army on that was just shy of 1,000 permanent party.
    Mr. Rogers. How many families, total individuals?
    Secretary Grone. I don't have a specific number of 
families. What I have is what I think are the number of 
students that may be there longer than three months, under 
three months. And the military students staying at Benning 
longer than 3 months, I have it just nearly 1,200 students.
    I could try to break that back down to how many personnel 
with family, but I don't know that we specifically know that 
yet until we get through all the Permanent Change of Station 
(PCS) process.
    Mr. Rogers. But the figure I have heard----
    Secretary Grone [continuing]. Right now for how many 
students.
    Mr. Rogers. And the figure that I have heard from the 
military is they are expecting a total of 35,000 people to be 
coming to the Benning area, both on-post and off-post, as a 
result of this BRAC.
    Secretary Grone. Well, that may be. There are a combination 
of factors there. One is the military and civilian personnel 
and their family members, the estimates right now are somewhere 
around 13,000 folks. Layered into that, particularly from a 
local perspective as you are trying to do planning, are people 
trying to do estimates for what kind of contractor support base 
might also come with that.
    And so the Army will make representations as to the 
personnel that they control, military and civilian personnel 
and related family members, and then there will be a larger 
discussion about the contractor base. And that is occasionally 
where we have some folks occasionally maybe talking past each 
other, not willfully, but just understanding the base line is 
important.
    Mr. Rogers. Well, my understanding is Benning is one of 
eight facilities around the country that is going to experience 
dramatic growth as a result of the relocating of missions in 
the BRAC. And they have the same concerns I think that the 
other seven communities have, and that is, how do we absorb 
from an infrastructure standpoint off-post these new folks, in 
schools, in hospitals?
    The superintendents of the school systems on both the 
Georgia side and the Alabama side have talked with me about if 
there is going to be any one-time funding to help them expand 
their facilities to accommodate the new students.
    Can you tell me if you have any plans to do that in any of 
these communities?
    Secretary Grone. Well, the department traditionally has not 
provided appropriated funds for that purpose beyond the 
Department of Defense Education Activity (DODEA) school system. 
We are working--we have provided planning grants to communities 
and the states, local education authorities.
    There are discussions ongoing about how to think about the 
Impact Aid question, maybe in a different form. That is very 
preliminary. No decisions are made. But we don't have a 
program, other than some programs that the Department of 
Education has, grant programs that provide brick-and-mortar 
construction.
    This week in St. Louis, we have the Office of Economic 
Adjustment with the Federal interagency, agencies represented 
under the Economic Adjustment Committee, which I chair in the 
interagency on behalf of the Secretary, are meeting with the 
growth communities. And a principal part of that discussion is 
education. There is also a track on transportation and other 
associated infrastructure issues, as we all continue to work 
together to have the infrastructure in the communities where we 
are going to have growth be able to support that as it comes 
online.
    Mr. Rogers. Well, I know that, in previous BRAC, when we 
lost Fort McClellan in my congressional district, it had a huge 
economic impact on the district. But to their credit, the Army 
was very helpful in helping that community transition. I think 
that there should be a little bit more sensitivity to these 
communities who are going to have to absorb all these new 
people.
    And I would like to know, do you have an individual in your 
office that these local officials can make contact with, talk 
about their concerns?
    Secretary Grone. The director of the Office of Economic 
Adjustment, Mr. Patrick O'Brien, is the principal leader on 
that from an economic adjustment perspective. We have a team of 
folks. I know some of those folks are working with folks in the 
Fort Benning area.
    I know he would be pleased to come up and have a 
conversation about issues that are of concern to you.
    Mr. Rogers. Great. I would like to do that.
    Secretary Grone. It is a pretty important part of what we 
do from a planning perspective.
    Mr. Rogers. And my last question is, do you know the 
timeline for the Armor Center moving to Benning from Fort Knox?
    Secretary Grone. I am sorry, sir?
    Mr. Rogers. Do you know what the timeline is for the Armor 
Center to move from Fort Knox to Benning?
    Secretary Grone. I don't have that specifically in front of 
me today, but I can get that to you this afternoon. That is not 
a----
    Mr. Rogers. I would appreciate that.
    Thank you, Mr. Chairman.
    Secretary Grone. That is a short question and answer.
    [The information referred to can be found in the Appendix 
beginning on page 227.]
    Mr. Courtney. Thank you, Mr. Chairman.
    It is probably unfair to ask you about every single change 
in the 2005 BRAC law. And if it would be okay, there is a 
couple Connecticut-specific items which we will just submit in 
writing, and any help your office can give in terms of some 
questions we have about implementation.
    And the only question I really wanted to ask about was just 
the consolidation of the Reserve Centers, which, again, GAO 
looked at that issue and determined that the costs are higher, 
the savings are less, but nonetheless it still seems like a 
good plan, something that I know the guard and reserve units in 
New England, at least, are very excited about.
    But there does seem to be implementation problems in terms 
of just, again, the costs that this is going to result in and 
also some of the siting that the statute specifically mandated. 
Newtown, Connecticut, was identified as a place where there is 
a Reserve Center that would be built. Unfortunately, there does 
not appear, because Newtown, Connecticut, is pretty good real 
estate, a location where this can happen.
    And I guess GAO stated that there needs to be sort of a 
better system for stakeholders to really understand how this is 
all going to sort of place itself out. And we are seeing that 
in Connecticut, is that there is a lot of confusion, again, 
from people who don't--who support the concept and want to see 
it happen. And I am just wondering whether that is something 
that is happening across the country, whether or not the 
Department of Defense is trying to come up with a strategy to 
help implement whether it is a good idea.
    Secretary Grone. Well, sir, I appreciate your comments 
there, because the effort to--particularly for the Army, for 
this to be a total force BRAC process and to do those 
consolidations, is critically important to the future of the 
reserve components and their role with the active force as part 
of the total force to execute the mission.
    The adjutants general were very deeply involved in that 
process. They will continue to be deeply involved in that 
process. I am a bit concerned that you say that there may be 
some issues of stakeholders in the state of Connecticut that 
may need some addressing, and I am happy to go back, and talk 
to the Army about that, and have some folks come talk to you 
about that, because I think it is important to keep that all on 
track.
    The question that is not the implementation challenge in 
relation to cost--and it is a point I want to stress again--is 
that when we brought the fiscal year 2006 budget to Congress, 
there were concerns--or 2007 budget to Congress--there were 
concerns that whether or not we were going to fully fund the 
program.
    And the questions at the time were, ``We know the program 
is not fully loaded, in terms of the funds against the 
requirements. How can you assure us that every action will be 
undertaken?''
    The commitment of the Secretary and the Deputy Secretary 
was that, after we went through all the implementation 
planning, we would have a fully funded program. And that is the 
program we brought forward this year. So the reserve force 
component transformation pieces are fully funded in the 
program.
    Issues of implementation planning and some of those 
specific details about a specific reference to a specific town, 
which may not have an available real estate asset, is one we 
are going to have to continue to work through. There are a 
limited number of those across the country, but there are ones 
we are going to have to continue to work very hard, because the 
Reserve Center transformation is a critically important part of 
the total force concept.
    So I would like to have some folks with the Army come talk 
to you about that to make sure that we have got the right 
people talking to each other in this process to make that go as 
smoothly as possible.
    Mr. Ortiz. You know, when you say that the program is fully 
loaded, is this including the quality of life facilities, as 
well?
    Secretary Grone. The quality of life? What kind of quality 
of life facilities, because we have--in terms of--I am not 
quite sure what we are talking about.
    Mr. Ortiz. See, when we talk about quality of life, we go 
from health facilities, Post Exchanges (PXs), Naval Exchanges, 
all that kind of stuff.
    Secretary Grone. I mean, some of the major additions, 
particularly to the Army package, the $4 billion package, was 
in the quality of life arena. In answer to the question of the 
gentlelady from Kansas, I suggested that there are some aspects 
of the commissary and exchange system and some of the things 
that would be funded, either MILCON, BRAC or through the 
surcharge, that needed to be looked at, because there was 
apparently some uncertainty within the system about where these 
go.
    As those requirements are identified and specified for what 
ought to fund them, then they will be funded in that way. And 
if we make an adjustment in the next budget request to 
accommodate those that are BRAC-specific, we will make that 
adjustment.
    But every requirement that we know today that is a quality 
of life requirement, pertinent to the BRAC recommendations that 
have been identified by the services, and they are part of the 
program.
    The full funding requirements that the Secretary and the 
Deputy Secretary made one year-plus ago pertain not just to 
that program, but to the program and to the process. There will 
be requirements that come off the table for things that are no 
longer required, just as, as we do some further planning and 
examination, there may be a BRAC-related child development 
center or a commissary that may be needed. And that may come 
into the program.
    But based on the requirements we know today that are 
specific to BRAC, they are in the program. And then, as I 
indicated, my colleagues in personnel and readiness are looking 
at that very question, particularly on the commissary and 
exchange system, to understand which of the three lanes those 
ought to be funded in. And I would expect we would make the 
appropriate adjustment at that time.
    Mr. Ortiz. I would like, before I move to Mr. McHugh from 
New York, do you agree with that statement?
    Mr. Lepore. As you know, Mr. Chairman, we took a look in 
our report that we call the Growth Bases Report at the 
preparedness of the installations that were growing, such as 
Fort Benning, to accommodate everybody coming in.
    That report was broader than BRAC. It did talk about BRAC, 
but it also was discussing Army modularity, the establishment 
of the brigade combat teams, to a lesser extent, growth of 
force could be involved that, as well.
    And the point we were making in that report, which is what 
I believe you are asking me about, was, what it clear to the 
local installation commander at the installations that we 
visited, that all of the childcare and other quality of life 
kinds of facilities would be there when the forces arrived? And 
there was some concern that some may be there, some may not be.
    But it is important to note that that report talked about 
more than BRAC. And I believe Secretary Grone's comment dealt 
with BRAC specific.
    Mr. Ortiz. Thank you.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Let me begin by adding my words of congratulations to our 
new ranking member. I know, Mr. Chairman, you and he will work 
very well together, and I certainly look forward to working 
with our new leader.
    Also, to Secretary Grone, Phil, best wishes to you in the 
future. You still have many, many friends here, more than most 
of us have on this panel. So I wish you all the best, and we 
appreciate all the great service that you provided this 
committee and, of course, in recent years to the Department and 
to the men and women in uniform.
    Having said that, I want to make sure--I have heard your 
dialogue with Ms. Boyda. I just heard the exchange with the 
chairman. And that was really going to be the one area of 
inquiry that I had.
    More generically, we have got a pattern through 
nonappropriated fund projects that is disconcerting to me and 
concerning, as well. And as you look at years 2005 through 
2008, when you have got commissary and Navy construction 
requests that total about $2.2 billion, $929 million of those 
dollars, or over 40 percent, resulted because DOD requested 
waivers to allow Navy funding, nonappropriated funding, to be 
used to pay for projects that, by stated DOD policy, ought to 
be built with appropriated funds.
    We all understand there comes a time when waivers are 
required, when you have projects that are unable to be 
accounted for in an appropriate way. In fact, that is the quote 
from the DOD policy from time to time. But over 40 percent is a 
pretty big number through a three-year period.
    And as we look at 2008, of the total funds that you have 
requested, we are really concerned again about this use of 
waiver, particularly in the BRAC and the re-stationing 
accounts, because those are projects that, by policy--and I 
heard you say that your personnel folks are looking at it, but 
we have looked at it--and, by policy, certainly should not be 
Navy funding. I guess we can talk about other possible ways, 
but shouldn't be Navy funding, except on time-to-time basis.
    So I wanted to weigh in my two cents' worth. I don't know 
if you want to respond to my comments any differently than you 
did in the dialogue that you had with my two colleagues. But 
this is a concern, and I don't need to lecture you or even 
discuss with you, because I know you fully understand, when we 
divert those Navy funds, those are dollars that are unable to 
go to very important projects that benefit quality of life of 
every solder, sailor, airman, and Marine out there.
    So that is an unpaid editorial comment on my part. If you 
would like to comment, I would be appreciative.
    Secretary Grone. Mr. McHugh, thank you for your kind 
remarks. I will take the concerns expressed by Ms. Boyda, the 
chairman, and yourself back to Mr. Dominguez and raise them 
with him. And we will see where that sort of process goes.
    I understand and appreciate the dynamic that you have laid 
out. I understand it. I will make sure that I will raise it 
with the appropriate folks, Dr. Chu and Mr. Dominguez, and see 
how that will be addressed in the coming weeks and months.
    Mr. Ortiz. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    I just want to follow up a little bit on what Congressman 
Courtney was talking about. I am from Iowa, from the Second 
District of Iowa, and folks don't think about military 
facilities in Iowa very often. In fact, when I mentioned this 
prior to the hearing today, Mr. Lepore thought I had Rock 
Island, but I don't. That is in Congressman Braley's district. 
There are four Iowa National Guard facilities included in the 
2005 BRAC, and of these three of them, all of which are in my 
district, have yet to be funded. The Cedar Rapids and 
Middletown sites include Armed Forces readiness centers and 
field maintenance shops. The Muscatine site is a readiness 
center.
    The facilities were built in 1916, 1950, and 1973 
respectively. They are too small to support current operations. 
They contain asbestos and are prone to flooding, yet the Iowa 
National Guard has not received funding to improve the sites in 
over 15 years.
    The Iowa National Guard, like National Guard units across 
the country--I don't think this is necessarily a district-
specific concern; we already heard from Congressman Courtney, 
as well--the Iowa National Guard faces increasing recruiting 
and retention shortfalls. You mentioned sort of part of the 
overall force requirements.
    Rundown, unhealthy facilities weigh heavily on recruitment 
and retention. I think that probably shouldn't go without 
saying. But the readiness centers are therefore absolutely 
vital to the health of the guard.
    Secretary Grone, in your testimony, you state that BRAC 
2005 is based upon, in part, ``the impact on operational 
readiness of the total force of the Department of Defense, 
including the impact on joint warfighting, training and 
readiness.'' The Army approved designs for all three BRAC 
sites, and my district will not only modernize infrastructure 
and maximize funding, but will also allow for increased joint 
operations and training between the Iowa National Guard and 
reserve forces.
    Such infrastructure will improve, ``joint warfighting, 
training and readiness.'' Yet this week, I was informed that 
the Army informed the Iowa National Guard they do not intend to 
fund construction of field maintenance facilities that are 
meant to support multiple armories, despite having previously 
approved designs that are intended to do just that.
    I am, of course, deeply concerned that cost overruns and 
delays in the BRAC process have led the Army to prioritize 
funding in such a way that the National Guard is being left 
behind with the possible result that the Cedar Rapids, 
Muscatine and Middletown sites will have to be scaled back and 
the effectiveness of BRAC 2005 reduced.
    Can you just speak to some of those concerns that I have 
raised, Secretary Grone? I really appreciate that very much.
    And I guess one of the major questions is, are the cost 
overruns and construction delays resulting in scaled-back goals 
for the BRAC 2005 process?
    Secretary Grone. I am not aware that that is the case. And 
I would have to go back and consult with the Army on what the 
force transformation, reserve component transformation plan in 
Iowa looks like and whether or not there are projects that are 
being adjusted. I mean, I just don't know the detail, 
obviously, as well as you do, sir, and I would like to go back 
and do that and get back to you by Friday, if I could.
    Mr. Loebsack. That would be great. Thank you. I appreciate 
it.
    Secretary Grone. I mean, it is not the case that we are 
going to comply with every recommendation. And the program and 
the resources in the program are designed to allow us to comply 
with every recommendation. So I would like to go back and look 
at the specifics on that one and then get back to you, because 
it doesn't----
    Mr. Loebsack. Well, the timelines have been pushed back 
out.
    Secretary Grone. I mean, I certainly understand that, in 
some cases, given the state of appropriations and planning, how 
projects and plans can shift within the implementation period. 
That is one thing we have to do. That is materially different 
from saying we are not going to do something.
    And the implication in your question that we are not going 
to do something, then I want to go back and take a look at it.
    [The information referred to can be found in the Appendix 
beginning on page 223.]
    Mr. Loebsack. Okay. Yes, thank you, and I guess I just want 
to reiterate again, you know, sort of the importance, the 
increased importance that we have seen in recent years with the 
war in Iraq, obviously, and Afghanistan, as well, the increased 
importance of the guard and the reserves.
    These facilities, you know, they clearly have to be 
upgraded. There is no doubt about it, because it will have 
certainly an impact on recruitment in the future, as well.
    So thank you very much to both of you. I yield back the 
rest of my time.
    Secretary Grone. And, Mr. Chairman, if I might, just to 
make sure that----
    Mr. Ortiz. Go right ahead.
    Secretary Grone [continuing]. Particularly the staff sort 
of understands. In the intervening 72 hours, if I indicate to 
them that I am going to get back to them directly, we will also 
provide material in writing for the record so that the record 
is clear, so that what is told to a member verbally is going to 
be told in writing on the record. So I would just make sure 
that----
    Mr. Ortiz. Thank you.
    My good friend, Mr. Robin Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    And, Phil and Brian, thank you for coming today. You are on 
your home field here, Phil.
    I want you to both speak to me. Phil, begin first. Talk 
about planning and implementation as it relates to BRAC on 
Impact Aid. My focus is pretty much on BRAC and Polk, and the 
number of students added to the school system.
    If you would just update the committee on plans for 
implementation, execution, particularly of Impact Aid and 
assimilating these students as the moves are made.
    Secretary Grone. Well, Mr. Hayes, as you know, one of the 
challenges of the Impact Aid program is that it is a trailing 
indicator. The districts don't receive the funds until after 
they know how many students are there, and they have been 
working with them for a year, and then they get the funds.
    One of the issues is when Impact Aid money comes. And it 
tends to be in a trailing indicator. If you have a stable 
population, stable student environment, no significant increase 
in force structure, that generally tends to work and work well.
    Schools apply for the money after they know how many 
students are there. We can do the Impact Aid categorization. 
One of the challenges in implementation is that a number of 
school districts are saying, based on the plans that a given 
component, the Army, may have, we have an infrastructure 
challenge and we have an Impact Aid challenge, in terms of 
being able to support the students when they arrive, even if we 
have the infrastructure.
    And that is one of the issues that has been discussed 
between the Army and the Department of Education, is to how to 
make that process work a little bit better for local education 
authorities. I just don't know that we have an answer yet, a 
specific answer yet, in terms of what any changes we may choose 
to make.
    And that is just something--folks are still talking about 
working with local folks about how this process is going to 
work.
    Mr. Hayes. Obviously, this issue is very familiar to a--and 
this is my fault--a fairly small group within DOD. Can you 
speculate on how active this small, knowledgeable group will be 
in putting forward what you just expressed is an essential 
idea, that rather than following, if there is any way we can 
turn this into a lead in preparation process, as opposed to 
trying to play catch-up?
    Secretary Grone. Well, I can't speculate on how active or 
inactive any one individual is going to be for organization. 
And there are still just a number of proposals on the table for 
how we deal with the education question. And so there is no--I 
can't be specific in terms of what the answer will be, because 
we don't know what the answer is going to be yet.
    And that is part of what results from the discussions we 
are having in St. Louis this week, the work that we are doing 
with local education agencies, other interested parties. I 
mean, I think it is just too early for me to be able to say 
that there is an answer.
    Mr. Hayes. Well, Dr. Deegan will be in the next panel, and 
I am sure he will speak to the specifics. But in the meantime, 
those of you who are here and listening and those back across 
the river, this is an absolutely family support issue. It is a 
crucial education issue.
    And I hope the number of people that are actively involved 
in advocating for increased Impact Aid will be listening and 
expanding their participation and horizons, because it is so 
important for family support for our troops and education in 
general.
    Brian, would you have any additional thoughts?
    Mr. Lepore. Yes, I appreciate the opportunity to jump in 
here. As you may know, we are taking a look at the Impact Aid 
that is available from the Federal Government more generally, 
not just from DOD, but also Department of Transportation, 
Department of Education, and so forth.
    That particular engagement is well underway. We are in the 
process of collecting data right now, visiting local 
communities, as well as the installations that are surrounded 
by the communities, and the Federal agencies that actually have 
some level of Impact Aid available.
    We expect to release that report later, in late-winter, 
mid-spring time frame, something like that. We are still 
collecting the data right now, have not begun to write yet. But 
I suspect that report will answer many of the questions that 
you are raising. And as I said, that study is well underway, 
and we expect to be done early next year.
    Secretary Grone. And, Mr. Chairman, if I may add to Mr. 
Hayes, this is not just--we are not proceeding with this as 
solely just a DOD issue. There are a number of team and field 
visits that are being conducted jointly between DOD and the 
Federal Department of Education.
    So we are leveraging every part of the Federal interagency 
that is concerned about the education of the children of 
servicemen and women, to make sure that we understand the 
problem well, that we are designing the right programs, that we 
are going to have the right answers, and working 
collaboratively with folks.
    So it is not just DOD. We are working actively with the 
Department of Education, and folks are out there working it 
very hard.
    Mr. Hayes. Appreciate the interest and the comments, Mr. 
Chairman. And I am sure it is something that you all will stay 
after.
    Dr. Harrison is our public school superintendent--wonderful 
individual and office to work through. And a few other little 
small pieces in closing, we need some additional parking. They 
are not listed in the material here today, but just a couple 
little pieces to make BRAC work smoother. And MILCON is very 
important.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ortiz. Thank you, sir.
    My good friend, Mr. Cummings from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Lepore, in 20 years, how much do you believe the 
overall BRAC process will save the DOD and, specifically, the 
movement of Fort Monmouth to Aberdeen's Proving Ground? Do you 
have that information?
    Mr. Lepore. Yes, I sure do. We have that, as well, in the 
report that we issued yesterday. The 20-year net present value 
is running on the order of $25 billion, give or take, and there 
is a savings, 20-year net present value savings, according to 
the DOD data, from closure of Fort Monmouth and the realignment 
of Aberdeen, and the military preparatory school going to West 
Point, on the order of $450 million, give or take.
    The key point, though, Representative Cummings, is both of 
them still do show a savings.
    Mr. Cummings. I am sorry, say that again?
    Mr. Lepore. Both do--the bulk analysis continued to show a 
savings from the Fort Monmouth recommendation.
    Mr. Cummings. Mr. Secretary, thank you for your service. 
And BRAC is about far more than cost savings, is it not?
    Secretary Grone. Yes, sir.
    Mr. Cummings. It is about maximizing military value and 
creating synergy and efficiency within the Department of 
Defense, a task that is critical for us to adequately provide 
support to our troops overseas and ensure that we succeed in 
our mission to protect our families from terrorist attacks, is 
that correct?
    Secretary Grone. That is correct.
    Mr. Cummings. No, Mr. Secretary, beyond the cost and saving 
value of the move of Fort Monmouth to Aberdeen Proving Ground, 
what are the exact benefits that his consolidation will provide 
the DOD and our troops on the ground, particularly in combating 
terrorists? Do you have that information?
    Secretary Grone. Well, Mr. Cummings, the underlying 
question of how to deal with Command, Control, Communications, 
Computers, Intelligence, Surveillance and Reconnaissance 
(C4ISR) and other mission sets that the Army needs and where to 
do that and how to do that was a principal part of and a key 
aspect of this recommendation.
    This recommendation is not about merely replicating the 
capabilities at Fort Monmouth at Aberdeen Proving Ground with 
no other mission capability brought to bear. And I know there 
is concern about the cost of the closure and the realignment of 
those functions.
    But what is being created at Aberdeen is something we do 
not have today. And as the Army details the report later this 
month on how that plan will come forward and the capability 
that will be built, pursuant to the recommendation, and the 
mitigation plan that they have in place to mitigate for any 
loss of intellectual capital and how we will continue to 
proceed with the military mission, it will be something that we 
will be able to demonstrate, I think fairly effectively.
    But the notion of the integration of a number of different 
prototyping facilities from a number of different aspects of a 
mission is critically important. And I know there was 
disagreement at the commission from folks who supported keeping 
missions at Fort Monmouth.
    But the Army's view, the Department's view, the 
commission's view that Fort Monmouth didn't have the expansion 
capacity and the capability to take these additional co-located 
missions that are not just coming from Fort Monmouth, but that 
are coming from two other Army installations to Aberdeen 
Proving Ground, was a key part of what we are trying to do.
    So the military value that is part of the underlying of the 
mission, ability to look at current and future missions in a 
very sort of detailed way, is going to give the Army and the 
Army Materiel Command and the C4ISR and other related missions 
the capability that it needs for today and for the future.
    The Secretary of the Army committed, the Department 
committed that we would realign and manage those missions and 
that transition in a way that did not disrupt our ability to 
conduct ongoing operations.
    It is in many ways not a dissimilar commitment from the 
commitment that was made in the realignment of military medical 
mission inside the national capital region, but as we 
transitioned to a new Walter Reed National Military Medical 
Center that the capability to support forces and support our 
people will be in place before the mission transitions.
    And so those commitments are there. The Army will, I think, 
be able to demonstrate a very effective plan for that. But the 
underlying military justification, absent the question, just 
divorced from the question of cost and savings, the inherent 
military value that was demonstrated to the commission by the 
department remains military value for a new capability we do 
not have today.
    And it is critically important to the future of the Army 
and the nation, and we need to proceed with it.
    Mr. Cummings. Thank you very much.
    And I understand that the DOD will be submitting a report 
certifying that the movement of Fort Monmouth to Aberdeen 
Proving Ground will not harm our fight against terrorists? Is 
that correct?
    Secretary Grone. The commitment was that we would submit 
that report by the end of the year, that is correct. And we are 
on track for that.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Ortiz. Mr. LoBiondo from New Jersey.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much for 
holding this hearing. I, as many of my colleagues, have some 
very serious concerns about the BRAC process, and in particular 
as it regards to Fort Monmouth.
    I would like to ask unanimous consent to submit a statement 
for the record and, in so doing, expressing my serious concern 
about Fort Monmouth, yield my time to our Republican expert 
from New Jersey, and really in the whole Congress, Congressman 
Jim Saxton, to carry on with this issue.
    [The information referred to can be found in the Appendix 
on page 170.]
    Mr. Ortiz. No objections.
    Mr. Saxton. I thank Mr. LoBiondo for yielding.
    And thank you, Mr. Chairman.
    We are actually here today to review the BRAC process. And 
I think it would be interesting to put it into context in this 
way. I remember 20 years ago when Congressman Dick Armey had 
introduced the first legislation to create Base Realignment and 
Closure.
    In trying to get enough votes, there was a general from the 
Pentagon who came to visit. And he said, ``We really need a 
BRAC process.'' And he said, ``My job in the Pentagon has been 
to close bases.'' And he said, ``Since I have been in that job 
now for three years, we have closed none and opened two.''
    So he said we need a process, because many bases were 
opened during World War I and World War II and established and 
have grown under circumstances that were then important 
circumstances for the military at the time, but today's 
military is different. So we need different bases, and we need 
to realign some.
    And he said, won't you please vote for what I call BRAC 
1989? I forget what the official name of it was then. And then 
the BRAC process actually evolved from BRAC 1989 to BRAC 1991 
and BRAC 1993 and BRAC 1995. And the process changed. And now 
we are talking about BRAC 2005, and the process has changed yet 
again.
    So keeping all that in mind and keeping in mind that the 
members of the Base Realignment and Closure commission are 
human, keeping in mind that people who testified before the 
Base Realignment and Closure commission are also human, keeping 
in mind that human beings from time to time do things that they 
wish they could change later if they had the opportunity, and 
keeping in mind that, when Congress as part of the BRAC 2005 
process said, ``Yes, these recommendations are acceptable,'' 
and they became law, and the only way to change them is by 
creating a new law, and since Congress has historically 
declined to change BRAC, in my view, as far as I know, ever, 
that means that the BRAC process reaches a dead-end when 
Congress adopts the recommendations or fails to reject the 
recommendations of the Base Realignment and Closure commission. 
The process comes to a dead-end.
    And I have always thought that it would be something that 
would be healthy to explore, as to whether or not we really 
want it to be a dead-end. Congress won't deal with it. There is 
no process in place through BRAC that I am aware of to deal 
with it.
    And so, as part of this look that we are doing today 
regarding the BRAC process, from your experiences--both of you 
have extensive experience, both in writing BRAC laws and in 
evaluating BRAC laws, and in carrying out BRAC laws, I am 
wondering if there ought to be a way that a Fort Monmouth or a 
whatever base is--if there has been an egregious mistake made.
    Is there room in the evolutionary process to plug in that 
would address this dead-end problem that I am talking about?
    Secretary Grone. Mr. Saxton, I don't know how one would do 
that without reopening the entirety of the process. And the 
reason I say that--and Fort Monmouth is an example, but it is 
not the only example--is that there are fairly significant and 
very deep daisy chains that affect each of these 
recommendations. And to be able to say--which I do not 
concede--that a mistake was made in this case affects at least 
four other installations and disrupts the organic planning for 
how we would address the new mission and the new capability.
    There is always the thought that, once a BRAC commission 
makes a recommendation and it is accepted and it becomes law, 
that basing that force lay-down, whatever it is, is forever in 
stone, the reality is that new mission requirements 10 or 15 
years from now--and it is slightly easier to do with smaller 
size military units who can reposition forces, move a ship, 
move a squadron--the only way to really get at the 
comprehensive question is through a comprehensive examination.
    The recommendation of the Secretary of Defense, sustained 
by the commission with some changes and then ratified by the 
President and the Congress, arose out of a comprehensive 
examination of the technical capability and capacity of the 
Department of Defense. The only way to do anything like that 
would be to reopen the entirety of the technical functions of 
the Department of Defense.
    At that point, you have what is a rough equivalent of a 
mini-BRAC. And future rounds of Base Realignment and Closure, 
as the Secretary of Defense and the chairman of the commission 
indicated at the appropriate point in time, their view was that 
Congress should provide for a periodic, time-to-time--I believe 
it was at every ten years--ability to go in and re-examine 
missions, re-examine deployment of forces and mission sets, and 
particularly as it affects things that involve civilian 
personnel, because the organic statute makes it very, very 
difficult to realign or adjust missions in any way, shape, 
manner or form, as it affects civilian personnel.
    So the only way in which to do that would be along the 
lines that Secretary Rumsfeld and Chairman Principi 
recommended, which is a periodic, comprehensive examination. 
That does not mean that every round would be as large as this 
one. This one occurred in the middle of significant force 
transformation.
    But the ability for a process to comprehensively look at 
all of the available missions and make changes as necessary is 
the only way that I know of that would be fair and reasonable 
and actually be comprehensive enough so that we would have 
surety in the outcome.
    Mr. Lepore. As you know, we have been directed by the House 
Armed Services Committee to do an ongoing monitoring, if you 
will, of the implementation of BRAC 2005 with a post-
implementation report within one year of the end of 
implementation or, said differently, we will have a report out 
on or before September 14, 2012.
    Essentially we expect that report will be a kind of lessons 
learned report, what worked well, what didn't, what was 
different about BRAC 2005 versus the prior four BRAC rounds. 
And I am hopeful that that report, when it comes out, may 
provide some assistance as the Members of Congress think about 
whether or not there ever will be a future BRAC and, if there 
is going to be one, regardless of its size or complexity or the 
estimated cost, that the lessons learned from this BRAC, as 
well as the prior four BRACs, are helpful in designing what the 
statute would look like to implement that future BRAC, if there 
ever is one.
    So I am hopeful that that report will provide some of the 
kinds of information that I think would be helpful at that 
point.
    Secretary Grone. And, Mr. Chairman, and just to quickly add 
one aspect to the question that Mr. Saxton raised, I am 
reminded that, when the Administration sought authority, it 
requested two rounds. Congress, in its judgment, authorized 
one.
    So the ability to have had, I think for lack of a better 
term, a self-corrective mechanism or a re-examination would 
have been provided, but the national decision--the national 
decision was one round. Our original proposal was for two.
    Mr. Saxton. Mr. Chairman, if I could just--so the answer is 
that the only way to have a re-examination would be to have 
another round of BRAC, where a base that had been closed could 
be reconsidered in that BRAC round, is that what you are 
saying?
    Secretary Grone. In my personal opinion, yes. It is the 
only way to have a comprehensive examination of the question.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Ortiz. Now I yield to my good friend from Guam, Mrs. 
Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And thank 
you for calling this meeting today.
    Mr. Grone, thank you for testifying. And I also want to 
thank you for your service and wish you the best of luck in 
your future endeavors. Mr. Lepore, I appreciate all the work 
that the Government Accountability Office, especially your 
team, and for matters of the interest of Guam that you have 
rendered.
    My question has to do with cost savings. The skepticism of 
the cost savings with the BRAC process has been well-known, and 
I have long been skeptical about the cost saving benefits of 
the BRAC process.
    In the 1990's, Guam was the crosshairs of BRAC, with the 
closing of several critical installations on our island, namely 
the Naval Air Station and the U.S. Ship Repair Facility. At the 
time, I was the lieutenant governor and the chair of the BRAC 
commission closures, and I traveled many times to the Pentagon 
to plead with them not to close bases on Guam because of its 
strategic position.
    The base closures, in my opinion, were intended to save the 
Department money in the long run. However, nearly a decade 
later, the strategists are re-proclaiming Guam as the most 
strategic asset in the Pacific. And now we prepare to meet the 
demands of an estimated 30,000-person increase in population, 
primarily as a result of the realignment of nearly 8,000 U.S. 
Marines from Okinawa, costing nearly $14 billion over the next 
6 years.
    This military buildup on the island makes the BRAC 
decisions over the 1990's seem short-sighted and has made the 
current realignment more difficult, as DOD seeks to reclaim 
lands, improve infrastructure that had been neglected for many 
years.
    Perhaps the 2005 round of BRAC has yielded what some would 
believe to be similarly short-sighted recommendations. Now, 
among these recommendations would be the decision to close Fort 
Monmouth. The GAO report released yesterday indicates that 
there are cost overruns totaling about $680 million, resulting 
from the realignment of personnel and military assets from the 
fort to other locations in the United States.
    Fort Monmouth is an important military asset for research 
and testing and evaluation of new technology. As DOD continues 
to implement this BRAC recommendation, what steps are being 
taken to mitigate any further cost overruns, specifically 
associated with the BRAC changes at Fort Monmouth?
    Additionally, the GAO report cites that part of the cost 
overruns are due to the fact that personnel and infrastructure 
changes at other military installations, such as Aberdeen 
Proving Ground, could potentially delay the actual closing of 
Fort Monmouth.
    I fear that such a delay issue could also emerge with 
regard to the realignment of military forces from Okinawa to 
Guam. Why hasn't the Department built in buffer time for these 
types of moves?
    Secretary Grone. Ma'am, the answer to your last question is 
the statute provides the deadline. The legal mandate is that 
all Base Realignment and Closure actions resulting from the 
2005 round must be completed by September 15, 2011.
    That is not a discretionary choice on the part of the 
Department. We have to finish by that deadline.
    The question of costs and savings at the general level--
while I understand your question, I respectfully disagree. But 
our colleagues in the Government Accountability Office and we, 
as was indicated earlier, have this disagreement over military 
personnel savings.
    Even if you discount, which I don't concede, the military 
personnel savings that result from this round, the savings are 
still substantial at over $2 billion in annual recurring 
savings beginning in 2012. When I served on this committee as a 
member of staff, a good MILCON program for any of the 
components in any given year was $1 billion dollars. So from my 
perspective, that is the rough equivalent of two military 
departments' MILCON programs every year from here to the far 
horizon.
    Those are resources that can be reallocated to other 
purposes. And if you concede the point on military personnel 
eliminations and the savings and cost avoidances that come from 
that--now we are talking about $4 billion in annual recurring 
savings on an annual basis. That can be more effectively 
applied to mission support or military construction or the 
movement of the Marine Corps from Okinawa to Guam or whatever 
the mission set might be.
    Even with, on the question of savings, this question of, 
what is the annual recurring savings from the closure and 
realignment of the missions at Fort Monmouth? Both we and the 
GAO agree that there is a savings. Those savings are--given the 
nature of Fort Monmouth, those savings do not accrue and this 
is not a dispute over whether or not military personnel savings 
are real or not.
    These are savings that result from overhead. And it is a 
point that we and the audit community do not disagree on.
    And as I previously indicated, one of the great challenges 
in implementation is timely receipt of appropriations. And 
again, we are in a position where we are the 26\1/2\ months we 
have had effectively to legally implement the decisions of the 
commission, as they were enacted into law.
    And for 14 of those 26\1/2\ months, we have been encumbered 
by some way to act. And our ability to get to the legal 
deadline is entirely dependent, again, upon the ability to 
apply resources where they are needed, on time, to be able to 
accomplish the mission.
    Ms. Bordallo. Thank you, Mr. Grone.
    I also respectfully disagree on the savings. I am very 
curious about Guam, because now we are spending billions of 
dollars to rebuild housing and what-have-you that has laid 
dormant for all these years. And in the tropics, things 
deteriorate very quickly.
    And I am just curious--I am having the staff here look up 
the savings. Were there savings on these closing the bases in 
Guam?
    Secretary Grone. I don't have the COBRA analysis on the 
1993 or 1995----
    Ms. Bordallo. Can I ask you to provide the committee with 
the cost savings? Because now we are spending so many billions 
of dollars to relocate, and all of a sudden we have decided 
that Guam is strategic. So I just wondered, you know, if you 
could provide the cost savings in that--for the naval 
activities on Guam.
    Secretary Grone. We could. I would caution, ma'am, though, 
that some of the--it is not entirely an apples-to-apples 
comparison, because some of the facilities that were closed are 
not facilities that are going to be used to support a Marine 
moved from Okinawa to Guam.
    Ms. Bordallo. I understand that.
    Secretary Grone. So there would have been significant 
acquisition activity of facilities in any event, even if the 
1993 round had not occurred.
    [The information referred to can be found in the Appendix 
beginning on page 223.]
    Ms. Bordallo. Mr. Chairman, if I could, I had one more 
quick question for Mr. Grone.
    Mr. Ortiz. Because our new member from Colorado is very 
anxious to ask a question. He is a new member. But go ahead. Go 
ahead.
    Ms. Bordallo. Very quick. I am just curious about the BRAC 
2005 joint basing.
    A joint base will be valuable on Guam if its cost savings 
are realized. However, some of these joint basings, I don't 
know if they have been 100 percent workable.
    I am just wondering, the Air Force base and the Naval base 
on Guam are 20 miles apart. Now, the mere geographical 
separation of the two installations could inhibit the foreseen 
cost savings envisioned by BRAC recommendations. So to that 
end, to what extent will the department allow base commanders 
to determine how joint basings will be implemented? That is my 
question.
    Secretary Grone. The joint basing recommendations are among 
that small set of recommendations where business plans have yet 
to be approved. There are a significant set of proposals on 
guidance to the field about how to implement joint bases.
    There remains some--although the differences have 
narrowed--there remains some disagreement about one or two core 
principles. And the senior leadership will have to sort through 
those disagreements.
    Under any scenario, without regard to the policy issues 
that are at dispute, the process that we are laying out begins 
at the local level, within a framework of overall guidance. And 
there will be some considerable discretion at the local level 
to design processes that make sense.
    We are currently conducting tabletop exercises at all of 
joint base locations, and we have conducted them in Guam.
    Ms. Bordallo. Yes.
    Secretary Grone. They are designed to inform the memoranda 
of agreement that are going to be necessary to implement that 
process. My expectation is that those would be ratified by the 
vice chiefs, so we will have a process that will reflect local 
requirement.
    We are not going to manage that with an across-the-world 
screwdriver on Guam down to some very narrow ridges. But we are 
going to put it within a basket of general guidance, so that 
commanders have some surety about what they need to do.
    Ms. Bordallo. Thank you, Mr. Grone. And just so you keep 
Guam on the radar screen.
    Secretary Grone. Yes, ma'am.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Grone. Thank you.
    We are very happy to have a new member who is a member of 
the Readiness Subcommittee. From Colorado, he brings a lot of 
knowledge to our committee, and I am just happy that he belongs 
to my subcommittee, Mr. Lamborn from Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And it is an honor to join this subcommittee. And I don't 
have an immediate question, so I would like to yield my time to 
my colleague from New Jersey, Mr. Smith.
    Mr. Ortiz. The gentleman yields.
    Mr. Smith. Thank you to my good friend from Colorado. And 
thank you, Mr. Chairman, for allowing us to sit on this 
committee. There are four of us here that are not part of it, 
and I do thank you for that.
    Mr. Chairman, while it is probably true that many, perhaps 
most, of the BRAC recommendations years to date have refocused, 
synergistically enhanced, and led to positive military 
outcomes, that is, the joint base in New Jersey, the impending 
closure of Fort Monmouth represents an egregious exception that 
unnecessarily puts the warfighter at risk.
    Because of a near-certain loss of over 3,000 highly 
skilled, highly motivated, extraordinarily talented men and 
women, 70 percent of the fort's workforce will not move. It 
will take several years to replicate in Aberdeen what is 
currently a world-class facility.
    Mr. Chairman, we are at war. We don't have years. Gaps put 
lives at risk. Victor Ferlise, recently retired after 36 years 
of C4ISR service, including the 14 years as deputy to the 
commanding general, will tell the committee in panel two that 
Fort Monmouth ranked extremely high in military value, 
including first in development and acquisition in information 
systems technology and first in sensors, electronic and 
electronic warfare, and that only when non-mission-related 
attributes are factored in does its value drop.
    Secretary Grone testified just a few moments ago that 
military value was the primary consideration in making closures 
and realignment recommendations.
    So my first question to Secretary Grone: Would you explain 
this contradiction?
    In areas where it really matters, high military value, one, 
one, one and three, when non-mission-related attributes are 
factored in, it drops. So if that was the criteria, why did, 
again, Fort Monmouth need to be put on the closure list?
    Secretary Grone also testified that COBRA was not designed 
to, nor does it produce, budgetary, qualitary estimates. Why 
not? Why not take a better look at what the real costs are?
    Chairman Ortiz, you talked about the process being tainted 
and flawed. Nowhere is that more apparent than in that 
underaccounting.
    Systematically underestimating costs, GAO puts Fort 
Monmouth's closure at $680 million more than advertised, raises 
the concerns among many of us that selected estimates were used 
to achieve a desired outcome.
    It turns out that even when COBRA's numbers were corrected, 
like the garrison operating costs, thought to be $93 million, 
it was really $50 million per year. Even the number of $1.44 
billion, in terms of what the total costs of moving would be, 
those validated costs were not included in what the BRAC 
commissioners looked at.
    The bottom line, Mr. Chairman, is this: In an unprecedented 
act, the BRAC commission itself seemed troubled enough to 
caveat this and only this decision with unprecedented 
conditionality by requiring a DOD report verifying that the 
move to Aberdeen will be accomplished without a disruption of 
their support to the global war on terror, that redundant 
capabilities be put in place to mitigate potential degradation 
of such support, and to ensure maximum retention of critical 
workforce.
    We argue, our delegation, that this simply cannot be done. 
And we believe that the numbers and the rationale that we have 
offered throughout this process proves it.
    I would ask, Mr. Chairman, respectfully that there be a 
follow-up hearing--you did say this was the first hearing--
perhaps in January, to carefully review that report, which DOD 
will submit at the end of this month, to scrutinize the 
business plans to ensure that each concern is thoroughly 
addressed.
    Too much is at stake. Too many Americans, too many 
coalition soldiers, sailors, airmen and Marines may be put in 
serious jeopardy if we don't get this right.
    Specifically, in addition to the military value question, 
Mr. Grone, I would ask--30 percent retention of critical 
workforce is the anticipated number, 70 percent loss, 3,100 
employees. Does that, in your opinion, satisfy BRAC commission 
concerns of maximum retention of critical workforce? And does 
this loss of difficult-to-replace intellectual capacity and 
capital pose any risk whatsoever to the warfighter?
    Vic Ferlise calls this ``irreparable and irresponsible.'' 
He says there will be very few employees left to train those 
folks in Aberdeen who may get these jobs. Who is going to do 
the training if that wealth of knowledge has been lost?
    We are very concerned about this. And on jointness, there 
was already jointness with what is now the joint base in New 
Jersey. And I think that was missed, and that is a serious 
oversight.
    But if you could speak to those issues, I deeply appreciate 
it.
    Mr. Ortiz. Thank you.
    Let us give time now to the secretary to respond to these 
questions. Go ahead.
    Secretary Grone. Well, Mr. Chairman, there is quite a lot 
there. Let me start with the first question, military value.
    The issue, as it was laid out by the gentleman from New 
Jersey, is in relation to certain snapshots of military value. 
What he also didn't say is that, when all aspects of military 
value were racked up, Fort Monmouth ranked 50th among Army 
installations.
    Now, military value has a number of aspects to it. One of 
the key aspects is status quo configuration or the development 
of future capability. And in the development of the 
recommendation, the emphasis was on the development of future 
capability.
    And in my response to the gentleman from Maryland, I talked 
a bit about that future capability, and the Army will detail in 
further detail the mission sets as they are going to be 
developed at Aberdeen and why they are critically important, as 
we realign mission not just from Fort Monmouth, but also from 
Fort Belvoir, to co-locate at Aberdeen Proving Ground and 
create synergistic relationships that go beyond the current 
status quo in C4ISR.
    On the question of COBRA, there is a reason why COBRA 
doesn't have budget-quality data, and that is that, in order to 
secure budget-quality data, we would have to send site survey 
teams to the field. If we send site survey teams to the field, 
we could give the impression that we have already made 
decisions. COBRA was designed to give some reasonable estimate 
on a cost basis with a zero-year baseline so that you could 
adequately compare a variety of options.
    Mr. Smith. With all due respect, if I could interrupt, 
Secretary Grone, $1.4 billion was sent from the fort to the 
Department of Defense. Why wasn't that included?
    Secretary Grone. I will get to that point, Mr. Smith. And 
that point is this: The law provides, specifies, requires that 
the processes the department uses rest on certified data. 
Certified data is a chain-of-custody process.
    Questions go out from the headquarters through the system 
to the field. The data comes back up from the field, from Fort 
Monmouth, through the system to be used in the process. Later 
on in the process--frankly, at points after which the secretary 
had delivered his recommendations--there were individuals who 
suggested that some of the data might be wrong.
    The department was not legally in a position to accept data 
outside the certified data chain of custody and submit that to 
the commission because it would violate another requirement of 
the statute, and that is that we treat all installations 
equally.
    Now, on the question of whether or not the commission had 
access to the information, the commission records in the three 
instances, three separate hearings, demonstrate clearly that 
the commission had access to data that we could not provide. 
The commission, having examined that record thoroughly, both 
our record and the record it developed through field hearings 
and other submissions, voted 6-2 to not remove Fort Monmouth 
from the list and then voted 7-1 to allow it to proceed.
    A number of the issues that have been raised by members 
recently in the press and in other fora were the same issues 
that were addressed at the commission. Same data, same issues. 
The commission, exercising its independent discretion, also 
changed the Fort Monmouth recommendation of the department in 
at least one instance: by requiring night vision capability to 
remain at Fort Belvoir.
    The notion that the commission was a rubber stamp for the 
department's recommendations is not supported by the facts and 
is also not supported by the activity of the commission in 
changing 35 percent of the recommendations in some way major or 
minor. The issue is, what is going to be the future capability 
that is to be developed at Aberdeen Proving Ground in a 
synergistic way that ties a number of different activities 
together, not just to co-locate them, but to enhance 
collaboration that will allow better support to the warfighter?
    The issue of loss of intellectual capital, the record is 
replete with debate inside the Department and at the commission 
on whether--the essential question was this: Is intellectual 
capital elastic or inelastic?
    At the end of that debate, the judgment was that 
intellectual capital was elastic, because if you told the other 
positions, you can't move anything. And so the inherent 
military value in the recommendation, the implementation plans 
with the Department of the Army, the needs of the technical 
community, the needs of the warfighter are all going to be met 
through the objectives of this recommendation.
    And the notion that somehow senior military leadership in 
the development of the recommendation did so in a way that 
would put lives at risk on the battlefield is simply wrong, I 
submit respectfully.
    Mr. Smith. Could I follow up very briefly, Mr. Chairman?
    Mr. Ortiz. Well, go ahead, make it short, because we have 
got other members who want to ask questions, as well.
    Mr. Smith. Did the Department anticipate a 70 percent of 
the individuals, the men and women, not moving? I mean, would 
you have arrived at the same move, Fort Monmouth to Aberdeen, 
if that were factored in? I mean, that is such a high number of 
talented individuals who are lost to the system. I mean, just 
because the law required this or required that, at what point 
do you say, ``Corrective action needs to be taken. This is a 
mistake''?
    Secretary Grone. The availability of individuals and their 
ability to retire, if we want to look at it from that way and 
the status quo configuration, is that it is about the same rate 
as it is across the rest of the Department.
    So what essentially is being argued--and I understand and 
respect the needs and desires of the New Jersey delegation and 
other interested parties to want to retain that mission there, 
and they so fought, as you did and others did, before the 
commission. I respect that.
    The national decision was to do something else. And our 
obligation is to carry out the statute. And that is what we 
intend to do.
    Mr. Ortiz. You know, one of the things that--and the reason 
why this BRAC moved forward was because there were some 
promises made that there were going to be a lot of savings. And 
this is what, in fact, one of the gentleman who happens to be a 
good friend of mine was the architect of moving with the base 
closure commission, it was his legislation, even though he was 
a member of the Agriculture Committee. You know, he moved 
forward that we should go ahead and do some base shutting down 
because we were going to save money.
    And when the BRAC commission came about, he was lobbying to 
keep bases open, you know? So this is why a lot of members are 
confused. Maybe there should have been some restraints, you 
know? He was for shutting down bases. He was, he said, for 
saving a lot of money. And then he decided that it was time for 
him to move and tried to keep some of the bases open.
    So this is why there is a lot of confusion among members 
and other people. But at this point, let me yield to my good 
friend, Ms. Shea-Porter, for a question, if she has one.
    Ms. Shea-Porter. Thank you. As a former military spouse and 
a member of the Armed Services Committee, I am sitting here 
listening and questioning some of the numbers and the results 
of decisions that were made in the BRAC closing.
    And in particular, I am thinking about the thousands of 
soldiers and other military personnel who have been moved 
around or anticipate moving, closing, whatever. And I think 
about the 30,000 or so that will be coming to Guam. And I 
wonder about the security.
    Guam is very critical to our security. And I know that they 
closed some bases when the argument was made before how 
critical Guam was to our security.
    We spent the money, and now we are taking another look and 
sending those 30,000 to Guam. It seems like a very inconsistent 
policy, really short-term planning, and not looking at the 
cost.
    And so I am going to yield the remainder of my time to the 
gentlewoman from Guam who can question this. Thank you.
    Ms. Bordallo. I want to thank the congresswoman. I have 
already asked my two questions, so thank you very much.
    Ms. Shea-Porter. Okay.
    So can you explain to me, please, why just a few short 
years ago it was essential to close some bases in Guam and now, 
all of a sudden, we are looking at Guam and saying we need to 
send a large number of troops there? And what has changed so 
dramatically? And what is the long-term view for Guam and for 
other areas that are essential?
    Secretary Grone. Well, I think it is important in this 
context to recognize that, when we were working with 1989, 
1991, 1993, 1994 rounds, the global situation was significantly 
different. The wall had come down in 1989. We were taking force 
structure out of the system. And in that context, the 
department had demonstrated significant excess capacity.
    So the first four rounds of BRAC were principally about 
reduction of excess capacity. This round occurs in the process 
where we are engaged in broad force transformation and where 
there are other key aspects.
    I mean, certainly in the context of implementing the round, 
we are also in the process of growing the force, which was not 
on the table when we were making these decisions, but I would 
also point out that we close no significant ground force 
maneuver installation in this round.
    This was, if one could characterize it, principally a back-
shop support structure force transformation BRAC. Despite the 
fact that we in--and I know that the gentlelady from Guam views 
it as regrettable that there were certain decisions that were 
made on Guam many years ago--the fact of the matter is that we 
didn't abandon Guam. The Air Force has been a key player in the 
strategic presence forward in the Pacific on Guam for many, 
many years, as has the Navy.
    In the context of realignment of force posture, in the 
context of a strengthening and repositioning of the strategic 
relationship with Japan, we agreed in the context of a broad 
series of arrangements that would affect the entirety of the 
alliance throughout the Pacific to reposition Marines from 
Okinawa to Guam.
    It is a different strategic rationale, a different 
strategic mission. And while I understand some of the 
challenges that it poses locally, this realignment of forward 
force posture--and it really is a question of realignment of 
forward force posture--is simply not the same dynamic as we had 
in the mid-1990's when we were trying to realign some things.
    And, frankly, there were folks at the time in Guam that 
were urging us to close things on the island. And the 
lieutenant governor at the time didn't take that position. 
Certainly not. But----
    Ms. Shea-Porter. Well, may I interject here----
    Secretary Grone. But we had--it was simply a different 
strategic--we were in a different strategic place. And now we 
have to move forward. And the importance of that arrangement as 
it relates to Guam is the United States is not bearing the full 
costs of the move.
    Ms. Shea-Porter. But what we are hearing now, and even 
though people obviously have their communities, I don't think 
we are all just looking at a point from the impact on local 
communities, as critical as that is. We are also looking at, 
what is the strategy here? And what is the cost?
    And when you look at these overruns, there is something 
wrong, fundamentally wrong with the information that Congress 
received and that others received in the 2005 closing. And 
that, I think, is the core of the question here: Are you 
looking back at it? Are you examining it again? And how are 
these decisions made?
    You are listening to the gentleman from New Jersey talk 
about the critical effect on security here. Something seems 
fundamentally wrong. And I know that you can't answer all of 
it, but this is a concern of Congress to get to the bottom of 
it.
    Secretary Grone. And I appreciate the question. We are 
always looking at lessons learned from all of these processes, 
but I don't concede the central point, which is that the 
actions that we are undertaking lack military value.
    Ms. Shea-Porter. Well, we almost lost the Portsmouth Naval 
Shipyard in that last round, and that was pretty essential to 
our national security--and not just in my humble opinion, but 
in many--and fortunately, it didn't happen.
    But then you take a look at the decisions, we have to look 
long-term strategy.
    Secretary Grone. And the process as it was designed in that 
case got to an answer for the Nation that is accepted, a 
decided issue, and we will continue to utilize those assets as 
are required. This process is designed to allow the Department 
of Defense and the Secretary of Defense to develop a suite of 
recommendations. The law does not allow us to implement them 
and decide them upon our own.
    There is an independent, strictly independent review of 
those recommendations, and then a subsequent independent review 
by the President, and then one by the Congress. So----
    Ms. Shea-Porter. I understand the process. I live there. 
But the problem was it did show up on the list, and it was not 
simply an easy decision. It required many, many voices to fight 
back and point out. It shouldn't have been on the list to begin 
with, and these are the concerns that we have, how they wind up 
on the list, and then the story that they are told about what 
it will cost, and then the fact that the savings aren't even 
recognized.
    I think there is a lot of reason for concern today. And I 
yield back. Thank you.
    Mr. Ortiz. Let me yield now to my good friend from 
California, Mr. Sam Farr.
    Mr. Farr. Thank you very much, Mr. Chairman. It is a 
delight to be back on this committee. When I first got elected 
to Congress, I served one term on it, and eventually ended up 
on the Military Construction Appropriations Committee, so I 
have been very involved in BRAC issues, not only 
jurisdictionally, but personally.
    My district has had part of our bases up every single BRAC 
round. And when I arrived, the BRAC had decided to close Fort 
Ord, which was the largest military base I think ever closed in 
any round. It affected about 33,000 people.
    And today one of our witnesses is the executive director of 
that reuse authority, Michael Houlemard, who has also been 
elected to be--he is the President of the reuse communities 
association.
    But my questions are--I mean, what I have observed is that 
this is all driven by cost avoidance. How do you not retain 
unnecessary real estate and the jobs that go with it?
    But, in fact, no matter what happens--and this committee is 
interesting. It has had people that had windfalls because they 
are going to gain folks, and you have a lot on this committee 
that are wiped out by having closure. In either case, what you 
will argue is that there aren't enough resources to do what 
needs to be done.
    And it seems to me that the tools that I have learned, why 
we were so successful in redevelopment, was that we got all the 
land free. There are two instruments that you never hear about 
anymore. It is called a public benefit conveyance, where the 
law lays out what you--the DOD can give the land free, 
particularly for educational purposes and so on.
    And then there is an economic development conveyance, which 
is also available to the discretion of the Secretary, and 
allows you to give land free.
    And what I wanted to ask--because I want to echo what 
everyone else said about Mr. Grone. I mean, he worked in this 
committee. He certainly knows the inside of Congress, the 
House, and specifically these issues, having been the staffer 
for so many years, and then moving over to be the 
undersecretary.
    And I think we are going to lose an incredible asset for 
this nation when you leave. And I just want to thank you for 
your public service. We haven't always agreed, but you have 
been there, and you understand. And that is what is so 
important.
    But, Mr. Lepore, I want to ask you, do you value the 
giveaways? Do you put any economic value on those, on the 
public benefit or economic development benefit transfers?
    Mr. Lepore. In our 2005 report, we pointed out that that is 
one area where some better accounting might be helpful, that 
that is something the department generally doesn't try to 
account for.
    Mr. Farr. You will account for when there is a windfall, a 
gaining community, the impact that it is going to have on 
schools and local infrastructure?
    Mr. Lepore. We have not attempted to account for that, in 
the way that I think you are referring to. What we are trying 
to do is we have a study underway right now that is taking a 
look at the impact on the local communities and the Federal 
assistance that is provided to the local communities in the 
gaining areas.
    I should point out that that review is bigger than BRAC's. 
And some of the growth on the growth bases is BRAC, but some of 
it is other issues, as well.
    Mr. Farr. But it is bigger than BRAC, but it is about the 
military. It is about what the chairman talked about. And it is 
about what the former lieutenant governor of Guam, now 
congresswoman from Guam, talked--it is quality of life for 
military. You can't have a military base isolated from the 
community.
    And that is what I think is so wrong with the BRAC process, 
is that we don't understand and we don't evaluate what kind of 
incredible exciting growth can come out of, if you give this 
land away. I am really against these sales, because you have to 
then sort of prostitute yourself to get enough value out of 
that land in order to buy it.
    And who is buying it? It is the local government. Where do 
they have the resources to do it? And on the other hand, we 
don't value the fact that there are impacts.
    And I know my question--and back to Mr. Grone--is that we 
have in the law, under Office of Economic Adjustment (OEA), a 
provision where the Department of Defense can ask for money to 
provide for impact construction. We have done that in the past. 
There is just nobody asking for it.
    We have also provided--and this was before BRAC--the Kings 
Bay National Submarine Base in Georgia--when that was built, we 
built schools, we built community centers, we did all of the 
sort of off-military budget impact expenses just to make that 
base a workable base.
    So the history is there, and the authority is there. And 
the question is, why don't we ask for the monies to allow the 
schools that are going to have the realignments and the growth 
in those communities?
    As you know, Mr. Bishop, who is on the MILCON committee, is 
really complaining about the fact that, in Georgia, the influx 
of kids is not accounted for and not paid for. And there is no 
way that the school district has the resources to do this.
    So can we start--I mean, what I would like to hear from 
both of you is the response, in your senses. Can we ask for the 
money? Because we have the authority to do it, but haven't done 
it. And, two, can we start getting a better accounting, if we 
are going to really do--if the whole thing is about cost 
avoidance, it seems to me we are just shifting the costs and 
not the value.
    And we need to make sure that we are better prepared to 
estimate value.
    Thank you.
    Secretary Grone. There are a number of different strands to 
your question, Mr. Farr. Let me try to address as many of them 
as I can.
    The question of what we do with education, as you know, is 
a complex one. Traditionally through the BRAC process, we have 
not done what you cite with some of the other examples. There 
are a number of communities where there are growth activities 
underway which have undertaken the necessary bond issues to 
plan for the growth.
    It is a dialogue that we will have to keep dealing with. 
And so the authorities you are looking at is something we would 
have to sort of take a look at. I just am not familiar with it 
at that level of detail.
    But the question of recognizing that the installations are 
part and parcel of the communities is one that is, I think, 
well understood inside the Department. And the work that we 
have done, starting with sustainable ranges and all the other 
work that we are doing, and to work with state and local 
governments on the sustainment of the mission in the post-BRAC 
environment, recognizing that this is probably--recommendation 
of the former secretary and the chairman of the commission, 
notwithstanding a once-in-a-generational activity. We may not 
come back to something this significant for the next 20 or so 
years.
    And so the notion of ensuring that we are working closely 
with state and local government on education, on 
transportation, on range sustainability, environmental buffers 
around our bases is a critically important part of the program. 
It is not, strictly speaking, a BRAC program, but it is part of 
the organic mission of the department, and it is a function 
that we undertake very seriously.
    The transportation effects are all being assessed, and we 
have what I would call a regular order program in the Defense 
Access Road (DAR) program for that. There are a number of 
different locations across the country that are being assessed 
as to what is DAR eligible and what is not. And those things 
that are eligible we will move forward with as we can, and we 
will do pursuant to existing authority.
    So there a number of different ways of getting at these 
problems. We just need to continue to work aggressively with 
the communities. We pledged to do that.
    On the disposal side, as you know, we changed a number of 
our policies leading into the disposal of assets from this 
round. We have had--and I don't want to speak for anyone in 
particular. Mr. Houlemard can speak more directly to this than 
I--but we have had a very close working relationship with 
growth, as well as communities that are going to undergo the 
unfortunate pain of a base closure or a major realignment.
    The question of whether or not everything ought to be sale 
or not I think is a settled question. The issue and the policy 
of the Department is a mixed toolkit approach. There may be 
parcels that we sell; there may be parcels that are square in 
the sweet spot for public benefit conveyance (PBC); there may 
be parcels that work best in a no-cost or a regular Economic 
Development Conveyance (EDC) process.
    All of those tools are available as part of a redevelopment 
planning process that is really under the control of the local 
communities. The Department is not going to dictate to local 
communities what that redevelopment option ought to be. We have 
some responsibility to make sure it is consistent with our 
authorities, but we are not going to tell folks that we think 
you ought to put a school here, and a this there, and a that 
there.
    And we committed to streamlining the process. And we 
committed to keeping to the deadlines that are in the statute 
and, in large measure, we have. And local communities are 
beginning to respond in a timely way with redevelopment plans.
    So this process, while we have some challenges in 
implementation at growth sites, from a disposal perspective, we 
have kept to our deadlines. Where we have not kept to 
deadlines, we have done so largely at the request of a local 
community. There are communities that have come in and asked 
for additional stretches of deadlines in order to make their 
redevelopment plan work and work effectively. And those have 
been granted.
    So we are trying to do everything we can to work with folks 
to make sure that, as an asset transitions from military use to 
civilian use, and goes back on the local tax rolls, but it is 
in the best possible position, and we have no desire--on the 
day I walked into the Department of Defense, there were still 
over 400,000 acres on our books from prior rounds of BRAC. And 
we have whittled that down to under 40,000 today. And that is 
principally at six or seven locations, heavily impacted by 
Unexploded Ordnance (UXO), which thankfully we do not have in 
this process this time.
    But our objective is to position local communities for 
success. That means transitioning assets as expeditiously as we 
can, and we are trying to do that. And we have greatly 
benefited from the insights that you and other members have 
brought to this process as we were developing a new policy.
    Mr. Farr. The only comment I would have is that I don't 
think the Department is very aggressive about telling 
communities that they can get the land free through EDCs and 
PBCs. It seems to me that is always a struggle. You want 
highest value for the land, and that is one of the problems 
that I think the GAO's office has, is they are always 
accounting for, ``Let us get value for this.''
    But it is all out of the same tax base, whether those 
taxpayers are paying the money to the Federal Government or the 
stage government or local government. The real value is, how do 
you reuse it?
    Secretary Grone. Yes, understood.
    Mr. Farr. And if we have to sell it, I don't think the--you 
know, the feds can say we got fair value for our land. On the 
other hand, the community had to go through a real strain to 
try to pay for it. And I do think you ought to use the EDCs and 
PBCs must more aggressively.
    Secretary Grone. As Mr. Houlemard can testify--and I don't 
want to speak for him--and he has heard me say and give the 
speech on mixed toolkit on more than one occasion. So official 
policy of the Department is for all approaches to be on the 
table.
    Mr. Ortiz. We have three more members who have questions to 
ask, and then, of course, we need to move to our second panel.
    My good friend, Frank Pallone, from New Jersey, do you have 
a question? Go right ahead, sir.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Chairman, I want to thank you again for having this 
hearing. And as part of my questions to the two witnesses, I 
want to explain my approach and why we have asked you to have a 
witness from Fort Monmouth and why we are spending so much time 
today on the Fort Monmouth issue.
    Mr. Grone acknowledged that, at the time of the BRAC 
decision, there was definitely controversy or disunity, if you 
will, amongst the BRAC members over whether or not Fort 
Monmouth should close and those functions be transferred to 
Aberdeen.
    And as a result of that, there was this report that the 
BRAC put into the BRAC commission's report that said that the 
Pentagon had to look at the situation at Fort Monmouth--and I 
will specifically use the language here--and said that the BRAC 
commission stated that, ``The Secretary of Defense shall submit 
a report to the congressional committees of jurisdiction that 
movement of organization, functions, or activities from Fort 
Monmouth to Aberdeen Proving Ground will be accomplished 
without disruption of their support for the global war on 
terror.''
    Now, I mentioned this because Fort Monmouth was unique 
amongst all the BRAC recommendations or report in that this was 
the only one that had this caveat, and it was because of the 
disunity and questioning that, perhaps, this was not the proper 
move, to close Fort Monmouth, that this report was put in to 
report back to the committees, including this one.
    And I mention this, Mr. Chairman, because it is our 
understanding, from talking to the BRAC commissioners, that 
unlike the rest of the BRAC, where you would have to have a 
subsequent BRAC, as Mr. Grone said, in order to reverse the 
recommendation, in this case, you would not because if the 
report from the Pentagon showed that this closing should not 
occur because it would negatively impact the global war on 
terror, Fort Monmouth would not close and the movement to 
Aberdeen would not take place.
    So I am just trying to make the point--and I am going to 
ask these questions again--that this is a unique situation. And 
once this report comes out, because it has been delayed and the 
Pentagon has said that they will certify that it is okay to 
make the move, but that once this report comes out, I think it 
is the obligation of this committee, as well as the GAO and all 
of us, to follow up, and look at this report, and determine 
whether or not it was done accurately, because if it wasn't and 
the recommendations should not be to close Fort Monmouth then, 
within the context of the BRAC, you could keep Fort Monmouth 
open, without having to go to subsequent legislation or a 
subsequent BRAC.
    So I just want to follow up on what my colleague, Mr. 
Smith, said. It is very important when this report comes out at 
the end of the month that this committee look at it, have 
another hearing specifically on that, because they were given 
that responsibility, essentially, by the BRAC, with this 
language, and that we also have the GAO comment on it and give 
us their input, as well.
    And I guess I am a little concerned because I don't get the 
impression that Mr. Grone necessarily sees it this way. And I 
have already heard from the Pentagon for a long time now that 
they are going to say that it is okay in this report to close 
Fort Monmouth.
    And so I have two questions, one to Mr. Grone, and one to 
Mr. Lepore. First of all, Mr. Grone, is the Pentagon, in 
issuing this report, actually doing an analysis that would 
decide whether or not Fort Monmouth should stay open or closed? 
Or have they already made the decision that Fort Monmouth 
should close and they are just tailoring this report to go 
along with that recommendation?
    Are we going to get a back-and-forth here about the pluses 
and minuses of keeping Fort Monmouth open, or is this already a 
foregone conclusion on the part of the Pentagon?
    Secretary Grone. Mr. Chairman, I want to--I desire to be--
and I understand and appreciate the question of Mr. Pallone, 
but I want to be quite precise in my answer, because the 
question which he raises is a core issue in a matter of ongoing 
litigation. So for purposes of the record, I would just like to 
clarify what has happened and what the government's position 
is, and then we can deal with any subsequent questions, if I am 
able to answer them beyond that point.
    There is ongoing litigation in Federal district court in 
New Jersey on this subject. There was also a request for a 
preliminary injunction filed by the union representing civilian 
employees at Fort Monmouth.
    The district court issued an order denying the union's 
application for a preliminary injunction. In that order, the 
district court also denied the government's motion to dismiss, 
but did so without prejudice and would leave to renew the 
motion after January 1, 2008.
    The district court administratively stayed the litigation 
under further order of the court. The district court has not 
taken any action to prohibit continued implementation of the 
recommendation.
    On the question of whether the reports required, the BRAC 
act requires the Department to close and realign all 
installations so recommended by the commission. And this 
information is in filings that the Department of Justice has 
made in the district court.
    The BRAC act does not require DOD to submit reports 
recommended by the BRAC commission or follow any other 
commission recommendations that are not either base closures or 
base realignments. It is therefore the Department's position, 
as reflected in its filings in the United States District Court 
for the District of New Jersey, that there is no legal 
requirement in the BRAC act or elsewhere that DOD submit the 
report to Congress that the BRAC commission recommended, 
although DOD nevertheless intends to submit such a report by 
the end of the year.
    Mr. Pallone. Mr. Chairman----
    Secretary Grone. If I might, because it bears on what I 
think will be your next question. Is the BRAC recommendation to 
close Fort Monmouth conditional? The closure of Fort Monmouth 
is legally required. This is not, as some would contend, a 
conditional closure. That may not occur because a report cannot 
be written. DOD has already determined that Fort Monmouth can 
be closed and its functions relocated without jeopardizing 
support for warfighters in the field.
    And the BRAC commission agreed with that conclusion. This 
is not a question of whether the move will occur, but of how 
the move will occur, without disruption to support of the war 
on terrorism and other critical contingencies. And those two 
aspects of the government's position in the Federal district 
court, as a matter of just informing members how we intend to 
proceed, given the issues that are at moment and given the 
discussion within the commission, we will provide a report to 
Congress by the end of the year, as the deputy secretary of 
defense so indicated to Members of the New Jersey delegation.
    That report will lay out how we will proceed with the plan, 
how we will mitigate the effects that were referenced in the 
commission's report. It is a question of how the move will 
occur; it is not a question of whether.
    Mr. Pallone. Mr. Chairman, I know my time is up, but let me 
just say this. This, Mr. Chairman, goes to the whole crux of 
the matter here. The Pentagon is essentially saying that this 
BRAC requirement, which was articulated to us by the 
commissioners, those who were opposed to the closing, because 
it was a divided commission on this, that this was a compromise 
that was put in as a way for the Pentagon to come back and do 
an analysis of whether or not this closing should occur.
    Now, they are saying that this is not required by the law. 
It doesn't even have the status of report language. We are 
saying it is the law, and that is what was articulated, and 
that is why--that was the compromise that was entered into by 
the commissioners in order to get them to unanimously agree to 
this decision on Fort Monmouth.
    So the problem here is that there is a basic difference in 
terms of what was told to us by the BRAC as to what this report 
meant, that it was, in fact, a law and had to be done, and that 
this committee and others in Congress could respond to it, as 
opposed to the Pentagon that doesn't even see if it is even 
report language or required to be done.
    So that is why I think it is very important, when this 
report comes out, that there be a follow-up hearing on this, 
because otherwise they just say, ``We are issuing the report, 
and it doesn't make any difference.'' And that is simply not 
the case.
    And I know--I was just going to ask Mr. Lepore, and he can 
just answer yes or no, whether the GAO intends to analyze this 
report when it comes out and report back to the committee in 
Congress, in your analysis, if you could just answer that yes 
or no, because my time is----
    Mr. Lepore. Yes.
    Mr. Pallone. You do? All right, thank you, Mr. Chairman.
    Mr. Ortiz. And this is one of the things that we would like 
to see the implementation of the BRAC law. And there are a lot 
of questions like yours, and hopefully we can get to the bottom 
of it.
    But what we are trying to do now, we have two more Members 
who would like to ask questions, and then we are about to have 
votes in the next five minutes. And then, of course, we have a 
second panel.
    Mr. Secretary, you had something to say?
    Secretary Grone. On the question, if I might follow up, 
because I think it is critically important about the question 
of intent, the BRAC commission explained its recommendations 
slightly differently than as it may be understood by Mr. 
Pallone and others.
    And I think it is a matter of interpretation, but I think 
the commission's explanation is rather clear.
    Mr. Smith. Would my friend yield, Mr. Pallone?
    Mr. Pallone. Sure.
    Mr. Smith. Again----
    Mr. Ortiz. Just don't make it too long, because his time 
has expired.
    Mr. Smith. That is why a second hearing, that would focus 
on the business plan, whether or not this could be achieved, 
but let us invite the chairman of the commission, Secretary 
Principi, to be a witness, as well, because he will know what 
was his intent and that of the others, because we think we have 
a very clear understanding that this was a conditionality.
    And so, again, we shouldn't talk about, ``Well, maybe this 
or maybe that.'' Let us get to the bottom of it.
    And again, Secretary Grone, at the bottom line is the 
warfighter. This is not, as Mr. Cummings said in the 
newspapers, a football game and it is against the New Jersey 
delegation versus the Maryland delegation. This is all about 
the men and women in the field.
    And I have spent too much of my time in Veterans 
Administration (VA) hospitals, as former chairman of the 
Veterans Affairs (VA) Committee, writing legislation that 
became law to help service-connected disabled veterans to look 
askance when we believe an egregious mistake is in the process 
of being made. We are bipartisan on this.
    And I would hope that the cooler heads at the Pentagon 
would say, ``A mistake''--well, we are not just going to keep 
going up that hill, even though our men are being slaughtered, 
to use a metaphor.
    Mr. Ortiz. The gentleman makes a good point.
    Mr. Holt.
    Mr. Holt. Thank you. Thank you, Mr. Chairman. I appreciate 
your holding this hearing. It really is important.
    First, I would like to ask unanimous consent to submit for 
the record written statements by Admiral Paul Gaffney, Mr. Bob 
Geridano, Governor Jon Corzine, and Mr. Jon Poitrus that bear 
on the subject at hand.
    Mr. Ortiz. We have unanimous consent. You can go ahead. We 
will put your questions for the record. Go ahead.
    Mr. Holt. No, but there are other statements that I would 
like to have inserted in the record.
    [The information referred to can be found in the Appendix 
on page 178, 181, 190, and 193.]
    Mr. Ortiz. No objections. So ordered.
    Mr. Holt. Thank you.
    I have a couple of questions for Mr. Grone and for Mr. 
Lepore. Of course, the point of BRAC was to improve efficiency, 
to increase jointness, to improve support for the warfighter, 
and to save money.
    As Mr. Vic Ferlise will testify, I think quite eloquently, 
it does none of those, in many cases. And as Mr. Lepore has 
shown across the board, there are enormous cost overruns.
    Some of us are focusing on Fort Monmouth because it seems 
to us that this is Exhibit A in what is wrong with BRAC 2005. 
And I hope, Mr. Grone, you didn't mean it in the dismissive way 
that it sounded to me, that this is a matter of parochial 
interests versus national interest.
    As Mr. Smith said so passionately and correctly, this is 
not a football game or a matter of local jobs. There are some 
fundamental questions here, and that is what we want to get at.
    And so I will talk a little bit about Fort Monmouth, but it 
has to do with our national defense effort. Really, there is so 
much to cover.
    But first, as Mr. Ferlise will say, with regard to Fort 
Monmouth, it is not just a matter of packing the assets and 
moving them. The assets in this case are people with years of 
experience that will take years of experience to replace. And 
there is a fundamental misunderstanding in the Army and, I must 
say, throughout our society that research, development, test 
and evaluation (RDT&E), is an off-the-shelf item.
    These researchers cannot be replaced easily, however good 
the schools are in Maryland, however good the living conditions 
are in Maryland.
    And you know, you say that at Fort Monmouth there are 
people who are just on--kind of have the average availability 
for retirement. Well, the fact is yes, they are senior, but 
they have not been retiring. They have been staying on the job 
at Fort Monmouth until recently.
    And that is the problem. Former Secretary Harvey said they 
will be replaced by smart young guys. Well, no. They can't be 
replaced for years without smart young--by any smart young 
guys.
    And so when you said, Mr. Grone, that it will take another 
BRAC, am I correct in understanding that there is no degree of 
harm to the warfighter, there is no degree of risk at which we 
would put soldiers by this move, that would lead DOD to 
recommend that Congress reverse this part of BRAC?
    In other words, just--I know you don't agree with the 
argument, but if there were an argument that because of the 
technology and the day-to-day updating of techniques for 
detecting and disarming roadside bombs, or for intercepting 
communications, or for tracking mortar fire, that you would not 
reverse--recommend a reverse of the decision?
    Furthermore, should I understand from what you say that 
there is no increase in cost that would trigger you, the 
department, to recommend a reversal?
    I mean, is it $1 billion, or is it $2 billion? Is there no 
trigger at which you would say, ``This is wrong. We had better 
go back and look at this?''
    Furthermore, would you include in this consideration where 
there now appears to be several hundred million dollars in 
savings, by your calculation and Mr. Cummings' calculation, 
that you would count or you would not count the billions of 
dollars of infrastructure improvements that are being asked of 
the Federal Government for Maryland in order to accommodate 
this move?
    And then for Mr. Lepore, I would like to ask whether the 
GAO will take a closer look at the specific decisions--for 
example, the top five or ten most expensive or most cost-
increased projects and bases.
    And furthermore, is it true that you have not reviewed the 
savings at the same level of detail that you have reviewed the 
cost, and partly because those savings would come five years or 
ten years from now?
    So is it possible, then, that this BRAC round will actually 
result in less net savings once you do get around to looking at 
those?
    And finally, have you looked at why officially availability 
cost data appear to have been ignored by the BRAC, by the 
commissioners--for example, the fact that the military prep 
school was said to cost two or three tens of millions of 
dollars, roughly $30 million, to move, and yet months before 
BRAC recommendations were even sent to the President, there 
were construction requests totaling $226 million?
    In other words, officially available, ten times the cost, 
ignored, just in that one aspect of the move--will you be 
looking at that in the GAO?
    Thank you, Mr. Chairman.
    Mr. Ortiz. You know, we have tried to be as fair as we can 
with all the Members. We have the DOD authorization bill on the 
House floor right now. In the next five minutes we are going to 
have a vote. So go ahead and respond to it.
    And I know your concerns. I mean, they are very legitimate 
concerns that you have.
    Go ahead and respond to this question, and then I hope we 
have time to give one of our senior Members of the committee, 
Mr. Reyes, also time to ask a question.
    And then we are going to go vote, and we have a--we have 
one, two, three, four--five votes, so we are going to be gone 
for some time, and we want to be fair to the next panel as 
well.
    So, Mr. Secretary, go ahead.
    Secretary Grone. I will try to respond to Mr. Holt as 
quickly as I can.
    And I wasn't being dismissive of it being--what I was 
saying is I understand the perspective of Members as they try 
to defend the mission while acknowledging that they see the 
mission as a national mission locally.
    And it is not to be dismissive of the concerns of anyone 
who fought the decision at the commission or subsequently on 
the national decision to close Fort Monmouth and realign its 
mission. That was certainly not the intent.
    The only way I can answer the question of what--how we are 
proceeding on the question of intellectual capital--I discussed 
that earlier in the whole debate about whether or not--whether 
that capacity could be grown, how it could be grown and when it 
could be grown was part of the deliberative record of the 
Department, and I won't belabor it here.
    But the commission concluded that the adverse effects of 
moving existing programs from Fort Monmouth could be managed 
over the six-year implementation period by properly sequencing 
the movement the programs.
    And again, from my perspective, our inability to adequately 
plan to implement the round that is materially affected by our 
inability to access the resources that are necessary creates 
uncertainty as to when that proper sequencing will occur.
    So I mean, I view, frankly, the implementation of this as a 
shared responsibility. And we are not in a position right now 
to effectively implement as effectively as we might want a 
number of these.
    But we are continuing to work with the committees to ensure 
that we have the resources to implement it in the proper way.
    The hypothetical you asked me--is there a trigger--I, 
frankly, don't have the ability to answer that question. The 
Department has a legal obligation to carry out under current 
law the recommendations as they have passed into law.
    I don't have the discretionary ability to make up a number 
and say at that point we ought to reconsider the 
recommendation. The Department continues to believe and 
maintain that the underlying military value of the move merits 
implementation of the move.
    And I simply cannot speculate on the hypothetical of at 
what point we might want to reconsider something. We, frankly, 
don't have that authority.
    And the underlying military value of the recommendation, as 
I expect will be demonstrated in the report, as has been 
testified to numerous times, as the Army is looking forward to 
in its implementation planning, continues to argue for the 
effective implementation of the recommendation.
    Mr. Ortiz. We are going to be voting very quick. Let me go 
ahead and yield to my good friend, chairman of the Intelligence 
Committee and a ranking member on--also a very high--like we 
say in Texas, high-quality member of the Armed Services 
Committee, Mr. Reyes.
    Mr. Reyes. Oh, I thought you were going to say I was a very 
tall member. Thank you, Mr. Chairman. And thank you for holding 
this hearing.
    And good to see you here, Secretary Grone, and I understand 
Friday is your last day.
    Secretary Grone. It is.
    Mr. Reyes. We very much appreciate your work and your 
dedication to all these issues that are so important to us.
    And the chairman was indicating to me that Congresswoman 
Boyda raised the issue of the commissaries.
    Secretary Grone. Yes, sir. Yes, she did.
    Mr. Reyes. You know, I just want to make the point, because 
I was on Fort Bliss Monday, and the commissaries are a big 
issue, a big quality-of-life issue, for our soldiers and for 
their families.
    In fact, this past weekend we were welcoming back after 15 
months in theater the 41 Cavalry from Fort Bliss, and at the 
ceremonies some of the families were anxious about the issue of 
commissaries. You know, they frankly don't care where the money 
comes from.
    Secretary Grone. Understood.
    Mr. Reyes. That is a bureaucratic thing that I think we do 
a disservice to them not making a decision and getting that 
money out.
    I know in the case of Fort Bliss we are waiting on $32 
million. We need to have it by January, because otherwise that 
commissary project is delayed. Soldiers are coming back. We 
have promised them that everything we could do would be done.
    And yet we have got this issue because of an internal 
bureaucratic dispute that the decision hasn't been made. Two 
things. Can you tell me what the status is?
    And second, can I get your commitment that before Friday 
you will kick somebody in the butt and get this thing going? 
And if you need help, Chairman Ortiz is right here.
    Mr. Ortiz. He has got those big, tall boots.
    Secretary Grone. I understand. As I indicated to Mr. 
McHugh, I mean, as you know, sir, the responsibility for the 
commissary and exchange program falls within a different 
undersecretariat. But I know that those requirements are being 
addressed.
    Frankly, I don't know the up-to-date status as of today in 
terms of where they are. As I indicated to Ms. Boyda and Mr. 
McHugh and the chairman--and make the same commitment--we will 
get back to you with the answer to that question--I will engage 
Dr. Chu and Mr. Dominguez and see where that may be.
    [The information referred to can be found in the Appendix 
beginning on page 224.]
    Mr. Reyes. Is it Secretary Chu that is----
    Secretary Grone. The responsibility for those programs 
rests in the undersecretariat for personnel and readiness.
    Mr. Reyes. Mr. Chairman, can we get some action going on 
that? Because this is a quality-of-life issue for our families.
    Mr. Ortiz. You know, and we have discussed this prior to 
you coming here. This is very, very important.
    And we can continue to--I was asking my good friend Phil 
Grone if he knows who is going to replace him so we can get a 
name and address and a phone number.
    But, no, this is a serious, serious business, you know. And 
one of the reasons why it has become very serious is that 
through all the Base Closure Commission, most of this money 
that we spend are soldiers' money. They are not appropriated 
funds.
    And some of this money have been spent or given back to 
somebody else when they shut down the base. And that is the 
soldiers' money, not money from the taxpayers. But I have been 
through base closures, you know, in Germany and all over the 
place.
    They shut down the base. We give away from the theater to 
the gulf course to the library--everything back. So I think 
that this is a very, very important issue, and we will make 
sure that this is addressed.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you, and good luck to you, Mr. Grone.
    Secretary Grone. Thank you, sir.
    Mr. Ortiz. Any further--Randy?
    Mr. Secretary, as you can tell, it didn't burn. We thank 
you so much for all your service to our country and to our 
committee and your dedication, and we want to wish you the 
best.
    And like many of the Members said this morning, that you 
have many friends here. And if we could ever help in any way, 
you let us know. But we want to----
    Secretary Grone. I appreciate that, Mr. Chairman, and I 
have always appreciated the support and advice of the 
subcommittee as well as the Military Construction 
Subcommittee's, and it is a particular irony for me to 
virtually end this career in the same room in which it started.
    Mr. Ortiz. Thank you so much.
    What we want to do now--there are a lot of Members who 
wanted to be here, but we have the rule on the floor on the DOD 
bill, so what we can do also is allow Members who couldn't be 
here to have statements and also questions for the record, so 
you can pass on to the Pentagon--as you can tell, there is a 
lot of concerns about----
    Secretary Grone. I understand, sir.
    Mr. Ortiz [continuing]. This last base closure commission.
    What we are going to do now--we are going to recess. We 
have a second panel coming on for five minutes. And then we 
have another member who would be taking over. Thank you so much 
for joining us today. Thank you so much.
    Are you going to stay with us, or----
    Secretary Grone. I am planning to go back. I have a meeting 
that I need to get to, if that is okay with you.
    Mr. Ortiz. Okay. Thank you also for your testimony, sir. 
Thank you so much.
    Secretary Grone. Thank you, sir.
    [Recess.]
    Ms. Bordallo [presiding]. The Readiness Subcommittee on 
Armed Services will now come to order.
    On the second panel we welcome this afternoon four 
witnesses, including the honorable Anthony Brown, lieutenant 
governor in the State of Maryland; Mr. Michael Houlemard, 
President of the Association of Defense Communities; Dr. John 
Deegan, President, Military Impacted Schools Association; and 
Mr. Victor Ferlise, former deputy to the commanding general for 
operations and support for the Communications-Electronics Life 
Cycle Management Command from Fort Monmouth, New Jersey.
    Without objection, the witnesses' prepared testimony will 
be accepted for the record.
    And now I recognize the first witness, the honorable 
Anthony Brown, Lieutenant Governor of the State of Maryland.

 STATEMENT OF ANTHONY G. BROWN, LT. GOVERNOR, STATE OF MARYLAND

    Mr. Brown. Thank you very much, Congresswoman Bordallo. I 
want to thank Chairman Ortiz and Ranking Member Forbes for 
giving me the opportunity to present myself and offer some 
information regarding the base realignment and closure.
    While this first panel spoke mostly to the DOD side of the 
implementation of BRAC 2005, what I would like to do during my 
brief time, and as outlined in my written statement, which has 
been accepted for the record, is to talk a little bit about 
what we are doing in Maryland as a BRAC mission growth 
community to prepare for the implementation of BRAC, the 
arrival of households and the creation of jobs.
    I am Maryland's lieutenant governor. I have the honor of 
serving as the chairman of Governor O'Malley's subcabinet on 
base realignment and closure, and I also serve as the co-chair 
of the National Governors Association steering committee on 
mission growth, and I serve as co-chair along with a state 
senator from Georgia. Today, however, I speak only from my 
perspective in Maryland.
    Let me start by saying that Maryland understands its 
expanding responsibility to the country. We understand our 
responsibility to our nation's defense and homeland security 
and the obligations to support those who are, in fact, 
supporting the warfighters. And we embrace that responsibility.
    I also want to take this moment to thank the Members of the 
committee who support the warfighters in Iraq and Afghanistan 
and around the world. I, too, served ten months in Operation 
Iraqi Freedom, and I really appreciate the support of the 
soldiers that Congress offers.
    As a result of the BRAC 2005 decisions, Maryland is going 
to see between 15,000 to 16,000 direct jobs move to Maryland. 
We estimate that that will generate an additional 30,000 to 
45,000 indirect and induced jobs, for a total of 28,000 
households.
    This is going to occur in five communities around 
Maryland--Aberdeen Proving Ground, Fort George Meade, Andrews 
Air Force Base, Fort Dietrich and the consolidation of Walter 
Reed and the Bethesda Naval Medical Center. As you can see, 
Maryland is truly a joint state.
    Because of the multiple moving parts, upon our 
inauguration, Governor O'Malley created a subcabinet on base 
realignment and closure, and that subcabinet essentially leads 
our coordination effort for BRAC.
    The subcabinet includes members of--the Secretary of 
Transportation; housing and community development; labor, 
license and regulation; higher education; K through 12; and a 
few other departments.
    Our effort is to enhance that coordination that happens 
horizontally among state agencies and also to enhance that 
vertical coordination between our Federal delegation, between 
the military installations and between local, county and 
municipal governments.
    To date, the BRAC subcabinet has traveled around Maryland 
and has met with the leadership at each of the five mission 
growth communities or installations in Maryland.
    We have also traveled to northern Virginia to meet with the 
leadership at Defense Information Systems Agency (DISA). And we 
have also met with the leadership at Fort Monmouth.
    And the purpose of these meetings is to better understand 
the needs, the concerns and the issues that these moving 
activities face and how best we as a state can accommodate 
their needs.
    We have already identified challenges, and these challenges 
are not unique to Maryland. They are challenges in terms of 
workforce development.
    And earlier this morning you heard, particularly as it 
pertains to Fort Monmouth and the movement to Aberdeen Proving 
Ground, that only 30 percent, it is estimated, of the workforce 
will move to Monmouth. There are workforce challenges.
    There are also challenges with schools, school construction 
and the delivery of educational services, and there are 
challenges in the area of transportation.
    Having spent the day yesterday in St. Louis with six other 
mission growth states and representatives from those states, I 
can assure you that the challenges in Maryland are not unique 
to Maryland. These are challenges that all BRAC mission growth 
communities face.
    However, with the process that we put into place, the 
subcabinet, working with our regional organizations--for 
example, around Aberdeen Proving Ground, we have established 
the Chesapeake Science and Security Corridor. This is an 
alliance of private sector and public sector, public sector at 
all levels of government.
    We are able to identify those challenges and work toward 
meaningful solutions so that we can do our job in Maryland, 
which is essentially outside of the fence, outside of the gate, 
to ensure that we are BRAC-ready for the arrival of BRAC 
families and BRAC jobs.
    And let me close by saying what we are doing in Maryland is 
not necessarily going to work for every state in the country, 
but we hope that we will serve as a model for the kind of 
processes that a state could put into place to ensure that they 
effectively and adequately address the challenges of 
infrastructure and human capital development associated with 
BRAC.
    Thank you very much, Congresswoman Bordallo.
    [The prepared statement of Mr. Brown can be found in the 
Appendix on page 120.]
    Ms. Bordallo. Thank you very much, Lieutenant Governor 
Brown. I am very pleased to have you here today. It was very 
nice meeting you earlier. We both shared some of the same 
duties, at least in my past life.
    Now the chair would like to recognize Mr. Michael 
Houlemard, President of the Association of Defense Communities, 
and also to remind you that each of you has five minutes to 
testify. Anyone whose statement is longer than the five 
minutes--it will be entered into the record.
    Gentlemen.

STATEMENT OF MICHAEL A. HOULEMARD, JR., PRESIDENT, ASSOCIATION 
                     OF DEFENSE COMMUNITIES

    Mr. Houlemard. Thank you, Chairwoman.
    I appreciate the opportunity to speak on behalf of the 
Association of Defense Communities today and thank Chairman 
Ortiz and all the distinguished members of the subcommittee for 
this opportunity.
    As a representative of the Association of Defense 
Communities (ADC), I am honored to represent all of the 
association membership. We have over 1,400 members representing 
more than 100 different communities across this nation.
    We are the nation's premiere organization representing 
these diverse interests of communities. We particularly noted 
today that Congressman Farr attended, who received the prior 
award from the Association of Defense Communities as we 
recognize all of our country's leadership for its support of 
communities in defense installations.
    ADC members include communities responding to the full 
range of BRAC impacts, including numerous communities affected 
by previous BRAC rounds that are still coping with the 
significant impact of closure, and especially environmental 
problems.
    We also represent every major community that is impacted by 
2005 decisions.
    ADC's diverse membership places us in a unique position to 
address the successes, challenges and concerns of defense 
communities. And today, I would like to highlight just a few 
key themes that come from the written presentation that was 
offered earlier.
    First, I want to speak about growth communities, where the 
arrival of thousands--and as the lieutenant governor just 
mentioned, tens of thousands of new residents place a 
considerable strain on the local infrastructure.
    As you heard from him and others, there is an increasing 
demand for schools in growth communities, which also must 
provide health care, roads, police, fire, child care, sewer and 
a full array of municipal services that historically have been 
provided on base and with Federal funds.
    These growth communities are both eager to support their 
local installation and anxious to welcome the arriving 
missions.
    However, many communities, especially the rural ones, face 
overwhelming financial challenges if they are to fully support 
such a large influx of military growth.
    Second, I want to point out that from our historical 
perspective, we have observed several trends throughout the 
course of the reuse, planning, environmental remediation, 
property disposal and economic development components of BRAC.
    We particularly applaud the efforts of the Defense 
Department and the Office of Economic Adjustment as well as the 
military services in supporting the BRAC 2005 closure 
communities as they move ahead with the initial planning 
process. Many successes have occurred there.
    However, after community reuse plans have been completed, 
the most significant problems arise for communities. Once the 
bases finally close and the last soldier or sailor leaves, 
communities encounter new challenges, such as the required 
maintenance of significant facilities and infrastructure.
    As the members of this committee are undoubtedly aware, 
crucial decisions must be made about caretaker needs. Most of 
those have been underfunded and historically have created much 
problems--underfunded in the BRAC account, that is--which will, 
which can, which have resulted in lost use and value in these 
significant assets.
    Second, environmental cleanup and both the pace and the 
cost associated with environmental cleanup in the remediation 
process is significant to many closure communities.
    And then finally, we want to point out the concerns we have 
about property disposal and what seems to be a very heavy 
reliance on public sale that may inhibit or potentially delay 
prospects for successful redevelopment in communities.
    It is certainly ADC's belief that the Federal Government 
must continue to consider and emphasize that there is more to 
disposal and reuse than simply the monetary gain or return to 
the Department of Defense.
    As our national economy slows and individual communities 
are impacted, we hope the Department will rely on other 
property disposal tools such as economic development 
conveyances, as Congressman Farr indicated, including at no 
cost, to dispose of base property and ensure successful, speedy 
community-driven reuse.
    And last, certainty is an important requirement for 
communities in their response to BRAC recommendations. Driving 
local planning efforts in both closure and growth cases while 
ensuring they stay on track is the certainty of change.
    A firm deadline and an unwavering decision provide 
communities with the necessary certainty to allocate scarce 
public resources and the ability to track private investment.
    The absence or erosion of certainty sends a very dangerous 
message to the marketplace and to other communities affected by 
BRAC decisions, injecting doubt into an already complex, 
sophisticated and arduous process.
    Certainty helps local communities to budget the resources 
and to craft policies that will aid in their ability to support 
the military mission and growth.
    Communities rely on this certainty and equity to make plans 
for dealing with closure, and ADC is concerned that there might 
be an unprecedented--an unusual precedent that would be set if 
the closure process is reopened in a way that affects 
communities down the line.
    A secondary component to this certainty process is the 
financial impact. In addition to programmatic uncertainty, 
communities affected by BRAC 2005 must also be assured that 
military services receive an adequate stream of funding to 
carry out the BRAC recommendations.
    Chairman Ortiz earlier today made some comments that we 
were very encouraged by in support of the certainty prior to 
the 2005 decisions.
    We have a significant additional amount of comments that we 
have prepared in our written comments, Chairwoman, but thank 
you for the opportunity to appear today as ADC looks forward to 
its ongoing relationship between this subcommittee and 
America's defense communities.
    [The prepared statement of Mr. Houlemard can be found in 
the Appendix on page 131.]
    Ms. Bordallo. Thank you very much, Mr. Houlemard.
    And now the chair recognizes Dr. John Deegan, President of 
the Military Impacted Schools Association.

 STATEMENT OF DR. JOHN F. DEEGAN, EXECUTIVE DIRECTOR, MILITARY 
                  IMPACTED SCHOOLS ASSOCIATION

    Dr. Deegan. Thank you, Chairwoman.
    We appreciate the opportunity to be invited to offer 
testimony today. We really, as an organization, represent all 
the military children not served by DOD.
    DOD actually serves about 100,000 students in the United 
States and overseas, and there are about 500,000 students that 
we represent. And those children are as important as any, and 
we recognize many of the challenges they are facing at this 
time.
    We want to make sure that you understand how important it 
is that schools, quite often, are the system to support the 
military, and those young children--and when they are disturbed 
or bothered by deployment, or whether it be a BRAC operation 
where you are moving people--you know, they have needs and 
their schools as well.
    And they quite often look to their teacher or to their 
school for help. And the public schools that are serving these 
children are facing a number of changes as well.
    The whole military transformation that we heard about from 
Mr. Grone and the changes that that we are looking at in 
restructuring the military--the housing privatization where 
children and families were moved off base and then moved back 
on base, and moved to different neighborhoods and houses.
    And we as an organization took a really hard look at how 
that was going to affect them, and many of the young people are 
going to be affected in their housing, through free and reduced 
lunch or Title 1, or food stamps.
    And we have taken care of that with the help of Congress to 
make sure those aren't hardships those families have to face.
    With the whole global re-basing, it is kind of interesting 
that we have, at one point--it has been a couple years now we 
have been talking about moving people from overseas to the 
United States, and as an example, those children that are being 
moved here--no money follows those children.
    So wherever DOD can build schools around the United 
States--or, excuse me, around the world, DOD can put them here 
and put them there.
    And even where the Army built a school recently at Fort 
Hood--or at Fort Stewart, the whole idea of movement of people 
and the BRAC, effective BRAC, has left a lot of schools 
wondering how am I going to deal with those kids, and how am I 
going to deal with the facilities that are there.
    And we have been talking a lot about that. The idea that 
the Army is re-modularizing has a big effect right now because 
no one is sure where people are going to be going.
    The idea of the BRAC--sometimes there are effects because 
of bonding, where somebody may have spent money, set up a bond, 
and they are paying off their bonds, and through BRAC that 
changes.
    And sometimes in a school district they may lose 10,000 and 
pick up 10,000. And that has a tremendous effect, because in 
the impact aid, when you get to count a child that year, 
whoever is there by January 30th--you count that year, and you 
get the money the following year.
    If you happen to come in after January 30th--a military 
family moves in February--we don't get funding for two years 
because it will take the next year to do the count and the next 
year to get the funding.
    So we have some real funding issues, and Congress has been 
real good about helping us through the--not through the DOD 
bill, but by attaching to the DOD bill.
    We have an element where we put on an amendment onto that 
bill to ask for additional funding to kind of bridge the gap.
    Many years ago, in impact aid, the impact aid law took care 
of that, because it was in the law. In 1994, that was 
eliminated from the law because it didn't look like we were 
going to have a lot of movement and change, and that was the 
force that wanted to take and change that.
    Well, today we need that more than ever in impact aid, and 
the way it has helped us to do it is through Congress stepping 
up. In 2006, we got $7 million. In 2008, we got $8 million--or, 
excuse me, in 2007 we got $7 million--or $8 million. In 2008, 
we got zero.
    And everything is kind of in shock, saying, ``All these 
kids moving back, all this activity, why didn't we get any 
money?'' So we are still asking that question. And we are 
hoping to be able to work in the 2009 budget to be able to put 
that together.
    And we as school districts depend on the impact aid 
program, but one little bit of a thought is to let you know 
that program contains low-rent housing, civil service, Indian 
lands and military. It is not just a military program.
    If you put one dollar into the impact aid program, we get 
40 cents out of that dollar. And so these schools are asking, 
you know, how we can get help, and we are looking for the best 
way to get help.
    I would tell you when it comes to DOD, we get tremendous 
amount of talk. We don't get anything but talk. And Mr. Grone 
today used the words ``we are planning,'' ``we are working 
with,'' ``we are assessing,'' ``we are doing everything,'' but 
it never ends up in any money from DOD.
    DOD can always do it for the 100,000 military kids, but 
they can't do it for the 500,000 in our communities. And the 
OEA has been good, too, but they are also talking and planning, 
but there is--no money has surfaced. They have got an idea and 
a plan, but no money has surfaced.
    Thank you to Congress for what you have done.
    [The prepared statement of Dr. Deegan can be found in the 
Appendix on page 142.]
    Ms. Bordallo. Thank you very much, Dr. Deegan, for your 
testimony.
    And now for our final witness, Mr. Victor Ferlise, the 
former deputy to the commanding general for operations in 
Support for Communications-Electronics Life Cycle Management 
Command.

  STATEMENT OF VICTOR J. FERLISE, ESQ., FORMER DEPUTY TO THE 
      COMMANDING GENERAL FOR OPERATIONS, SUPPORT FOR THE 
COMMUNICATIONS-ELECTRONICS LIFE CYCLE MANAGEMENT COMMAND, FORT 
                          MONMOUTH, NJ

    Mr. Ferlise. Good afternoon, Madam Chairman.
    As the deputy at Fort Monmouth, I was responsible for 14 
years for the acquisition, logistics, research and development 
that went on there. I am going to use an acronym, C4ISR--
command, control, computers, intelligence, surveillance and 
reconnaissance. That is the business of Fort Monmouth. That is 
what saves warfighters' lives.
    I am here today to tell you that the BRAC decision that we 
are discussing was unsupported by any objective evidence. It 
was developed in violation of the BRAC law. It was developed in 
violation of the DOD guidance on joint cross-servicing.
    It was the result of withholding crucial financial 
information from the BRAC Commission. Now, you heard this 
morning--and this is added to my remarks; I apologize--that 
there was not certified data.
    I am here to tell you it was certified. I certified it on 
July 14th, four months before the commission met. I understand 
from other sources technical information was suppressed under a 
suggestion that the material was secret, and it was not secret.
    That all leads me to a conclusion that this was a 
predetermined conclusion on the part of the Army leadership 
that is unfounded and ill-advised--ill-advised for warfighters. 
That is what I am talking about.
    I am not talking about that we told them the money was 
wrong in the beginning. We did tell them the money was wrong. 
We told them it was $1.44 billion. I said that. I signed that. 
It is absolutely true.
    An interesting fact is I realized that that would not be 
well received. I asked for an Army Audit Agency, an independent 
agency, to come in and review our data to make sure we weren't 
wrong. That decision was not reviewed.
    The Army Audit Agency was directed not to review that data. 
That data did not go into the certification that was submitted 
to the BRAC Commission, and it was not posted or it did not 
come to light until December, four months after that, when that 
document became part of the official record of the BRAC 
commissioners.
    So when I hear people say about growth--I listened to the 
comptroller general this morning discuss growth. Well, I was 
there when we talked about the cost of building the U.S. 
military academy prep school at West Point.
    We had just completed a $25 million renovation of that 
facility, and the proposal came in, and it was passed on to the 
commission, that it would cost $22 million. On June 14th, five 
months before the final BRAC hearings, there was a 1391 
presented to the Army for $227 million.
    So it is not about growth. These are no surprises. And that 
is not what I want to talk to you about today.
    What I want to talk to you about is the 4,000 soldiers that 
lost their lives in Iraq and Afghanistan to things like 
improvised explosive devices (IEDs). Those devices that killed 
and maimed most of our soldiers are centrally managed from Fort 
Monmouth.
    It is an extraordinary program with extraordinary talent, 
cutting across all of the services. The heads of every joint 
panel come from Fort Monmouth engineers. They are Fort Monmouth 
personnel. Why is that? Because that is the center of 
excellence for counter-IEDs.
    Does it say no one else is doing it? No, others are doing 
it. But they work in collaboration with Fort Monmouth. So when 
we talk about closing Fort Monmouth, we are throwing out a lot 
of technology that will be extremely difficult to replace.
    Madam Chairman, there is only a matter of time before those 
IEDs come to our shores. It is the weapon of choice for 
insurgents. I know the Department of Homeland Security has 
undertaken some work to begin that.
    All that technology is at Monmouth. The actuating 
mechanisms is what we defeat. More than 500 times the enemy has 
changed those actuating mechanisms.
    And immediately, that information goes through the FBI 
Terrorist Explosive Device Analytical Center (TEDAC) center and 
comes to Monmouth, where it is analyzed and countermeasures are 
built and sent to the field, either through software upgrades 
of existing systems, which now, by the way, number in the 
30,000 range, or through replacement of hardware.
    If you travel to the theater, if any of the members have, 
they have been protected by things like Warlock Green, Warlock 
Blue, Warlock Red, Warlock Brown--the most recent. Those 
systems come from engineers at Fort Monmouth. They are 
sustained by people at Fort Monmouth.
    Fort Monmouth is the national inventory control point for 
electronics. There is not another location where that is done. 
Every day--by close of business today there will be 1,300 more 
requisitions there for support of our soldiers.
    For this year, it will go over 400,000. And since 9/11, it 
is more than three million requisitions have been processed 
through there. This past year, $14.5 billion in contracts were 
awarded out of Fort Monmouth.
    When I listened to the secretary testify to the commission, 
he said that he wanted to move Fort Monmouth closer to its test 
ranges. Well, Fort Monmouth's test ranges are not at Aberdeen 
Proving Ground.
    They are well developed. They are at Fort Huachuca, 
Arizona. And the secretary was told that by Commissioner Coyle, 
and he simply dismissed it.
    He was supposed to do joint cross-servicing. That is what 
this was about. This was a real opportunity. DOD said do joint 
cross-servicing. There are three electronics commands in DOD. 
Fort Monmouth has one, Hanscom Air Field has one, and San Diego 
Space and Naval Warfare Systems Command (SPAWAR) has one.
    It could have been a choice to pull these together, pick 
the best of breed and build on that. We didn't. We took an 
agency that was number one in technology, in C4ISR, and we are 
moving it to an installation that it less than number ten.
    It doesn't have that capability there. And that was well 
understood by Commissioner Coyle, and he attempted to explain 
it.
    But I tell you today that I think it was a predetermined 
decision, and it warrants looking at in every single aspect. 
Why was Triple A directed not to review my numbers? Because my 
numbers would have disclosed that this was a ridiculous idea.
    Why were they not allowed to see the suppressed technical 
data? For the same reason--it would expose what is a faulty 
decision.
    I can't be more passionate on this than I am. I have to 
tell you, Fort Monmouth is the national inventory control point 
for electronics. One-half of all national stock numbered items 
in the entire Army are managed from Fort Monmouth.
    That means that one out of two soldiers--one out of two 
things that a soldier touches comes from Fort Monmouth. They 
are always in the electronics field, the night vision, all 
kinds of countermeasures.
    If you flew in Iraq, you had jammers on those aircraft. 
They come from Fort Monmouth. The pilot was flying with our 
night vision equipment. The radios in that aircraft come from 
Fort Monmouth.
    The radar warning receiver that tells the pilot he is going 
to be shot by a missile comes from there, and he can react to 
it.
    Now, I heard this morning--I heard about how hard things 
were and how difficult it was from my co-panelists here. I am 
going to tell you what hard is, because I understand what hard 
is.
    Hard is when a group of soldiers are asked to go out of the 
compound in the morning and half of them come back dead or shot 
up because an IED blew up. That is not something to fool with 
here. And that is what we are fooling with, make no mistake 
about it.
    It is a tragic mistake, and that is why I am here today to 
explain that to you.
    The BRAC Commission--there was intense debate on it, and I 
understand the legal position advanced by Secretary Grone here, 
and I understand how they have to do that. But a question was 
asked of him--is what would it take to have DOD come back and 
say it is a mistake.
    I think the answer should be there is something that would, 
and it is where we are losing soldiers.
    And I realize that I am over my time. I thank you for your 
consideration.
    I would also just--in my remarks I talked about the 
American Federation of Scientists. They have one quote that I 
would just like to read, that there is firm evidence that some 
Pentagon officials, not all, maybe not Mr. Grone, and I suggest 
not Mr. Grone, but some Pentagon officials deliberately misled 
the BRAC Commission, thereby deceiving the President, deceiving 
the United States Congress, and deceiving the rest of DOD and, 
more importantly, the American public.
    I attended two funerals of soldiers from New Jersey, and 
the last one was in September 2007. A Marine was killed in Iraq 
as a result of an improvised explosive device.
    I am seeing the stop signal here, but I just have to tell 
you that the horror that was on the face of those families is 
something we can't let continue.
    And I can tell you one last thing, if I might, in the 29 
months since this decision was made, the Army still cannot 
articulate an intelligent reason--they were asked three times 
why are we doing this.
    I didn't hear one answer, but I heard, like my friend next 
to me--I heard we are going to be told that answer. If that is 
such a good answer, you should have been doing it all along.
    And no steps--no steps--have been taken to ensure no impact 
as a result of this move. No steps have been taken.
    Thank you very much. I apologize for my passion on this 
subject, but I am here because I speak for warfighters. I am 
not speaking for the people of Fort Monmouth, the jobs, the 
money. It is about soldiers. You are touching the wrong thing 
here.
    Thank you, Madam.
    [The prepared statement of Mr. Ferlise can be found in the 
Appendix on page 150.]
    Ms. Bordallo. Thank you very much, Mr. Ferlise. And I 
understand your passionate views, and the committee is very 
grateful for these very disturbing facts but also very 
valuable. And they will take them into account.
    I also would like to mention, because we will be asking a 
few questions here, I am sitting in for the chairman, who is 
down on the floor voting. Without objection, the witnesses' 
full prepared testimony will be entered into the record.
    My first question is to you, Governor. Would you say you 
are satisfied with the information that the department has 
provided to local communities?
    Is it sufficient to begin the detailed community planning 
to prepare for the additional personnel expected at the 
conclusion of BRAC?
    And how has the department assisted in supporting the BRAC 
changes?
    Mr. Brown. Thank you, Congresswoman. You know, of course, 
in this business, you know, you never want to say you are 
satisfied, because you are always--you know, want to maintain 
your vigilance and make sure that you have the most timely and 
accurate and updated information.
    What I will tell you is that in 2006, when we received our 
first numbers from the Department, we were able to conduct a 
Department of Labor (DOL)-funded study where we could project--
based on the number of direct jobs that were anticipated to 
move to Maryland, we could project the number of indirect jobs, 
the number of households.
    And based on planning formula, we have a pretty good idea 
of where the households will locate in Maryland, where the 
businesses are likely to establish their operations, and we 
have been able to make some progress, considerable progress, 
with that information.
    Since that report, that DOL-funded report which came out in 
December of 2006 based on the preliminary numbers we got, we 
continue to stay in dialogue with the department.
    As I mentioned in my testimony, we have visited with the 
leadership at Monmouth and at DISA. We have regular meetings 
with the installation commanders, constantly updating our 
numbers in terms of the number of direct jobs, indirect jobs, 
and then we can calculate the induced jobs from that.
    So while we are grateful for the information we have, we 
continue to be determined to make sure that it is always the 
most accurate.
    And at this point, I cannot say that the department has not 
been anything less than candid and forthright with giving us 
that information.
    Ms. Bordallo. And part of the question, then, that I asked 
was has the Department assisted in supporting these changes. 
Would you say yes?
    Mr. Brown. Yes.
    Ms. Bordallo. Yes.
    I have a question also for Dr. Deegan. Are communities able 
to provide sufficient education facilities to support the 
50,000 dependents expected to relocate as a result of BRAC 
2005?
    Dr. Deegan. In a real simple answer, no. Most recently, 
like at Fort Riley, they were dealing with movement of troops 
in there, and they opened up a Kmart store as a part of their 
school district.
    We have a number of people that are doing that, trying to 
get by because they don't have the bonding capacity or the will 
to get that done in a major military installation. And so the 
answer is no.
    Ms. Bordallo. Another question I have for you, Doctor, is 
some rural communities have indicated that their bonding 
capacity is not sufficient to absorb an influx of additional 
dependents without Federal assistance.
    Could you explain some of these difficulties?
    Dr. Deegan. The difficulties you have--as an example, a 
bonding capacity may be just based on the size of the district 
and the rating. They may not be able to do all that bonding at 
one time.
    A second thing is who is going to vote for a bond issue in 
a major military community? Of course the military, if they 
register to vote there, would vote for it. But people in the 
community won't vote for it because they don't want to be stuck 
with the debt when the military moves on.
    So voting for bonds or getting bonds passed is a very poor 
way to deal with the problem.
    Ms. Bordallo. Thank you, Dr. Deegan.
    Dr. Deegan. Thank you.
    Ms. Bordallo. I have one more question for Mr. Ferlise. How 
effective is the Department's relocation assistance in helping 
impacted employees?
    Mr. Ferlise. I have been retired since February, so I can't 
tell you what is happening right now, but I know the personnel 
people at Fort Monmouth are working to accomplish that. So I 
really can't be responsive on the employees.
    Ms. Bordallo. I wish to thank all the witnesses. There is a 
little chaos going on here. We have to be called to the floor.
    And incidentally, for those in the audience who wonder why 
I am not on the floor voting, I am a territorial 
representative. We only vote for amendments, not the final 
passage of legislation, so I don't want you to think that I am 
neglecting my duties in the U.S. Congress.
    But I do want to thank each and every one of you for very 
insightful testimony. All of your testimony will be included in 
the record. And the chairman again thanks each of the witnesses 
for being with us for this long period of time.
    I have been told that the Readiness Subcommittee for the 
Armed Services will recess until further notice.
    [Recess.]
    Mr. Ortiz [presiding]. We are going to resume this hearing, 
and we are sorry that we were gone for a few moments. We have 
the DOD authorization bill, and we had a bunch of votes.
    But now I understand that we were in the process of asking 
questions, and I want to be respectful of the Members who are 
here and who have not asked questions.
    Okay, so we have--anybody on the second panel ask any 
questions yet? Okay. My good friend from California, Sam Farr.
    Go ahead, Mr. Farr. Do you have any questions for the 
second panel?
    Am I correct, the panel has been introduced by the prior 
chairman?
    Mr. Farr. Mr. Chairman, thank you. This panel is sort of 
the on-the-ground panel, people that really understand what the 
impact is both in what I call the windfalls and wipe-outs.
    And I would just be interested in their sharing with me 
their concerns of where those gaps are. I pointed out that in--
that we do have some provisions in the law, the OEA law, 10 USC 
Section 2391(b)(2), allows for OEA, assuming they have the 
funding, to provide construction assistance beyond planning 
grants and gets into building infrastructure.
    And pointed out that we also were--before BRAC, the 
Congress appropriated money for the King's Bay Naval Submarine 
Base in Georgia and put millions of dollars into the community 
specifically to build schools under this community impact 
assistance, known as the CIA, program within OEA.
    And I just wondered if any of you received any assistance 
under that particular provision and how critical is it for you 
to receive that in order to have a smooth growth or a smooth 
closure.
    Dr. Deegan. Well, one of the things that has happened is we 
have been talking to OEA--actually, we did a survey for OEA. 
They asked us to kind of go around and survey all the schools 
as to what their needs were, and how they were going to 
address--and how many kids they were receiving.
    And then when we got that all back, they said, ``Well, we 
are going to go back and have a--now we are going to revisit 
those communities.'' So we have had a good working 
relationship, but we don't know where the end of the road is.
    We don't know if they are actually going to come up with 
any money, or a plan, or what they are going to do. Basically, 
there is a lot of talk but yet there is no actual dollars for 
anyone.
    Mr. Farr [continuing]. The Association of----
    Dr. Deegan. Military Impacted Schools.
    Mr. Farr. Impacted schools.
    Dr. Deegan. Right.
    Mr. Farr. What about on declining enrollment, the other 
way, where they are leaving the area, and you have an impact 
because now the school has been receiving impact aid----
    Dr. Deegan. Right. That is also a serious----
    Mr. Farr [continuing]. Cut it off. You have still got the 
same sized school district, same budget.
    Dr. Deegan. Yes, and the only thing that--helps us is that 
we get impact aid always like in arrears, so as you get the 
money, you will get it one year after you could have sized 
down.
    That will help you a little bit, but that in no way buys 
out all your contracts, pays off all your facilities or gets it 
done. So that is a major area.
    But to be honest with you, all these heavily impacted 
schools are so concerned right now with getting schools in 
versus the BRAC effect. That is just another part of what is 
going on. Within our group, we don't see as much of that 
immediately. But it is very serious.
    I mean, once you make all those obligations and you have 
all those facilities, what do you do?
    Mr. Brown. Mr. Farr, in response to your question, while 
OEA has been there for the state of Maryland--I am the 
lieutenant governor of Maryland--in terms of funding for 
planning and studies--they have funded aquifer and other water 
treatment studies; they have funded some of our planning 
positions, looking at workforce issues, looking at 
transportation issues--we have yet to have a discussion with 
them about construction-related dollars.
    And I certainly look forward to those discussions, because 
as was mentioned in the panel this morning with the school 
impact aid coming in as a trailing component, it does put 
mission growth communities like Maryland and some of the other 
states at a little bit of a disadvantage to be able to build 
those schools without the assistance of the Federal Government.
    But I will say that, you know, we in Maryland really 
understand that states have a tremendous responsibility to 
accommodate the growth and development associated with base 
realignment and closure.
    We are going to benefit tremendously, as will other states, 
with the employment opportunities, great families coming to 
Maryland. So we continue to build schools. We continue to build 
roads.
    We continue to work with our Federal delegation to get our 
fair share of funding in all of those areas. But to date, while 
OEA has been there for us for planning dollars, we haven't even 
had a discussion about construction dollars.
    Mr. Houlemard. Mr. Farr, I think it is important to note 
that, in general, the Department of Defense provides mechanisms 
for bridging the gap between either a closure or an assignment 
for growth, but often is limited by the amount of resources 
that go to the Office of Economic Adjustment.
    And you have just heard of two certain circumstances. The 
references that you have made to law are only one of multiple 
opportunities that the Department of Defense has for bridging 
the gap that occurs right after a closure happens or an 
announcement about a growth.
    And so as the Association of Defense Communities, we would 
support additional resources that would help communities to 
bridge these gaps until they are able to provide the support 
and help to the military on their own.
    Mr. Ortiz. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And once again, we thank all of our witnesses for your 
patience with us and through the voting process that we just 
encountered.
    Mr. Houlemard, as I understand it, you--and we apologize 
that we didn't get to hear all of your previous comments, so I 
may be repeating something that you have said.
    But it is my understanding that your organization 
represents both people who--or groups that have benefitted from 
BRAC and those who have not benefitted from BRAC, and yet you 
note that as a whole your membership does not really support 
changes to domestic bases outside the BRAC process.
    Is that true? And if so, maybe you could give us a little 
explanation of why you think that is not a good idea.
    Mr. Houlemard. Yes. In amplifying the comments I made 
before, Congressman, I think it is important to note that most 
of the communities that are impacted by BRAC immediately begin 
a process of planning that is essential for them to look 
forward into the future and to figure out appropriate recovery 
mechanisms that will solve problems for their community that 
come from the big void that occurs when a closure happens.
    Many of these communities have already undertaken millions 
of dollars of effort, sometimes with the support of the Office 
of Economic Adjustment, but in most cases at a considerable 
investment of local money.
    As a consequence of that kind of investment, they will come 
up with bonding programs, new redevelopment programs, new reuse 
programs that will help the communities to rebuild 
infrastructure, to bring in new industry, or whatever it is 
that the local community looks forward to in order to recover 
from such a significant economic impact.
    If there were then changes that would occur in the process, 
whether it is a closure community or a growth community, that 
uncertainty has the chilling effect on the financial markets, 
on the local planning effect, on economic projections, as well 
as on how the community perceives its future.
    That detrimental kind of impact would have such an 
extensive ripple effect across the Nation about what the 
potential would be for other changes in a process that was 
considered to be done under a certain set of rules that we 
think most communities would negatively look upon that kind of 
conclusion.
    Now, there are some instances where communities have asked 
for delays. Mr. Grone mentioned earlier where certain 
communities asked for additional delay in implementation in 
order to be able to prepare.
    We have had other circumstances where there were special 
circumstances where additional dollars were needed for certain 
things.
    But in general, to make a change and to then have that 
chilling effect on what the communities have been planning and 
doing for now over two years, our organization would not find 
that consistent with the message we have given to communities 
over the years.
    Mr. Forbes. One of the things that I think you had 
mentioned before--certainty is one of the things that unites 
your membership together, be they a benefitting community or 
one that is perhaps not benefitting.
    Does that certainty that you believe is so important it 
should be--is that demonstrated to apply to BRAC funding 
itself?
    In other words, how does the timeliness of BRAC funding 
impact your assessment of the level of certainty demonstrated 
by Congress, for example?
    Mr. Houlemard. BRAC funding has been the source of the 
funding that provides for everything from environmental 
remediation, to costs associated with planning, to costs 
associated with completing the work for infrastructure.
    All of the items associated with closed installations or 
growth installations are coming out of the BRAC fund account. 
It has been our experience, sir, that where there are a lack of 
resources you wind up with a problem associated with transfers.
    You probably have often disposal issues that carry long-
term impacts for the Federal budget as well as the local 
community's ability to do their transfer and reuse.
    So one of the things--the string that ties all of our 
communities together is an engaging effort with the services 
and DOD to make sure that, working with Congress, resources are 
made available through the BRAC account or other allocations 
for our local communities.
    Mr. Forbes. Mr. Deegan, just one last question. You have 
talked, I know, a lot in our absence and in your statement 
about impact funding and all, I am sure, as well.
    But some rural communities have indicated that their 
bonding capacity is not sufficient to absorb an influx of 
additional dependents without Federal assistance.
    Could you just maybe elaborate on some of the difficulties 
of their experiences?
    Dr. Deegan. The idea of bonding capacity in a smaller 
community is a critical one because there is only so much money 
you can come up with.
    And then the question becomes not only what can you come up 
with, but how much are you willing to come up with as a bond 
for a military to come into your area, because there is a 
number of people who would be questioning whether they should 
pay that bond or have that responsibility versus the Federal 
Government having the responsibility.
    As far as the BRAC account goes, our discussions have 
always centered around, you know, if communities had the 
resources, they would do it. They would find a way.
    But quite often, you have communities that the chamber of 
commerce welcomes them, cheering, parades, crowds--come on in--
and then the school or the service agency has to turn around 
and say, ``Well, there is no money. We are going to plan. We 
are going to talk. But there is no money.''
    So what you have done is Congress has authorized a bridge 
funding system. A couple years ago, a few years ago, you 
authorized a bridge system where we could have a little bit of 
money to help hire at least the teachers.
    So we hope that--you know, we got $7 million one year, $8 
million the other. The sad truth is this year there is zero 
funding in it. One of the years that we need it the most, there 
is no money.
    So we hope to be able to get at least $15 million back in 
that account and to be able to deal with that bridge funding, 
because that eliminates tons of problems.
    It still doesn't address the facility needs, but a lot of 
those facility needs can be addressed under the impact aid 
program if they just put the money there.
    So you know, in Congress there is a tendency to create 
programs, where I think we ought to just fund the one that is 
designed to do it, and that is impact aid, and then use this 
bridge funding to get through this process, and then it will--
eventually, the need will go away and we won't need it.
    Mr. Forbes. Okay. Thank you.
    Dr. Deegan. Thank you.
    Mr. Forbes. Mr. Chairman, I would yield back.
    Mr. Ortiz. The gentleman from New Jersey, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I am going to address 
my questions to Mr. Ferlise since he is the Fort Monmouth 
witness.
    But, Mr. Chairman, I just wanted to reiterate again, 
because I appreciate your having this committee hearing, and I 
am hoping that we can have another one, the problem that those 
of us representing Fort Monmouth face is that at the time of 
the BRAC we presented from the community statistics that were 
very exact about how the actual cost of this move was going to 
be twice what the Pentagon predicted, that the actual number of 
people who would be willing to move to Aberdeen, Maryland were 
only 20 percent, as opposed to, you know, the great majority 
that were represented by the Pentagon.
    And we did, in fact, certify that. Mr. Ferlise said that 
that material was, in fact, certified and properly sent to the 
BRAC. And the BRAC was very concerned because, you know, our 
presentation was very much at odds with what the Pentagon was 
saying.
    And that is why they came down with this compromise asking 
that this report be issued about whether or not the closure 
would negatively impact the global war on terror.
    The frustration that we have, Mr. Chairman, is that now the 
Pentagon essentially admits all the things that we said were 
true and that the GAO has essentially confirmed all that data.
    And so we are saying to ourselves, ``Well, if what we said 
is true and what the Pentagon said was not true, then why is it 
that we are proceeding with the closure?''
    Why is it that, you know, this report that is supposed to 
come out doesn't become the vehicle, if you will, for this 
committee to look and take another look and say, ``Well, 
perhaps this was the wrong decision to make,'' because 
everything that we said was true turns out to be true?
    And we are just looking for a vehicle to get that across. 
And you know, Mr. Ferlise basically said that in his testimony.
    And I guess what I wanted to ask Vic, though--and that 
this. The larger issue, the reason for all this controversy, 
and the reason why we presented all this alternative data was 
because we were convinced that the closure of Fort Monmouth 
would negatively impact the global war on terror.
    We wouldn't be able to proceed with all the things that the 
communications and electronics command does at Fort Monmouth if 
20 percent of the workforce--if only 20 percent moved, if all 
these additional costs were put into place.
    And now when I listen to Mr. Grone, he basically said--
well, I mean, I don't want to put words in his mouth, but 
essentially he said to me, ``Well, that is all very nice, but 
we have a much larger mission here at Aberdeen Proving Ground. 
We are going to do a lot more.''
    He said, ``The move to Aberdeen isn't just about 
replicating the functions at Fort Monmouth. It is about 
creating something we don't have today, something new.''
    Now, I never heard that before. And now I am afraid that 
with all our criticism this is now morphing into something that 
was not represented to the BRAC at the time.
    And so my question to you is, you know, what do you say? In 
other words, is this transfer going to be possible? Can you 
reconstitute the Fort Monmouth workforce without disrupting 
support to the global war on terror?
    And what is it that he might be talking about here that is 
larger than life and much more important than what we do now? 
Because I have no clue, if I could ask you that.
    Mr. Ferlise. A number of issues in there, Mr. Chairman. 
First, I want to talk about the certifications he referred to 
this morning. And I think his point was the community 
certification was outside the process.
    My testimony this morning was that I certified it 
internally in response to BRAC questions. Twenty-two questions 
were posed by the BRAC, including question seven about the 
money. They were posed in June of 2005.
    On July 14th I personally certified all of that data, and 
that data was for $1.44 billion, not $700 million, and that 
data was transmitted to the Department of the Army, and I am 
sure it went to DOD ultimately.
    I don't think Mr. Grone realizes that, listening to him 
this morning, but I can tell you and I can show you the 
documents where internally we stayed within the certification 
process, and I signed those documents.
    More than that, the cost of the use maps move was initially 
identified as $20 million, $22 million. In June of 2005, a 1391 
was presented by West Point saying cost would be $220 million.
    This also was data that was never given to the BRAC 
Commission until much later, actually in December, four months 
after the decisions were made.
    I also cite the Federation of American Scientists, and I am 
going to quote them. They are an organization that was formed 
at the time of the Manhattan Project, and they are highly 
credible. They are nonpartisan. They are nongeographical.
    They say there is firm evidence that some Pentagon 
officials--some Pentagon officials, not all--deliberately 
misled the BRAC Commission, thereby deceiving the President, 
the United States Congress and the rest of the Department of 
Defense and the American public.
    I believe that statement is true. Their reference is to 
data from the joint cross-service working group that was 
suppressed. I believe if all of that data had come out it would 
have been clear that this decision was baseless.
    So I have to say that some of the comments that I made 
earlier today--I know you weren't here, so if it is okay I will 
just repeat and tell you where I am coming from.
    Mr. Pallone. Go right ahead.
    Mr. Ferlise. I am coming from supporting warfighters. That 
is what I am about. What you heard just now is that the costs 
were understated. I have told you I certified the correct 
costs. Those did not go to the commission. Somebody should 
answer for that.
    Now, I knew those numbers would be dramatically different 
than what was being used, so I took the additional step from 
Fort Monmouth of asking for Army Audit Agency to do an 
independent review before I signed this document.
    I was told that they were directed not to audit those 
numbers. Now, I don't know why they were directed. I can guess 
why they were. I had my internal auditors audit the numbers, 
and then I certified them.
    When I listened to the Secretary of the Army's testimony, 
it just doesn't make sense. He said, ``I want to consolidate 
you with your test ranges.'' Well, the C4ISR test ranges are at 
Fort Huachuca, Arizona. They are not at Aberdeen Proving 
Ground.
    There are test ranges there for vehicles and guns and 
things like that, not for C4ISR. They are at Fort Huachuca, 
Arizona and at Fort Dix where we have a live test bed.
    But what disturbed me most from what I heard this morning, 
after 29 months, three members asked, ``Well, what is it good 
that is going to come out of here?'' And I didn't hear an 
answer. There was no answer to--look, we are going to tell you 
what it is pretty soon.
    Well, the answer is there is no good answer. At Monmouth, 
we are looking at the national inventory control point for 
electronics, 55,000 different items that are managed there, 
Research and Development (R&D) there, logistics support is 
provided there.
    So if I take you to the theater, that is half of the Army's 
entire inventory. One of the two things you touch in that 
theater come from Fort Monmouth, either R&D or sustainment-
wise.
    So if you went to the theater, and I am sure some of the 
members have, and you rode in a vehicle, it had Force XXI 
Battle Command, Brigade and Baton (FBCB2) for situational 
awareness in it. That is from Fort Monmouth.
    It had Blue Force Tracking. It had radios. Most 
importantly, it had jammers of one type or another--the Warlock 
family of jammers, the Duke family of jammers, all protecting 
our soldiers.
    And I heard something this morning also about why we 
couldn't re-look at this decision because--words like it would 
be hard, or it would be destabilizing. We are talking about the 
lives of soldiers.
    I just, in September, went to the funeral of a soldier from 
Toms River, a Marine who was killed by an IED, and the hurt and 
pain on his family's face is something I will not forget. To 
think that that has happened 2,000 to 3,000 times where we lost 
soldiers and lost others for other reasons is unthinkable.
    For us to take any risk at all in disturbing what is the 
nerve center for IED countermeasures and electronics--this 
battle of electronics is a battle of intellect and engineering. 
We are engaged in it full speed. We have excellent people.
    You will hear people say other organizations are doing IED 
work. And you know what? They are doing IED work because it is 
such a traumatic issue for our warfighters. It is a national 
issue.
    But every one of those groups is headed by an engineer from 
Fort Monmouth. Why is that? Because that is the undisputed 
center of excellence.
    Sustainment--more than 30,000 systems in the field for 
ground protection.
    In the aircraft, if you flew in an aircraft in theater, you 
had jammers on that aircraft. You had radios on that aircraft. 
You had the airborne version of FBCB2. A whole range of--all of 
the avionics on those aircrafts comes from Fort Monmouth.
    Eleven general officers, all retired, with decades of C4ISR 
experience, came up on the Net and said, ``This is a mistake. 
It will be immediate detrimental impact to the force. Don't 
make this move.'' That was ignored.
    Commissioner Coyle, the only commissioner that understood 
C4ISR, attempted to explain to the members why you shouldn't do 
this. Ultimately he ended up being ignored, and he was the only 
one that voted against the closure.
    I stress that this IED business and the whole warfighter 
business is about protecting soldiers. And I heard this 
discussion of what is hard--this is hard to do this.
    And then one question was asked by Congressman Holt, ``What 
would it take in terms of impact for DOD to say let's not do 
this?'' And he kind of waffled a little.
    I understand his position. He is coming here representing 
the department with the marching orders he has. But I submit to 
you as being there for 36 years, the last 14 of which I oversaw 
everything we did, this is a mistake that will cause us to lose 
lives.
    And I know the members on this committee share the anxiety 
over every loss of life. And I would ask you to use everything 
you--all your power to look into this and reverse this decision 
so that we don't lose the intellectual capacity.
    But more than that, it is not about jobs, it is not about 
people lying about the money, it is about soldiers. Thirteen 
hundred times a day a requisition comes to Fort Monmouth for 
support, three million times since 9/11.
    And 9/11 is a good example of what I am talking about. 
Soldiers, engineers and civilians went into New York City with 
the most advanced position locating equipment, stuff that came 
right out of our classified laboratories. You can't talk about 
it still.
    And it was used in not only the Pentagon search and rescue 
but also in New York. And at least a dozen different systems 
were used in that.
    So I would ask that this committee look at having another 
hearing and go through all of the facts that were really 
available in the Department of Defense.
    And why was Triple A directed not to audit those numbers? 
Why did those numbers happen to be almost exactly the numbers 
that DOD said? And I am going to tell you my opinion. It is 
because they were the numbers, and they were known to be the 
numbers, and that is not what we should be about.
    To be perfectly frank with you, I am an attorney, and I was 
the chief counsel at Fort Monmouth, and one of the things that 
I enjoyed about working for the government--and I hired many 
lawyers. I said the one thing we will never have to do is lie. 
We are going to tell the truth.
    I was dumbfounded when that certified data did not go 
forward. It was just not in keeping with anything we did or 
learned.
    Now, I talked about the American Federation of Scientists 
and their view. The question is who knew it, who did it, who 
stopped it. But the testimony of the secretary is just not 
credible, frankly, as to what his reason was for making this 
recommendation and fighting so hard for it.
    Yes, sir?
    Mr. Ortiz. I wanted to ask a question of all of you, and 
maybe you can respond. How many site visits did the members of 
the Base Closure Commission make to your facility, if you can 
elaborate on that?
    Mr. Ferlise. Two.
    Mr. Ortiz. Two.
    Mr. Ferlise. As I recall.
    Mr. Ortiz. And was this by all members----
    Mr. Ferlise. No.
    Mr. Ortiz [continuing]. Or just a few members?
    Mr. Ferlise. A few members.
    Mr. Ortiz. Anybody else?
    Mr. Brown. I don't have any information on that, Mr. 
Chairman.
    Mr. Ortiz. Thank you. Thanks.
    Mr. Houlemard. The committee conducted a hearing in my home 
community of Monterey.
    Dr. Deegan. We had none.
    Mr. Ortiz. See, this is the concerns of many--I can 
remember when at least they came to my base that was shut down. 
I think that we had two members who came separately to look at 
the--and I was with them.
    And one of the things that they asking me is if they wanted 
to move, and they said no, we can't afford to move to 
California because it is too expensive, and we can't afford to 
buy a home, we will be tied up in traffic for two, three hours 
a day, and we don't want to move.
    Well, they didn't want to move, but they moved them. And 
that is what happened. And I think that this is very, very 
important, the base closure process, and I think that this 
should have been the responsibility of the elected Members of 
Congress, not to pass it off to somebody else to do that.
    But the thing is that whatever damage has been done, the 
Congress and the Senate voted for it, but your request that you 
have made will not go unnoticed. You know, we will look into it 
and we will, of course, advise the chairman of the committee, 
and he will look into it and see what he advises to us.
    But it is very serious, especially when we shut down bases 
when we are in the middle of two wars, you know.
    Mr. Ferlise. Absolutely.
    Mr. Ortiz. And then we have also a lot of hot spots around 
the world, and we have a huge debt, and we are putting money 
here, there and everywhere, and it is costing the taxpayers a 
lot of money.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Smith, do you have a question, sir?
    Mr. Smith. Yes, Mr. Chairman.
    Mr. Ortiz. Go right ahead.
    Mr. Smith. Thank you very much. I do appreciate it.
    And let me ask--I would also like to ask Mr. Ferlise a 
couple of questions.
    And to you, Mr. Chairman, with the business report coming 
out, the report from the DOD, I would again reiterate the 
request that there be a follow-up hearing. You know, with every 
rule there is an exception.
    As I said in my opening, BRAC has done some very good 
things. I have been involved in--you know, we have had some of 
our bases in New Jersey put on the list. Some of them were 
changed, some of them for the better.
    But in this case, this is the most glaring exception I have 
seen in my 27 years of a DOD blunder that is about to be, you 
know, unfolded and implemented.
    And I think, you know, with all due respect to our good 
friends in Maryland, they will find very quickly that they 
won't have the personnel to train these individuals. Vic 
Ferlise makes that point in his testimony.
    And at the end of the day, this is all about the 
warfighter. It is whether or not we pull the plug on a number 
of important missions.
    Secretary Harvey, as you have pointed out, Mr. Ferlise, 
didn't even know what the mission was. And you know, he has got 
a lot on his plate at the time. But when you misstate in a way 
that is then reported upon, it just begs the question who is 
advising him.
    You know, the fact that Mr. Ferlise just mentioned that 
that certified data that he himself--and let us underscore 
that--he himself certified after his own internal audits did 
not make its way onto consideration for the BRAC commissioners.
    But three months later, on the BRAC Web site--because we 
went to it and downloaded, as did others, I am sure--they had 
the certified data. It was like after the fact, ``Oh, let's get 
this on the Web site real quick,'' to somehow suggest that it 
was taken into due consideration, which we have every reason to 
believe it was not.
    There needs to be very, very careful scrutiny given to this 
egregious decision.
    I would like to ask Mr. Ferlise--you have called the loss 
of intellectual capital, which would be about 3,100 people and 
maybe more, irreparable and irresponsible.
    You said that the intellectual capital will be lost and not 
recovered for an intolerable period of time, if ever, which I 
think is a very telling statement.
    You point out that system experts take from six years to 
nine years, if they are trained right out of college or soon 
after college, four years to six years if they are in mid-
career.
    You also point out, and this needs to be underscored 1,000 
times, very few employees will be available to train the new 
employees. So we will have a thud, a loss of capability, that 
will happen overnight or, in the terms of the DOD 
implementation, a few years, but that is overnight.
    And who gets hurt at the end of the day? Our warfighters. 
If you could elaborate on this irreplaceable loss for the 
committee, because I think that begs the question as to why 
this needs to be stopped.
    Mr. Ferlise. I think in response to that question you need 
to understand first at least my view of what Fort Monmouth is.
    It is a national treasure that we have that grew up in 
Monmouth County, New Jersey. It grew up in the shadow of 
giants--Bell Laboratories, Sarnoff Laboratories. There was a 
time when they were stealing my engineers--$25,000 bonus for 
anybody that could bring an engineer from Fort Monmouth to 
them.
    Bellcorp is there. Telcordia is there. And a whole raft of 
I.T. giants--AT&T is there.
    So what you are looking at today in Fort Monmouth is a 
national treasure that is not going to be readily replaced 
elsewhere, especially going to an area where there is no 
culture of C4ISR.
    If you were to move to a place like Boston, where MIT is, 
and a whole raft of institutions there, you might have a start 
at it. But to move to a place with no C4ISR background is a 
recipe for disaster that only our soldiers will have to pay 
for.
    So I think that intellectual capital will not be readily 
replaced. The people will be replaced, but the ones that can 
figure out how to deal with that particular jammer threat are 
not going to be there.
    Now, the jammers that we have in theater defeat about 80 
percent of the threats. And to give you an idea of the 
magnitude, we are talking about a threat--an actuating 
mechanism that has changed more than 500 times.
    Engineers at Fort Monmouth get that information through 
something called TEDAC and the FBI, and they immediately 
destruct the device and figure out the countermeasures.
    In fact, some of the countermeasures are already on the 
shelf anticipating where the physics will go next, if it is 
going into the infrared or the R.F. range, or what it is, so 
that we are anticipating.
    The latest jammer that is over there is a software-defined 
jammer that we can change--we can just change the software now 
without redeploying the package. And when I talk about jammers, 
I am talking about 30,000 are there.
    Every Thursday morning I had to report to the four-star on 
how many more had been fielded, how many more had been 
installed. It was that critical of an issue. And it is obvious 
it is a critical issue.
    And to take that cadre of people and move them and risk 
this loss is unthinkable to me. And I talk about IEDs--IEDs is 
a family of equipment, but there are fire finders over there. 
There are lightweight counter-mortar radars that are over 
there--came from Fort Monmouth.
    The C-RAM, a spectacular device that shoots down mortars in 
flight--in flight--70 percent hit rate--there is a whole raft 
of radars, radios, computers, all types of intelligence 
equipment coming from there, totaling, as I said, one-half of 
the entire inventory of national stock numbered items.
    Mr. Smith. If I could ask one final question, Mr. Chairman.
    Mr. Ortiz. You know, sometimes we--in my community--they 
ask, you know, and I was just going to ask the governor, you 
know--I know you do have some intellectual capacity, but it 
will take more.
    Do you think you have that capacity to draw, to bring them 
in to your area?
    Mr. Brown. Mr. Chairman, I don't think there is another 
state, with all due respect, that has the fundamentals, the 
solid educational workforce training capacity that we have in 
Maryland.
    I do agree that it will be a challenge with filling 70 
percent of the jobs or so with Marylanders. But our 
fundamentals are strong, and there are some--there is some 
information I would like to put in the record. It may not be in 
my written statement.
    Fifteen percent of our workforce holds advanced degrees--
that we ranked number one in the country. Thirty-five percent 
hold bachelor's degrees. We rank number two in the country. 
Twenty-six percent of our workforce are professional and 
technical workers. We rank number one.
    Our technology industries--and we do pride ourselves on 
both information and biotechnology and other emergent 
technology industries. Seventy-nine of every 1,000 private 
sector workers are in that industry. That is the fifth-highest 
concentration.
    We have national ranked, world ranked schools--Johns 
Hopkins, University of Maryland, Baltimore College, to name a 
few. They have been recognized as centers of excellence by the 
National Security Agency (NSA). We believe that they are well 
suited to educate the workforce to meet the needs of the moving 
command.
    We are making good use of an $18 million Federal grant to 
incorporate more STEM, science, technology, engineering and 
math, in our middle and high schools. This is all part of 
keeping that pipeline of an educated and skilled workforce.
    So while there are challenges, and I did identify that 
earlier today as one of the three challenges I identified, 
which is workforce, we believe that Maryland is well equipped 
to address that challenge, Mr. Chairman.
    Mr. Smith. Mr. Chairman, if I could follow up.
    Mr. Ortiz. I yield to my good friend, the chairman of the 
Seapower Subcommittee and a very valuable member of this 
committee, Mr. Taylor, and then I will yield to you.
    Mr. Taylor. I thank the chairman. Mr. Chairman, I never 
want to miss an opportunity to say what an incredibly stupid 
idea the whole BRAC process was. I think today's hearing has 
confirmed that.
    But I have had requests from Congressman Rush Holt to have 
some questions submitted for the record. I would like to ask 
unanimous consent to do so.
    And I also would like to, since Congressman Pallone, who is 
not a member of the committee, has some very valid questions--
and I get a lot of opportunities to ask questions, so with 
unanimous consent, I would like to ask that my remaining time 
go to Mr. Pallone.
    Mr. Ortiz. No objection. So ordered.
    [The information referred to can be found in the Appendix 
beginning on page 224.]
    Mr. Pallone. I wanted to thank my colleague from 
Mississippi.
    And I also wanted to stress that I agree with you. I voted 
against all the BRAC. I think that the BRAC is--he used the 
term stupid. I guess I will say the same thing.
    I really think Congress should make these decisions. They 
shouldn't be made by the BRAC. And this is certainly another 
indication of why.
    Mr. Chairman, my only comment and then question is this. My 
concern right now is where do we go from here. In other words, 
the Pentagon has told us from day one that they are going to 
issue a report saying that it is okay to close Fort Monmouth.
    They have also indicated to you today that they don't even 
have to issue that report, that they don't feel they have any 
obligation to. They are just doing it, I guess, to be nice.
    I don't buy that. I think the language is clear in the BRAC 
that this report was to be submitted to the committees of 
jurisdiction, of which, of course, this is one, because of the 
concern by the BRAC that the closure of Fort Monmouth might 
negatively impact the global war on terror.
    So I am just hoping that when that report comes out by the 
end of this month, and I fully expect it won't be until the 
31st of December, you know, at 5 o'clock in the afternoon, that 
there will be an opportunity, as the GAO said, to review it, 
but also for this committee to review it and, as Mr. Smith 
said, to have another hearing.
    Because the fear we have is that the process all along has 
been that the Pentagon wanted to do this closure without 
justification, and that they have essentially rejected or even 
hid the data that we provided that would have shown it was a 
mistake.
    And so we have every reason to believe, based on what they 
told us, that they are essentially going to whitewash us again 
with this report. I mean, they told us that today, and they 
have told us that previously.
    So really, this is the only opportunity that we would have, 
is if this committee follows up on it. So I just wanted to make 
that clear, if I could.
    And the only other question that I wanted to ask Mr. 
Ferlise--and following up, again, on what I said before--you 
know, Mr. Grone today basically came in and said, ``Well, we 
are not necessarily replicating Fort Monmouth, we are doing 
something new.''
    And I don't even know what he is talking about, and I 
just--I don't know if you had the time to address that or not. 
But you know, for a long time, the purpose of this BRAC was 
supposed to be, you know, purple-ization.
    Mr. Ferlise. Right.
    Mr. Pallone. All that was thrown out. And basically we were 
told all we are doing is replicating Fort Monmouth. So how does 
he come in here now and say something new? What do you think he 
is talking about?
    Mr. Ferlise. I can't imagine what he is going to say. As I 
said earlier, you could have combined the three electronics 
commands--very hard to do. You know, the people involved--very 
hard.
    The engineers all work fine together. It is just when you 
get into other issues----
    Mr. Pallone. Mr. Chairman, if I could just interrupt, we 
were told initially with the BRAC that the purpose of the BRAC 
was to create purple-ization or joint forces, so theoretically, 
you know, you have a Sea Command (SEACOM) at Fort Monmouth for 
the Army, you had another one at Hanscom for the Air Force, you 
had another one in San Diego for the Navy.
    And one of the things they were looking at was to combine 
these all into one place. That was essentially rejected by the 
Pentagon, and they said, ``Well, all we are going to do is 
replicate the Army one at Aberdeen.''
    And so I don't understand, when they rejected that, now 
they are saying, ``Well, we are going to create something new 
here.'' What is it that is new? They basically said, ``All we 
are doing is replicating the Army SEACOM. We are not doing 
anything else.''
    And now he comes in and suggests that somehow we are not 
doing that. You understand that is the problem.
    Mr. Ferlise. If I could respond----
    Mr. Ortiz. Yes, go ahead, sir.
    Mr. Ferlise [continuing]. In 29 months they haven't been 
able to articulate that. I don't have fear that they are going 
to be able to articulate it next month.
    It did start out with jointness. That was in the ``too 
hard'' box. It then moved to, ``Well, we will consolidate all 
similar Army C4ISR functions.'' Well, ARL is headquartered at 
APG, and they have a--the only part of it that does C4 stuff is 
at Harry Diamond Labs. That didn't go.
    The night vision lab from Fort Monmouth from seacom--it got 
taken off at the last minute.
    NADC was supposed to go. They didn't go.
    The only thing that is going is Fort Monmouth, seacom, and 
part of that is being scattered to the winds.
    I have to take one just pathetic note on that. So we didn't 
do joint cross-servicing. We didn't consolidate within the 
Army.
    We, in fact, took one organization that does all satellite 
terminal work out of Monmouth. There is a satellite park there 
with every single satellite replicated, and engineers and 
program management people.
    We are sending the satellite terminals to Aberdeen Proving 
Ground and the people are going to Fort Belvoir. They are 100 
yards apart right now. So not only did we not consolidate, we 
even managed in this process to separate things that were 
working fine together.
    It just doesn't pass the common-sense test.
    Mr. Ortiz. Thank you, sir. We are about to have a series of 
votes again.
    Let me yield to my good friend Smith, and then we are--I 
think we have held you hostage long enough here. But all of you 
have made a wonderful presentation. You all have made some 
great points.
    And we are going to take all of this into consideration. We 
will talk to the other members of the committee and I will work 
very closely with my good friend, my ranking member, and work 
with you.
    But let me yield to my good friend, Mr. Smith.
    Mr. Smith. I thank the distinguished chairman for yielding 
and again for including us on your panel.
    Let me ask Mr. Ferlise a question with regards to--Phil 
Grone, when he spoke earlier, mentioned 50th in terms of 
military value as if he was dropping a bomb.
    You addressed that in your written statement about the non-
mission-related attributes, like environmental elasticity. 
Could you explain this fallacy? Because again, it has surface 
appeal, but as soon as you dig away a little bit, it just--
there is nothing there.
    Mr. Ferlise. It is about maneuver ranges that he is talking 
about. He is correct. We don't have 50,000 acres there. But we 
have Fort Dix with an enormous range. In fact, it has one of 
the only tank ranges on the East Coast.
    We also have Fort Irwin. We test at both of those places.
    Mr. Smith. And there is already jointness with those bases.
    Mr. Ferlise. Yes. Correct. So you know, I think that is 
part of the same story that we haven't heard the end of yet. 
There is no logic here. I can't express it to you in a way that 
says, ``This is good for soldiers.''
    And I defy you to find somebody to come forward and say, 
``This is the best thing we have done for the warfighter.'' I 
don't care about money. I don't care about people in Monmouth 
losing jobs. Nobody says that, because it is absolutely not 
true.
    In 29 months they couldn't even articulate something that 
could pass a straight-face test.
    And the other thing I want to say is in that 29 months 
since that caveat came out, not one single step has been taken 
to protect that workforce. There are things that could have 
been done--retention bonuses for people, all kinds of other 
things. None of that has been done.
    That report should address what have you done in the last 
29 months. Every one of those 29 months I can tell you people 
have left Fort Monmouth. They have gone to the joint base. They 
have gone to Picatinny. They have gone to industry. They have 
gone all over. But you just can't sit by and let that happen.
    Now, I don't want you to misunderstand where we came from 
before I retired. We did everything we could to bring people 
from Maryland. We recruited routinely at Maryland because we 
wanted to get those people up here, train them, and then 
hopefully they would want to move back to Maryland.
    So when I was in government service, I viewed myself as 
executing the law, and I am going to do everything I could. And 
they will, too. But I can tell you the people at Monmouth are 
committed to doing whatever the law is because warfighters need 
it, not because of money, not because of jobs.
    The bottom line on every document you ever got from Fort 
Monmouth said, ``Our bottom line is the soldier.'' People in 
industry ask me, ``Why do you say that?'' Their bottom line is 
money. Ours isn't money. Ours is taking care of those soldiers, 
wherever they are in the world, and doing whatever we have to 
do.
    I will give you one more example. I realize we are a little 
long on time, sir. Blue Force Tracking. I got a call from the 
Pentagon six months before we went into Iraq, ``How many teams 
can you give me to field Blue Force Tracking in the theater, 
all the vehicles are there already?''
    Took me about two hours. I called him back, the G-6 of the 
Army. I said, ``You have a blank check. If you want one team, I 
will give you one. You want 10, I will give you 10. You want 
100, we will give you 100 teams.'' In short, we will do 
whatever we had to do.
    And Blue Force Tracking got into the tune of 1,200 vehicles 
and saved lives. The tank battalions that crossed in Baghdad 
saw each other because of Blue Force Tracking, saved lives. And 
that is what you got there.
    You have a national treasure, and we can't let it just go 
by.
    Mr. Smith. Finally, Lieutenant Governor Brown, Phil Grone 
said earlier that details in the report that will be released 
later this month will include mitigation of any loss of 
intellectual capital.
    And I am asking you sincerely. You went through, you know, 
people's resumes. And you know, we could do the same thing and 
say we have this kind of capability, you know, we will put it 
up in a brochure.
    But when it comes down to people who have a very specific 
expertise that has been learned over the course of several 
years, do you see--and again, the use of the word mitigation--
we use the word mitigation when you are talking about toxic 
waste cleanup. You know, you lessen the risk.
    As Phil just mentioned a moment ago, you know, no one is 
saying this is a good thing. They are saying it is not 
necessarily a bad thing. And I am wondering, do you have any 
concern, any whatsoever, that there is a risk to the warfighter 
because of this move?
    Mr. Brown. Mr. Smith, my concern is that in Maryland we are 
doing what we can do each and every day to support the 
warfighter, and that is what we are committed to doing.
    Some of the steps that we have taken, recognizing that 
often the employee looks to a spouse in helping make that 
decision whether you move--we have set up one-stop shops at 
Fort Monmouth for spousal employment and transitional services.
    We have set up the same thing outside of the gate at 
Aberdeen Proving Ground to facilitate that communication, to 
continue to identify those needs, to get those percentages as 
high as we can do.
    That is what our focus is on, bringing as many people with 
the jobs so that we----
    Mr. Smith. I understand. Is there anything in Mr. Ferlise's 
testimony, which I think just lays out this case--if this was 
going to court before a jury, I think it would be a unanimous 
jury that this is a foolish move, casting no dispersions 
whatsoever on Aberdeen nor on Maryland.
    But just based on intellectual loss, the capacity of people 
to do this job in the midst of a horrific war--you know, so my 
concern is did you hear anything in what Mr. Ferlise said that 
would persuade you that there is some caution here, that there 
is some risk that has gone underappreciated by some?
    Mr. Brown. Mr. Smith, that is somewhat out of my lane. All 
I can tell you is that what is in my lane is making sure that 
we invest in the human capital and the physical infrastructure 
in Maryland so we can accommodate the arrival of families and 
jobs, and we are doing that each and every day.
    And I have met with the leadership at Fort Monmouth. I have 
heard their concerns. We have heard their concerns, as well as 
at Aberdeen Proving Ground. And each and every day we commit 
ourselves to addressing those concerns. And we know it is a 
challenge.
    Mr. Ortiz. Thank you so much. I know that the Members who 
were here with us today are very sincere, you know, in 
representing their communities. And I think that we had some 
good stories, good testimony, today.
    We will share this information with the rest of the full 
committee. And I just want to thank each and every one of you 
for participating and being some outstanding witnesses today.
    And I can assure you that we will try to see if we can 
solve some of this mystery, because there is a lot of people 
still out there who are a little confused.
    But thank you so much for joining us today and being 
outstanding leaders in your community.
    And, Governor, thank you so much for being with us.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Ortiz. And now this hearing stands adjourned.
    [Whereupon, at 2:56 p.m., the subcommittee was adjourned.]


=======================================================================


                            A P P E N D I X

                           December 12, 2007

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 12, 2007

=======================================================================


    [GRAPHIC] [TIFF OMITTED] 40814.001
    
    [GRAPHIC] [TIFF OMITTED] 40814.002
    
    [GRAPHIC] [TIFF OMITTED] 40814.003
    
    [GRAPHIC] [TIFF OMITTED] 40814.004
    
    [GRAPHIC] [TIFF OMITTED] 40814.005
    
    [GRAPHIC] [TIFF OMITTED] 40814.006
    
    [GRAPHIC] [TIFF OMITTED] 40814.007
    
    [GRAPHIC] [TIFF OMITTED] 40814.008
    
    [GRAPHIC] [TIFF OMITTED] 40814.009
    
    [GRAPHIC] [TIFF OMITTED] 40814.010
    
    [GRAPHIC] [TIFF OMITTED] 40814.011
    
    [GRAPHIC] [TIFF OMITTED] 40814.012
    
    [GRAPHIC] [TIFF OMITTED] 40814.013
    
    [GRAPHIC] [TIFF OMITTED] 40814.014
    
    [GRAPHIC] [TIFF OMITTED] 40814.015
    
    [GRAPHIC] [TIFF OMITTED] 40814.016
    
    [GRAPHIC] [TIFF OMITTED] 40814.017
    
    [GRAPHIC] [TIFF OMITTED] 40814.018
    
    [GRAPHIC] [TIFF OMITTED] 40814.019
    
    [GRAPHIC] [TIFF OMITTED] 40814.020
    
    [GRAPHIC] [TIFF OMITTED] 40814.021
    
    [GRAPHIC] [TIFF OMITTED] 40814.022
    
    [GRAPHIC] [TIFF OMITTED] 40814.023
    
    [GRAPHIC] [TIFF OMITTED] 40814.024
    
    [GRAPHIC] [TIFF OMITTED] 40814.025
    
    [GRAPHIC] [TIFF OMITTED] 40814.026
    
    [GRAPHIC] [TIFF OMITTED] 40814.027
    
    [GRAPHIC] [TIFF OMITTED] 40814.028
    
    [GRAPHIC] [TIFF OMITTED] 40814.029
    
    [GRAPHIC] [TIFF OMITTED] 40814.030
    
    [GRAPHIC] [TIFF OMITTED] 40814.031
    
    [GRAPHIC] [TIFF OMITTED] 40814.032
    
    [GRAPHIC] [TIFF OMITTED] 40814.033
    
    [GRAPHIC] [TIFF OMITTED] 40814.034
    
    [GRAPHIC] [TIFF OMITTED] 40814.035
    
    [GRAPHIC] [TIFF OMITTED] 40814.036
    
    [GRAPHIC] [TIFF OMITTED] 40814.037
    
    [GRAPHIC] [TIFF OMITTED] 40814.038
    
    [GRAPHIC] [TIFF OMITTED] 40814.039
    
    [GRAPHIC] [TIFF OMITTED] 40814.040
    
    [GRAPHIC] [TIFF OMITTED] 40814.041
    
    [GRAPHIC] [TIFF OMITTED] 40814.042
    
    [GRAPHIC] [TIFF OMITTED] 40814.043
    
    [GRAPHIC] [TIFF OMITTED] 40814.044
    
    [GRAPHIC] [TIFF OMITTED] 40814.045
    
    [GRAPHIC] [TIFF OMITTED] 40814.046
    
    [GRAPHIC] [TIFF OMITTED] 40814.047
    
    [GRAPHIC] [TIFF OMITTED] 40814.048
    
    [GRAPHIC] [TIFF OMITTED] 40814.049
    
    [GRAPHIC] [TIFF OMITTED] 40814.050
    
    [GRAPHIC] [TIFF OMITTED] 40814.051
    
    [GRAPHIC] [TIFF OMITTED] 40814.052
    
    [GRAPHIC] [TIFF OMITTED] 40814.053
    
    [GRAPHIC] [TIFF OMITTED] 40814.054
    
    [GRAPHIC] [TIFF OMITTED] 40814.055
    
    [GRAPHIC] [TIFF OMITTED] 40814.056
    
    [GRAPHIC] [TIFF OMITTED] 40814.057
    
    [GRAPHIC] [TIFF OMITTED] 40814.058
    
    [GRAPHIC] [TIFF OMITTED] 40814.059
    
    [GRAPHIC] [TIFF OMITTED] 40814.060
    
    [GRAPHIC] [TIFF OMITTED] 40814.061
    
    [GRAPHIC] [TIFF OMITTED] 40814.062
    
    [GRAPHIC] [TIFF OMITTED] 40814.063
    
    [GRAPHIC] [TIFF OMITTED] 40814.064
    
    [GRAPHIC] [TIFF OMITTED] 40814.065
    
    [GRAPHIC] [TIFF OMITTED] 40814.066
    
    [GRAPHIC] [TIFF OMITTED] 40814.067
    
    [GRAPHIC] [TIFF OMITTED] 40814.068
    
    [GRAPHIC] [TIFF OMITTED] 40814.069
    
    [GRAPHIC] [TIFF OMITTED] 40814.070
    
    [GRAPHIC] [TIFF OMITTED] 40814.071
    
    [GRAPHIC] [TIFF OMITTED] 40814.072
    
    [GRAPHIC] [TIFF OMITTED] 40814.073
    
    [GRAPHIC] [TIFF OMITTED] 40814.074
    
    [GRAPHIC] [TIFF OMITTED] 40814.075
    
    [GRAPHIC] [TIFF OMITTED] 40814.076
    
    [GRAPHIC] [TIFF OMITTED] 40814.077
    
    [GRAPHIC] [TIFF OMITTED] 40814.078
    
    [GRAPHIC] [TIFF OMITTED] 40814.079
    
    [GRAPHIC] [TIFF OMITTED] 40814.080
    
    [GRAPHIC] [TIFF OMITTED] 40814.081
    
    [GRAPHIC] [TIFF OMITTED] 40814.082
    
    [GRAPHIC] [TIFF OMITTED] 40814.083
    
    [GRAPHIC] [TIFF OMITTED] 40814.084
    
    [GRAPHIC] [TIFF OMITTED] 40814.085
    
    [GRAPHIC] [TIFF OMITTED] 40814.086
    
    [GRAPHIC] [TIFF OMITTED] 40814.087
    
    [GRAPHIC] [TIFF OMITTED] 40814.088
    
    [GRAPHIC] [TIFF OMITTED] 40814.089
    
    [GRAPHIC] [TIFF OMITTED] 40814.090
    
    [GRAPHIC] [TIFF OMITTED] 40814.091
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           December 12, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 40814.092
    
    [GRAPHIC] [TIFF OMITTED] 40814.093
    
    [GRAPHIC] [TIFF OMITTED] 40814.094
    
    [GRAPHIC] [TIFF OMITTED] 40814.095
    
    [GRAPHIC] [TIFF OMITTED] 40814.096
    
    [GRAPHIC] [TIFF OMITTED] 40814.097
    
    [GRAPHIC] [TIFF OMITTED] 40814.098
    
    [GRAPHIC] [TIFF OMITTED] 40814.099
    
    [GRAPHIC] [TIFF OMITTED] 40814.100
    
    [GRAPHIC] [TIFF OMITTED] 40814.101
    
    [GRAPHIC] [TIFF OMITTED] 40814.102
    
    [GRAPHIC] [TIFF OMITTED] 40814.103
    
    [GRAPHIC] [TIFF OMITTED] 40814.104
    
    [GRAPHIC] [TIFF OMITTED] 40814.105
    
    [GRAPHIC] [TIFF OMITTED] 40814.106
    
    [GRAPHIC] [TIFF OMITTED] 40814.107
    
    [GRAPHIC] [TIFF OMITTED] 40814.108
    
    [GRAPHIC] [TIFF OMITTED] 40814.109
    
    [GRAPHIC] [TIFF OMITTED] 40814.110
    
    [GRAPHIC] [TIFF OMITTED] 40814.111
    
    [GRAPHIC] [TIFF OMITTED] 40814.112
    
    [GRAPHIC] [TIFF OMITTED] 40814.113
    
    [GRAPHIC] [TIFF OMITTED] 40814.114
    
    [GRAPHIC] [TIFF OMITTED] 40814.115
    
    [GRAPHIC] [TIFF OMITTED] 40814.116
    
    [GRAPHIC] [TIFF OMITTED] 40814.117
    
    [GRAPHIC] [TIFF OMITTED] 40814.118
    
    [GRAPHIC] [TIFF OMITTED] 40814.119
    
    [GRAPHIC] [TIFF OMITTED] 40814.120
    
    [GRAPHIC] [TIFF OMITTED] 40814.121
    
    [GRAPHIC] [TIFF OMITTED] 40814.122
    
    [GRAPHIC] [TIFF OMITTED] 40814.123
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           December 12, 2007

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. One of the things that we have been trying to get from 
the Navy is their implementation program. We have been asking the Navy 
to give us a copy as to how they are going to make their plan work, 
their implementation.
    Do you think that, before you leave, you might be able to help us 
get the Navy to give us this plan?
    Secretary Grone. The Department of Navy provided a redacted copy of 
the business plan of record to Chairman Ortiz.
    Mr. Ortiz. In March 2004, the Department indicated that it had 24% 
excess infrastructure. As a percentage of the overall enterprise, how 
much did the Department actually reduce their overall footprint with 
the BRAC 2005 process?
    Secretary Grone. The Department's recommendations were projected to 
result in a Plant Replacement Value (PRV) reduction of 5.1 percent. 
After the Commission's independent review produced a revised number of 
recommendations, the Department's PRV projection was reduced to 3.4 
percent. The Department's overall PRV is impacted by a variety of 
factors such as demolition/disposal, non-BRAC construction, and Grow 
the Force initiatives that would have to be considered in reviewing the 
post-BRAC end state.
    Mr. Ortiz. Has the Department made a determination as to funding 
primary and secondary education requirements for communities impacted 
by BRAC recommendations?
    Secretary Grone. The Department continues to rely upon state and 
local government to fund local hard (construction) and soft (overhead 
and maintenance) education requirements. In some instances, DoD 
supplemental impact assistance, in addition to impact aid, has assisted 
with some of the soft expenses of educating military dependent 
children.
    We also recognize that some affected communities, in conjunction 
with their states, lack sufficient resources to fully respond to the 
education requirements that arise with this growth. Through the 
President's Economic Adjustment Committee, we are collaborating with 
the Department of Education to undertake federal team visits to some 
growth locations with student impacts to better understand local 
capacities and tailor responsive Federal assistance.
    At the same time, DoD is working with the Department of Education 
to assess the viability of forward funding Impact Aid vice the current 
practice of funding based on the student count from the previous school 
year with funds normally arriving in Winter/Spring of the following 
year. As pointed out at the hearing, this is especially problematic for 
school districts experiencing significant growth in one year.
    Local education is the jurisdiction of the State and local 
government; however, the Department of Defense (DoD) has a vested 
interest in quality education for military families. The Department of 
Defense Education Activity (DoDEA), which has provided military 
students with an exemplary education for over 60 years, received 
expanded authority in the John Warner National Defense Authorization 
Act for Fiscal Year 2007 to create educational partnerships with local 
education agencies who educate military students. Launched on October 
1, 2007, the DoDEA Educational Partnership Directorate (EPD) has begun 
to: (1) develop partnerships with schools and districts that focus on 
educational best practices, seamless transitions, and deployment 
support services, (2) facilitate agreements at the local and state 
levels to positively impact military children's education and 
wellbeing, and (3) extend opportunities for student learning via online 
and other research-based models.
    Moreover, the Department is using its influence to help build 
productive relationships with States and Federal Agencies to create 
policies that help Local Education Agencies (LEA) expand and construct 
schools and help communities provide educational opportunities that 
help meet the needs of military families.
    An important, recent outgrowth of this DoD effort has been the 
Interstate Compact on Educational Opportunity for Military Children, 
which addresses the educational transition issues affecting military 
dependent students because of frequent moves and deployments. While 
properly deferring to state prerogatives in education policy, the 
Interstate Compact transcends state and local boundaries to create 
uniform standards of practice for identified transition issues like the 
transfer of records, course placement, graduation requirements, 
redundant or missed testing, entrance-age variations, etc. Based on 
recent research and best practices, the Office of the Under Secretary 
for Personnel and Readiness in cooperation with the Council of State 
Governments (CSG) developed the Interstate Compact. It becomes 
effective once ten states sign it into law. DoD is currently seeking 
legislation for it in 54 states and US territories. In 2008, 25 states 
will review it, of which at least 10 have already filed bills to enact 
it.
    Mr. Ortiz. Is the Department's 78% execution rate of BRAC 2005 
funds in fiscal year 2007 indicative of the difficulty that should be 
expected in implementing the recommendations of the BRAC commission? Is 
the Department expecting similar difficulties in executing the fiscal 
year 2008 increment of funding?
    Secretary Grone. Seventy-eight percent execution on a $5.6B 
appropriation received nearly seven months after the fiscal year 
started is an exceptional achievement. To the extent the Department 
receives its funding in a timely manner, we will be able to execute the 
resources consistent with our plans.
    Mr. Ortiz. With greater transparency, the BRAC implementation costs 
have increased. In retrospect should the BRAC process have built-in 
additional methods to increase cost accuracy?
    Secretary Grone. The BRAC statute provides that we treat all bases 
equally in a limited amount of time. Cost increases are not a question 
of transparency; rather the nature of the analysis. This precludes us 
from doing more detailed planning and conducting the site surveys that 
are necessary to support detailed budget quality submissions. As was 
done in the past, the requirements for equal treatment and limited time 
for analysis make it necessary for the Department to rely on the use of 
cost estimating tools such as the Cost of Base Realignment Actions 
(COBRA) model.
    The COBRA model is a tool for comparative, consistent, and 
auditable analyses of a variety of options using standard factors 
applicable during the timeframe within which the BRAC analysis was 
conducted. As such, COBRA was not designed to produce budget quality 
estimates. For instance, in arriving at its comparative assessments, 
COBRA displays financial information in constant dollars which are 
unaffected by inflation. Revised cost and savings estimates, supported 
by the detailed planning and site surveys necessary to support budget 
submissions, were not conducted during the BRAC process.
    A recent Government Accountability Office (GAO) report supports the 
utility of COBRA. In this report, the GAO stated: ``we have recognized 
in the past and continue to believe that COBRA is a reasonably 
effective tool for the purpose for which it was designed--to aid in 
BRAC decision making--and that the BRAC Commission's COBRA-generated 
estimates are the only reasonable baseline to use to identify BRAC cost 
and savings changes since the recommendations became effective.''
    Mr. Ortiz. The Department is still trying to finalize the 
implementation details of several recommendations including joint 
basing. Why has the Department not finished determining how to 
implement all the BRAC recommendations? What is the monetary cost of 
delaying implementation of these remaining recommendations?
    Secretary Grone. With over 200 recommendations, there are only a 
handful that have yet to be finalized. Those include three Chemical 
Demilitarization recommendations that are tied to treaty obligations, 
and 12 Joint Basing recommendations that are tied to policy decisions 
now being made (the Department is developing guidance to establish a 
comprehensive framework for joint basing implementation). There are a 
few others pending that involve personnel transfers and siting issues 
that the Department continues to work through. We will realize savings 
even though we are still in the planning stages with these 
recommendations.
    (Since the time of the hearing, the Deputy Secretary of Defense 
issued guidance on Joint Basing on January 22, 2008.)
    Mr. Ortiz. According to GAO and DOD the 2005 BRAC round is supposed 
to bring about military transformation and increased jointness. Are you 
seeing these results?
    Secretary Grone. Yes, BRAC is a catalyst for transformation and 
will increase jointness. The Department is on the glide path to achieve 
what the recommendations were set out to do. A few examples include:

    <all>  Creation of a Defense Media Agency at Fort Meade supporting 
DODs public affairs mission.
    <all>  Establishment of joint medical operations in the San Antonio 
and National Capitol Region.
    <all>  Realignment of the Defense Finance and Accounting Service 
(DFAS). This reduces total facilities from 30 to 10 sites, accomplishes 
a major facilities reduction and business line realignment, and 
transforms the current DFAS organization into an optimum configuration, 
to include strategic redundancy to minimize risk associated with man-
made or natural disasters/challenges.
    Mr. Ortiz. Is BRAC an appropriate vehicle for military 
transformation?
    Secretary Grone. Absolutely; absent BRAC authorization, existing 
statutes preclude us from making significant changes to the base 
structure. Any significant force restructuring requires changes to the 
supporting infrastructure and without BRAC this is not possible. The 
BRAC process focuses our functional personnel (Training/Operations/
Medical, etc.) to objectively and systematically look at their force 
structure and compare it to the base structure.
    Mr. Ortiz. The Department non-appropriated fund mangers have 
identified 42 non-appropriated fund construction projects costing over 
$737 million that are validated as restationing or BRAC requirements 
that are currently unfunded. Of that list, 31 projects at a cost of 
$496.8 million are related to Army installations. How is DOD planning 
to address restationing and BRAC implications of these projects? Will 
appropriated funds be found to support this construction so that 
service member non-appropriated funding can be reserved for routine 
construction and renovation?
    Secretary Grone. We have a structured process for reviewing 
projects, to include their source of funding. Every project that has 
been validated as a BRAC requirement has already been or will be funded 
through BRAC. Those that are not validated BRAC requirements will 
compete for funding in the normal budget process.
    Mr. Ortiz. Are you aware of the letter from Senator Inouye 
regarding the need to use appropriated funding to support commissary 
construction at restationing and BRAC impacted installations? 
Apparently, the letter received a great deal of attention and resulted 
in the reconsideration of plans to use non-appropriated funding to 
support commissary construction projects at Fort Riley and Fort Bliss. 
What is the current status of the construction projects at Fort Riley 
and Fort Bliss? What affect has the letter from Senator Inouye had on 
the DOD attitude regarding the use of non-appropriated funds to support 
restationing and BRAC related construction projects?
    Secretary Grone. Every project that has been validated as a BRAC 
requirement has already been or will be funded through BRAC. The Ft. 
Riley and Ft. Bliss commissary construction projects are being reviewed 
to determine their eligibility in whole or in part for BRAC funding or 
for normal MilCon.
    Mr. Ortiz. Is the BRAC recommendation to close Fort Monmouth 
conditional?
    Secretary Grone. The closure of Fort Monmouth is legally required 
and unconditional. This is not, as some would contend, a ``conditional 
closure'' that may not occur because a report cannot be written but of 
how the move will occur without disruption to support of the Global War 
on Terrorism and other critical contingency operations. Fort Monmouth 
can be closed, and its functions relocated, without jeopardizing 
support for warfighters in the field--the BRAC Commission agreed with 
that conclusion.
    Mr. Ortiz. Is the report to Congress required?
    Secretary Grone. The BRAC Act requires the Department to close and 
realign all installation so recommended by the Commission. The BRAC Act 
does not require DoD to submit reports recommended by the BRAC 
Commission, or follow any other Commission recommendations that are not 
either base closures or realignments. It is therefore the Department's 
position, as reflected in its filings in the United States District 
Court for the District of New Jersey, that there is no legal 
requirement, in the BRAC Act or elsewhere, that DoD submit the report 
to Congress that the BRAC Commission recommended, although DoD 
nevertheless intends to submit such a report by the end of this year.
    (Since the time of the hearing, the report was provided to the 
Committees of Jurisdiction on December, 28, 2007.)
    Mr. Ortiz. Where did the certified data that supported the closure 
of Fort Monmouth originate?
    Secretary Grone. The certified data was provided by Fort Monmouth 
and the Department of the Army.
    Mr. Ortiz. Did the Department provide all the certified data to the 
Commission on the Fort Monmouth recommendation?
    Secretary Grone. All certified data, classified or unclassified, 
for all recommendations was provided to the Commission and Congress.
    Mr. Ortiz. There have been complaints that DoD suppressed internal 
papers/data from the BRAC Commission. Specifically, that there was 
information in the Technical JCSG report that was withheld. Was 
information suppressed in the Technical JCSG final report submitted to 
the Commission?
    Secretary Grone. All certified data, classified or unclassified, 
was provided to the Commission. As the Department was finalizing 
release of the BRAC 2005 recommendations, there was concern that the 
vast amount of data collected and arrayed could provide a national 
security threat when aggregated in a central or easy to access manner 
(e.g., website, report).
    The Technical Joint Cross-Service Group (TJCSG) Chair, Dr. Ron 
Sega, pulled back his report to the Secretary (the longer 496 page 
document dated 10 May 2005) and reviewed it in light of the security 
concerns. He determined that the array and summary of the capacity 
analysis (Appendix A) conducted by his group could expose sensitive 
information to the public. He, therefore, directed his group to revise 
the appendix in a manner that would relate the results of the capacity 
analysis while protecting the sensitive information. The revised 
appendix was incorporated into Volume XII of the DoDs final report and 
submitted to the Secretary of Defense on 19 May 2005. While it is 
unfortunate that the transmittal memo date was not modified to reflect 
the actual date transmitted to the Secretary, the report was accurately 
dated to reflect when it was submitted into the DoD security review 
process.
    It is important to note that the data Dr. Sega's group used during 
the course of the capacity analysis was never altered nor withheld from 
the Commission. Following a thorough security review of the capacity 
data, all of the capacity data that the Department used, including that 
generated for the TJCSG, was deemed unclassified. As a consequence, the 
capacity data in a disaggregated form was made available to the public 
on both DOD's and the BRAC Commission's website in June 2005, where it 
resides today.
    Mr. Ortiz. Was the Commission bound by statutory data certification 
requirements?
    Secretary Grone. The Commission was not bound by the statutory data 
certification requirement. It could, and did, ask for anything 
additional it deemed necessary--its representatives visited the 
installation and it heard testimony from community witnesses. Further, 
the local community took advantage of its ability to supply the 
Commission with data directly.
    The Commission's record demonstrates it had access to a variety of 
data when it made its closure recommendation to include information on 
potential cost increases (Reference: Commission hearings of May 18, 
2005; July 8, 2005; and, August 24, 2005 as well as material on the 
Commission website drawn from visits to Ft. Monmouth). Attached are 
documents obtained from the Commission website.
    The Commission carefully scrutinized the recommendation to close 
Fort Monmouth and the majority supported its closure. It is important 
to note that the Commission modified this recommendation by retaining 
night vision at Ft. Belvoir (vice relocating to Aberdeen). This is 
clear evidence that the Commission could have changed this 
recommendation and reverse the closure recommendation if it saw fit--
and it did not.
    The Commission voted 7 (yes), 1 (no), and 1 (abstention) to close 
Fort Monmouth.

    <all> James Bilbray--No vote
    <all> ADM Harold Gehman--abstained

    Mr. Ortiz. With the substantial cost increase for implementation, 
does the action to close Fort Monmouth still save?
    Secretary Grone. Yes, implementation will save over $154M annually 
beginning in FY 2012, reducing infrastructure overhead, even with the 
cost growth. The payback period for this recommendation, using the Cost 
of Base Realignment Actions (COBRA) model's methodology, is ten years. 
While this is five years longer than the original COBRA estimate, the 
implementation costs will still be recouped in a reasonable amount of 
time and, more importantly a significant benefit will be achieved by 
consolidating the C4ISR (command, control communications, intelligence, 
surveillance, reconnaissance) community, and research and test elements 
at one installation.
    Mr. Ortiz. Was the community and/or opponents to the closure of 
Fort Monmouth provided an opportunity to communicate with the 
Commission?
    Secretary Grone. The Commission could, and did, ask for anything 
additional it deemed necessary--its representatives visited the 
installation and it heard testimony from community witnesses and 
received information from personnel at Fort Monmouth. Further, the 
local community took advantage of its ability to supply the Commission 
with data directly, both at hearings and in other correspondence. The 
BRAC Commission library has documents that clearly indicate the 
community provided input on all of the topics raised (e.g. loss of 
intellectual capital, costs, and disruption to mission).
    Mr. Ortiz. Why is the Department closing Fort Monmouth and moving 
to Aberdeen Proving Ground?
    Secretary Grone. Ft. Monmouth is an acquisition and logistics 
installation with little capacity for other purposes. The Army ranked 
it 50th of 97 installations in military value.
    Moving research, development and acquisition capabilities from Ft. 
Monmouth and other locations (Ft. Knox and Redstone) allows the Army to 
concentrate these capabilities at Ft. Belvoir and Aberdeen as part of 
its transformational goal of achieving Network Centric Warfare. This 
goal requires access to test and evaluation ranges which do not exist 
at Ft. Monmouth. Additionally, new construction at Aberdeen allows 
physical and organizational reorganization that is not possible at Fort 
Monmouth.
    Moving the United States Military Academy (USMA) prep school 
currently located at Ft. Monmouth to West Point increases efficiency 
and enhances coordination in this key officer corps-training program.
    Moving the logistics functions to Columbus, OH and Aberdeen, MD is 
an important part of the larger BRAC effort to increase efficiency by 
consolidating procurement management.
    Implementation will save over $154M annually beginning in FY 2012 
even with the cost growth, by reducing infrastructure overhead.
    Mr. Ortiz. The Technical JCSG ranked Monmouth higher than Aberdeen 
for Information System Development and Acquisition (Monmouth ranked #2 
and Aberdeen #41) and Research, (3 for Monmouth vice 11 for Aberdeen). 
If that is the case, why didn't the functions get moved from Aberdeen 
to Monmouth?
    Secretary Grone. The Army, in consultation with the Technical Joint 
Cross-Service Group (TJCSG), examined a number of factors to make its 
decision including the raw military value scores cited in your 
question. Together they believed that the best decision, using their 
military judgment, was to consolidate functions at Aberdeen which has 
access to test ranges and could accommodate the consolidation of many 
activities. The consolidation specifically enables the Army to 
establish a Land Command, Control, Communications, Computers, 
Intelligence, Surveillance, and Reconnaissance (C4ISR). Life Cycle 
Management Command at an installation that has access to ranges. This 
decision comports with the Technical JCSG strategic goal of 
establishing integrated C4ISR centers.
    As stated in the Secretary of Defense justification ``The closure 
of Fort Monmouth allows the Army to pursue several transformational and 
BRAC objectives. These include consolidating training to enhance 
coordination, doctrine development, training effectiveness, and improve 
operational and functional efficiencies, and consolidating Research, 
Development, and Acquisition (RDA) and Test and Evaluation (T&E) 
functions on fewer installations. Retain DoD installations with the 
most flexible capability to accept new missions. Consolidate or 
collocate common business functions with other agencies to provide 
better level of services at a reduced cost.''
    Mr. Ortiz. Does the Department record reflect any disagreement with 
the decision to close Fort Monmouth?
    Secretary Grone. As was the case with all recommendations developed 
by the Department, there were a series of analyses, reviews and 
decisions that resulted in the recommendation to close Ft. Monmouth. In 
the decision meetings, there is no record of senior officials 
disagreeing with the decision. That said, there are certainly 
individual DoD employees who were privy to DoD's recommendations that 
were free to object to any decision with which they disagreed. These 
opinions were primarily expressed verbally. DoD's recommendation 
development process encouraged open debate and discussion of 
alternatives. This is evidenced by the approximately 1200 closure and 
realignment scenarios that were evaluated by the Military Departments 
and the seven joint cross-service groups during the deliberative 
process.
    On occasion individuals did put their concerns in writing. For 
example, during the course of its work, the Technical Joint Cross-
Service Group (TJCSG) staff often used issue papers to communicate 
personal ideas, views, etc., regarding the TJCSG process. Five such 
papers were authored by Mr. Don DeYoung. These were not deliberated on 
by the TJCSG principals. Since these documents were not a part of the 
TJCSG deliberative record, they were not submitted to the Commission. 
In response to a request from Senator Warner, the Deputy Secretary of 
Defense provided these five papers to Senator Warner on 25 July 2005. 
It is unclear if the BRAC Commission knew these papers existed, but if 
they needed and requested them for their review, they would have been 
provided through the established Clearinghouse process.
    Mr. Ortiz. Has the Department captured the impact on ``intellectual 
capital'' when personnel with special skills choose not to relocate as 
part of a BRAC recommendation?
    Secretary Grone. Implementation of BRAC recommendations allows the 
Department to integrate relocated personnel to produce synergies and 
obtain new capabilities that actually enhance intellectual capital.
    While changes in installation configuration produce turmoil, the 
Department, no different than industry, must be allowed to balance the 
impact on intellectual capital with the benefits achieved through 
reconfiguring its infrastructure.
    The Department has six years to implement BRAC recommendations, 
providing ample time for managers to mitigate the impact of personnel 
turmoil.
    The Department deals routinely with personnel changeover and will 
have programs in place to mitigate personnel impacts during 
implementation. Relevant examples from prior BRAC rounds include the 
movement of the Naval Air Systems Command from Crystal City, VA to 
southern Maryland and the relocation of the Space and Warfare Systems 
Command from Crystal City, VA, to San Diego, CA.
    Mr. Ortiz. What is DoD's policy for funding QOL facilities as part 
of BRAC? Do QOL facility availability need to coincide with the six 
year deadline?
    Secretary Grone. If the projects are required to implement the 
recommendation they are funded as part of the BRAC effort. For example, 
the construction necessary (and funded) to implement Commission 
Recommendation #10, Operational Army, includes two Child Development 
Centers, a Physical Fitness center, and a Youth Activity Center. Often 
times these types of projects fall into a gray area because they 
accommodate BRAC and non-BRAC requirements. Additionally, military 
construction is not the sole means for addressing BRAC and non-BRAC 
requirements where the private sector is a viable option for some 
requirements. For example, child care needs to support the relocation/
co-location of Investigative Agencies at Quantico will rely on the 
private sector.
    Mr. Ortiz. Have you responded to the recent GAO report on Cost and 
Savings? If so, would you please characterize them?
    Secretary Grone. Yes, the response was as follows:
    ``The report accurately characterizes the Department's viewpoint 
that, even though the BRAC 2005 round is costing more and saving less 
than originally estimated in 2005, implementation of these 
recommendations are expected to enhance defense capabilities as the 
Department reshapes and realigns forces to meet future national 
security needs.''
    ``Regarding the increase in one-time costs between the original 
Cost of Base Realignment Actions (COBRA): FY05 constant dollar 
estimates and the estimates reflected in the FY 2008 President's 
Budget, the Department agrees that the majority of that increase is 
associated with funding Military Construction (MilCon) projects. With 
approximately 70 percent of the BRAC 2005 FY08 President's Budget 
allocated to facilitize new capabilities, it is understandable that 
most of the increase would be associated with MilCon.''
    ``The reasons for such increases, beyond inflation, include 
management decisions to pursue new construction versus use of renovated 
space, use of site specific survey assessments, and to accommodate 
changes in unit sizes, functions or responsibilities by increasing 
facilities, changing configurations or building additional facilities. 
In other cases, business decisions were made to enhance quality of life 
and training infrastructure at installations receiving missions beyond 
those initially estimated by COBRA. Specifically, the Army added 
approximately $2 billion to improve training ranges, consolidate 
reserve centers, for child care and other quality of life facilities 
and in support of medical facilities.''
    ``The Department concurs with the GAO assessment that the original 
COBRA model estimates, while valuable as a comparative tool, do not 
provide estimates that the Department is expected to use in formulating 
the BRAC budget against which Congress will appropriate funds. 
Specifically, the Department's experience is such that the combination 
of actual on-site surveys and better definition of requirements 
contributed to MilCon cost increases as the more detailed 
implementation planning process progressed.''
    ``Regarding the treatment of annual recurring savings, the 
Department considers military personnel reductions attributable to a 
BRAC recommendation as savings that are as real as savings generated 
through end-strength reductions. While the Department may not reduce 
overall end-strength, the reductions in military personnel for each 
recommendation at a specific location are real. As is the case of 
monetary savings, personnel reductions allow the Department to re-apply 
these military personnel to support new capabilities and to improve 
operational efficiencies. In this context, savings from military 
personnel reductions are real savings. However, the Department 
acknowledges that these savings may not be available to fund other 
Defense priorities because they have already been spent to fund 
military personnel priorities.''
    ``Finally, in spite of the fact that net annual recurring savings 
(ARS) have decreased from $4.2 billion to $4.0 billion, as indicated in 
the report, the Department emphasizes that the ARS still represents a 
significant benefit that will result from successful implementation of 
these recommendations.''
    Mr. Ortiz. DOD's estimates of the cost to implement its BRAC 
recommendations have increased by $10 billion to date. What is GAO's 
assessment as to why estimates increased? In what areas might costs 
increase in the future?
    Mr. Lepore. Our analysis shows that DOD's estimates of the cost to 
implement the BRAC recommendations have increased from the 2005 Defense 
Base Closure and Realignment Commission's (the Commission) estimates in 
2005 \1\ to those in DOD's fiscal year 2008 BRAC budget request for the 
following four reasons.
---------------------------------------------------------------------------
    \1\ GAO, Military Base Realignments and Closures: Estimated Costs 
Have Increased and Estimated Savings Have Decreased, GAO-08-341T 
(Washington, D.C.: Dec. 12, 2007).

    <bullet>  Military construction: Estimated military construction 
costs accounted for about 64 percent, or about $6.5 billion, of the 
increase in expected one-time costs. Specifically, the Commission 
estimated that to implement the BRAC recommendations, military 
construction costs would be about $13 billion, whereas DOD's estimates 
for military construction presented in the fiscal year 2008 budget 
submission, without inflation, were about $20 billion. Military 
construction costs increased because of changes in assumptions or plans 
between when the original recommendations were developed and approved 
in 2005 and when DOD submitted its fiscal year 2008 budget 
justification materials. For example, the military construction cost 
for the recommendation to close Fort Monmouth, New Jersey, increased by 
more than $550 million due to the decision to build new facilities 
rather than renovate existing facilities in some cases at Aberdeen 
Proving Ground, Maryland, and build new facilities rather than share 
existing facilities at West Point, New York, to accommodate the U.S. 
Army Military Academy Preparatory School. Additionally, the military 
construction cost for the recommendation to consolidate the National 
Geospatial-Intelligence Agency at Fort Belvoir, Virginia, has increased 
by nearly $350 million, in part because the agency identified the need 
for additional supporting facilities, such as a technology center and 
---------------------------------------------------------------------------
additional warehouse space.

    <bullet>  Inflation: Inflation accounted for about 25 percent, or 
about $2.6 billion, of the increase in expected one-time costs. This 
occurred because the Commission presented its estimates using constant 
fiscal year 2005 dollars, which does not include the effects of 
projected inflation, whereas DOD's budgeted estimates were presented in 
current (inflated) dollars.

    <bullet>  Environmental clean-up: Environmental clean-up added 
about 6 percent, or about $590 million, in expected one-time costs. The 
Commission's estimates did not include projected environmental clean-up 
costs for BRAC-affected bases, which is a consistent practice with past 
BRAC rounds because DOD is required to perform needed environmental 
clean-up on its property whether a base is closed, realigned, or 
remains open.

    <bullet>  Other costs: Finally, other projected expenses such as 
operations and maintenance accounted for about 5 percent, or about $500 
million, to the increase in expected one-time costs. Because the 
Commission's data do not include some specific budget categories that 
are used in the DOD BRAC budget, we could not make direct comparisons 
and precisely identify all estimated cost and savings changes.

    Based on our work to date, we have identified three areas where 
expected costs may continue to evolve. First, as we reported in our 
December 2007 report,\2\ the details for implementing several key 
recommendations had not been decided when DOD submitted its fiscal year 
2008 BRAC budget request. For example, expected costs to realign Walter 
Reed Army Medical Center could increase if the time frame to complete 
the implementation of the recommendation is accelerated, as recommended 
by the Office of the Secretary of Defense's independent panel to review 
current rehabilitative care at Walter Reed. Additionally, expected 
costs to relocate miscellaneous Office of the Secretary of Defense, 
defense agency, and field activity leased locations to Fort Belvoir are 
likely to change--either increase or decrease--as the Army is 
considering alternative sites in Northern Virginia for about 6,000 
personnel.
---------------------------------------------------------------------------
    \2\ GAO, Military Base Realignments and Closures: Cost Estimates 
Have Increased and Are Likely to Continue to Evolve, GAO-08-159 
(Washington, D.C.: Dec. 11, 2007).
---------------------------------------------------------------------------
    Secondly, if the Army's newly implemented efforts to transform and 
streamline its process to manage and contract for military construction 
do not produce the anticipated savings, military construction costs 
could increase because a majority of the Army's projects already 
include a 15 percent reduction of cost into its cost estimates. The 
Army is expected to incur almost 60 percent ($12 billion) of the 
estimated BRAC construction costs. Finally, environmental clean-up 
costs are preliminary and could increase. However, as bases where 
property is to be disposed undergo more complete and in-depth 
environmental assessments, a clearer picture of environmental clean-up 
costs will likely emerge, as has happened in prior BRAC rounds. 
Moreover, environmental clean-up costs can be incurred after the 
implementation of BRAC recommendations is complete in 2011 and costs 
after 2011 are not presented in the BRAC budget.
    Mr. Ortiz. BRAC is affecting many communities across the nation and 
DOD has the Office of Economic Adjustment to assist these communities 
financially in the form of planning grants. Are these costs reflected 
in DOD's current $31 billion cost estimate?
    Mr. Lepore. DOD's cost estimates to implement the 2005 BRAC round 
do not include the Office of Economic Adjustment grants provided to 
communities affected by BRAC actions. While these costs are incurred by 
the federal government, they are not funded through the BRAC account.
    We are currently undertaking work directed by the House Committee 
on Appropriations in the report accompanying the 2007 defense 
appropriations bill \3\ looking at the combined effect of various 
rebasing initiatives, including BRAC, overseas rebasing, and 
modularity, on the communities surrounding bases that are receiving a 
large number of personnel. Specifically, we are looking at the economic 
impact--both positive and negative--on communities surrounding growth 
bases, the challenges they face in providing for additional 
infrastructure to help support the military's needs, and the extent to 
which federal agencies, including agencies outside DOD, have assisted 
communities in planning for and financing this growth. We expect to 
issue the report in the spring of 2008.
---------------------------------------------------------------------------
    \3\ H.R. Rep. No. 109-504, at 46 (2006).
---------------------------------------------------------------------------
    Mr. Ortiz. In your statement you mentioned that the 2005 BRAC round 
is the biggest and most complex BRAC round to date. Based on the size 
of this BRAC round, should Congress be concerned about DOD being able 
to complete all of these actions within the 6-year statutory time 
frame?
    Mr. Lepore. While DOD has more than 3 years remaining to implement 
the 2005 BRAC recommendations, we raised two challenges in our December 
2007 report that increase the risk that DOD might not meet the 
statutory deadline for implementing recommendations by 2011.\4\ First, 
we reported that DOD faces challenges in synchronizing BRAC actions, 
including synchronizing personnel movements with construction. 
Additionally, part of this synchronization challenge is that some 
installations are affected by multiple recommendations. For example, 
Fort Belvoir, Virginia, is affected by 14 separate recommendations and 
27 installations are affected by 6 or more recommendations. Moreover, 
some recommendations are dependent on the completion of others. For 
example, DOD cannot begin renovating facilities at Aberdeen Proving 
Ground, Maryland, to accommodate personnel from the closure of Fort 
Monmouth, New Jersey, until the training activity currently occupying 
the Aberdeen facilities relocates to a new facility being built for 
them at Fort Lee, Virginia, which is expected to be completed in 2009. 
At that point, the Army can begin to renovate existing facilities at 
Aberdeen Proving Ground for the move of organizations from Fort 
Monmouth.
---------------------------------------------------------------------------
    \4\ GAO-08-159.
---------------------------------------------------------------------------
    Second, we reported that DOD faces challenges related to 
coordination among multiple services and agencies--43 percent of the 
240 business plans involved formal coordination between at least 2 
services or agencies. For example, there are several potential issues 
between the Defense Logistics Agency and the military services that may 
affect the planned implementation of the recommendation to realign 
supply, storage, and distribution management and, while baseline 
agreements have been reached on the transfer of supply-related 
personnel positions and related inventories to the Defense Logistics 
Agency, some aspects of the implementation plans, such as performance-
based agreements that establish responsibilities and metrics to measure 
performance, are incomplete. As a result of these coordination 
challenges, the planning process has lengthened beyond what DOD 
initially expected, which could result in delayed implementation of 
certain recommendations.
    Mr. Ortiz. In your statement you provided several examples where 
costs, particularly military construction costs, have increased 
significantly. Do these recommendations still achieve savings?
    Mr. Lepore. Six recommendations make up one-half of the expected 
military construction cost increases. Our analysis of DOD's fiscal year 
2008 BRAC budget data indicates that three of these recommendations 
will still achieve savings within 20 years and three will not achieve 
savings within 20 years. This data may change with DOD's submission of 
its fiscal year 2009 BRAC budget.

    <bullet>  The estimated military construction cost for the 
recommendation to relocate the Army's armor school from Fort Knox, 
Kentucky, to Fort Benning, Georgia, to support the creation of a 
maneuver school has increased by nearly $670 million, or 128 percent. 
DOD estimates this recommendation will save $133 million per year after 
implementation, for a 20-year net present value savings of $63 
million.\5\ The Commission estimated 20-year net present value savings 
of $948 million.
---------------------------------------------------------------------------
    \5\ The 20-year net present value is a financial calculation that 
accounts for the time value of money by determining the present value 
of future savings minus up-front investment costs over a specified 
period of time. Determining net present value is important because it 
illustrates both the up-front investment costs and long-term savings in 
a single amount. In the context of BRAC implementation, net present 
value is calculated for a 20-year period from 2006 through 2025.

    <bullet>  The estimated military construction cost for the 
recommendation to close Fort Monmouth, New Jersey has increased by more 
than $550 million, or 125 percent. DOD estimates this recommendation 
will save $154 million per year after implementation, for a 20-year net 
present value savings of $381 million. The Commission estimated 20-year 
---------------------------------------------------------------------------
net present value savings of $1.1 billion.

    <bullet>  The estimated military construction cost for the 
recommendation to realign the Walter Reed Army Medical Center in the 
District of Columbia and relocate medical care functions to the 
National Naval Medical Center, Bethesda, Maryland, and Fort Belvoir, 
Virginia, has increased by almost $440 million, or 61 percent. DOD 
estimates this recommendation will save $172 million per year after 
implementation, for a 20-year net present value savings of $251 
million. The Commission estimated 20-year net present value savings of 
$831 million.

    <bullet>  The estimated military construction cost for the 
recommendation to move various DOD activities from leased space to Fort 
Belvoir and Fort Lee, Virginia has increased by more than $500 million, 
or 124 percent. DOD estimates this recommendation will save $72 million 
per year after implementation, for a 20-year net present value cost of 
$359 million. The Commission estimated 20-year net present value 
savings of $256 million.

    <bullet>  The estimated military construction cost for the 
recommendation to consolidate medical enlisted training and establish 
the San Antonio Regional Medical Center at Fort Sam Houston, Texas, has 
increased by almost $540 million, or 71 percent. DOD estimates this 
recommendation will save $91 million per year after implementation, for 
a 20-year net present value cost of $468 million. The Commission 
estimated 20-year net present value savings of $476 million.

    <bullet>  The estimated military construction cost for the 
recommendation to consolidate the National Geospatial-Intelligence 
Agency at Fort Belvoir, Virginia, has increased by nearly $350 million, 
or 37 percent. DOD estimates this recommendation will save $35 million 
per year after implementation, for a 20-year net present value cost of 
$1.4 billion. The Commission estimated 20-year net present value 
savings of $535 million.

    Mr. Ortiz. In your assessment, has the Department been able to 
provide accurate forecasts to gaining installations that coincide with 
community infrastructure?
    Mr. Lepore. In September 2007, we reported that expected personnel 
movement numbers differed between Army headquarters and the bases where 
these people would move at several locations, thus affecting whether 
adequate infrastructure would be in place when personnel arrive.\6\ As 
of March 2007, the nine bases we visited were expecting different 
numbers of personnel arrivals and departures than those generated by 
Army headquarters. While these nine installations are not necessarily 
representative of all Army growth locations, they could nonetheless 
lead to unnecessary infrastructure improvements on some bases or 
inadequate improvements on others and under- or overbuilding of 
community-funded infrastructure off of the installation by surrounding 
communities.
---------------------------------------------------------------------------
    \6\ GA0, Defense Infrastructure: Challenges Increase Risks for 
Providing Timely Infrastructure Support for Army Installations 
Expecting Substantial Personnel Growth, GAO-07-1007 (Washington, D.C.: 
Sept. 13, 2007).
---------------------------------------------------------------------------
    We are continuing to evaluate this issue in our ongoing work 
reviewing the effect of various rebasing initiatives, including BRAC, 
overseas rebasing, and modularity on the communities surrounding bases 
that are receiving a large number of personnel. We expect to issue our 
report in the spring of 2008.
    Mr. Ortiz. With regards to GAO's observations on the Department's 
commitment to using appropriated funds to support the construction of 
facilities for non-appropriated fund activities at sites impacted by 
restationing and BRAC, what are the DOD policies regarding the use of 
appropriated funds to support non-appropriated fund construction and 
has the Department demonstrated a commitment to those policies? Has the 
Department of Defense adequately accounted for the facility 
requirements of non-appropriated fund activities at installations 
impacted by restationing and BRAC decisions?
    Mr. Lepore. We have not specifically reviewed DOD's use of 
appropriated funds to support non-appropriated fund construction on a 
widespread basis. However, in September 2007, we reported that because 
of expected budgetary pressures and competing priorities, and to limit 
short-term construction costs, the Army plans to delay construction of 
certain quality of life facilities at some gaining installations.\7\ 
Quality of life facilities include child development and youth centers, 
physical fitness centers, chapels, on-post shopping and convenience 
areas, and athletic fields. BRAC recommendations do not require 
specific construction projects, and thus the Army has chosen to defer 
some quality of life facilities beyond 2011 at various BRAC locations.
---------------------------------------------------------------------------
    \7\ GAO-07-1007.
---------------------------------------------------------------------------
    Mr. Ortiz. How is the local community planning on reuse?
    Mr. Ferlise. I am not closely involved with the re-use issue but I 
know the Fort Monmouth Economic Revitalization Planning Authority has 
been established and regular meetings and planning is on going. 
Additionally I would recommend you contact John G. Donnelly, Policy 
Advisor, Office of the Governor, State of New Jersey, P.O. Box 001, 
Trenton, NJ 08625-0001.
    Mr. Ortiz. How effective is the Department's relocation assistance 
in helping impacted employees?
    Mr. Ferlise. I have been retired for one year so do not have 
current knowledge which would permit me to comment on this question.
    Mr. Ortiz. There have been some reports that many employees do not 
intend to relocate to the gaining installations. Can you characterize 
the impact on the mission if sufficient employees do not relocate?
    Mr. Ferlise. If adequate numbers of employees do not relocate to 
Aberdeen Proving Ground the impact will be catastrophic on warfighters 
and the Army. The Commission heard testimony from Major General 
(Retired) William Russ, the former Commander of CECOM as well as 
Commander of the Army Signal Command, where he had responsibility for 
every signal brigade in the Army, with 17,000 soldiers and civilians 
world wide. He stated unequivocally that he was certain that a re-
location of the magnitude contemplated in this case, would have a 
direct, immediate and catastrophic impact upon the mission performed by 
Team C4ISR and the Warfighter. He was joined by 10 other retired 
General Officers in a letter to the Commission in which they pointed 
out that the proposed relocation to an area devoid of any real 
connection to the C4ISR mission was a destructive proposal. I need to 
take a minute to explain the C4ISR mission that Fort Monmouth is 
engaged in before answering further. In his initial testimony before 
the Commission, former Secretary of the Army Harvey stated that the 
activities at Fort Monmouth are strictly ``R&D'' and ``Strategic'', and 
that moving them and sustaining a loss of personnel of 74% would not 
have immediate impact on the Warfighter. He was absolutely mistaken on 
this point, as more than 50% of the Army's National Stock Numbered 
items (60,000) currently in the field are acquired, managed and 
sustained through Fort Monmouth. Fort Monmouth is inextricably engaged 
in supporting the deployed forces in Iraq and Afghanistan and around 
the world and performs critical functions in equipping divisions and 
brigades preparing to re-deploy and modularize. Fort Monmouth has been 
on a war footing every day since 9/11, with 24/7 operations. The impact 
of what CECOM does to develop, acquire, field and sustain critically 
needed systems to enhance operational effectiveness and maximize the 
safety of our Warfighters has immediate, real time consequences RIGHT 
NOW, while they are in the field. These systems include Force XXI 
Battle Command Brigade and Below (FBCB2)/Blue Force Tracking to prevent 
fratricide in battle; Duke, to provide force protection against 
Improvised Explosive Devices; the FIREFINDER and Lightweight Counter 
Mortar Radar Systems, to identify incoming artillery and mortar rounds 
and provide counter fire; Counter Rocket Artillery and Mortar (C-RAM), 
to intercept and destroy incoming projectiles; counter mine equipment; 
and missile warning systems, just to name a few. Additionally, Team 
C4ISR is involved in the development and fielding of classified ``quick 
reaction'' systems involving the National Security Agency. EVERY ONE OF 
THESE SYSTEMS AND MANY MORE, OPERATE 24/7.
    Mr. Ortiz. Are communities able to provide sufficient education 
facilities to support the 50,000 dependents expected to relocate as a 
result of BRAC 2005?
    Dr. Deegan. No. Most of the relocation, as I understand it, will be 
focused on approximately 11 military installations. Many of these 
school districts are at or near capacity. An average elementary school 
holds 500-600 students; a middle school 800-1,000 students; and a high 
school approximately 2,000 students. It would take multiple schools at 
each installation to accommodate the tremendous movement that is being 
discussed. The cost of one new school could range anywhere from $12 
million (for an elementary) to $50 million (for a high school)--cost 
may vary by area.
    It takes planning and funding to accommodate this large an influx 
of students. Once the funding for a new school is in place, it takes 
approximately six months to develop the architectural plans and bid the 
project, and a minimum of two years to actually construct the school. 
There is only $17 million included in the Impact Aid program for the 
construction needs of over 1,200 school districts (Indian lands as well 
as military).
    Some schools have had to purchase trailers and old business 
buildings to accommodate the new students--and many times the class 
size is greater than other districts in order to accommodate all of the 
students.
    Mr. Ortiz. Some rural communities have indicated that their bonding 
capacity is not sufficient to absorb an influx of additional dependents 
without federal assistance. Could you explain some of these 
difficulties?
    Dr. Deegan. School districts that serve military installations 
typically have more than 20% of their property removed from the tax 
roles. These school districts do not have enough bonding capacity to 
address the construction needs as a result of BRAC, Global Re-basing, 
and Army Modularization. While the state realizes some of the economic 
benefits of a military installation, the local school district, which 
typically receives funding through property taxes and business personal 
property taxes, could have 20% or more of their funding removed--the 
business (military installation) is tax exempt, businesses located on 
the military installation (Burger King, Commissary) are tax exempt, and 
millions of dollars are lost as a result of the military personnel, 
through the Soldiers and Sailors Relief Act, who register their 
automobiles in their home state.
    How can a community be encouraged to vote for a bonded debt for 20 
years on a project when the military may not be there that long or the 
installation could have a substantial cutback in troops? The locals 
have a limited tax base and all the responsibility.
    Mr. Ortiz. Closing installations--how are school districts 
responding to a decrease in federal assistance?
    Dr. Deegan. The funding that was available through the DoD Impact 
Aid program has assisted schools that are experiencing changes as a 
result of BRAC. In addition, Impact Aid is paid one year in arrears. If 
a student enters the school district after January 15, it will be two 
years before the school receives any funding for that student. What 
will bridge that gap? Where will the funding come from to pay for the 
teachers, textbooks, etc.? What else will suffer if funding is not 
found?
    As it relates to BRAC, school districts need time to reduce staff, 
honor contract obligations and to pay for equipment and facilities that 
have been added to meet the needs of children from the installation. 
Currently funding is for one year in arrears. What is needed is a 
gradual reduction in federal funding over a three year period to help 
school districts work through the challenges and survive the impact of 
BRAC.
    Mr. Ortiz. How are communities responding to installations that 
have gained increased missions?
    Mr. Houlemard. Immediately after the 2005 BRAC recommendations 
became law, growth communities formed planning groups to prepare for an 
expanding population. These organizations have been instrumental in 
educating their respective communities about the impacts of mission 
growth. With the assistance of the Defense Department's Office of 
Economic Adjustment and the Department of Labor's Employment and 
Training Administration, the groups are creating strategic plans to 
accommodate the influx of soldiers, sailors, airmen, scientists, 
engineers, and mission support contractors. State level organizations 
have also been created to assist communities with mission growth 
planning. Growth communities and states are eager to support local 
installations and anxious to welcome the arriving missions. For 
example, numerous communities are holding ``road shows'' to recruit 
civilian DoD workers whose jobs are being transferred.
    As communities complete their growth plans, funding to implement 
these plans becomes the highest priority. Most communities, especially 
rural ones, face overwhelming financial challenges to fully support 
such a large influx. While this growth may generate additional funds 
for state and local governments, any such revenue will significantly 
lag behind the need for improvements. Also, these revenues lack the 
certainty to finance needed infrastructure. Direct assistance--in the 
form of assurances, loans, grants, or a combination thereof--from 
federal and state governments is essential. Otherwise growth 
communities will be thwarted in bridging the funding gap to meet 
initial military growth infrastructure requirements.
    Mr. Ortiz. The Government Accountability Office has indicated that 
the Department was having difficulty in accurately assessing the number 
of personnel and dependents that gaining installations were receiving. 
How is this impacting your associates' ability to provide community 
infrastructure?
    Mr. Houlemard. For several months following the BRAC decisions, 
most growth communities were having difficulties ascertaining the 
number of personnel and dependents assigned to their area. Since 
accurate population numbers are essential to community infrastructure 
planning, this hindered communities' efforts to accurately plan for 
mission growth.
    Recently, however, communities have stated that they have received 
more accurate and timely data from the military services. This has 
greatly assisted their ability to plan for mission growth.
    One cause for concern, however, in addition to general 
uncertainties about scheduling, is the recent announcement by Secretary 
Gates that several brigades from Europe may not be returning to the 
United States as planned. Changes in planned movements, such as the 
return of overseas troops, create numerous problems for growth 
communities. As communities plan for infrastructure improvements, many 
times they must issue bonds to finance those improvements. Many growth 
communities are pledging their full faith and credit in bonds to 
prepare for the growth. The chance that brigades may not arrive on 
time, and that the growth will be delayed, places the community in a 
risky situation. When new residents do not arrive, then tax revenues 
will not increase, which will, in turn, place communities in risk of 
defaulting on their bond obligations.
    Of course, there is a moderate level of uncertainty when planning 
for such a large influx of new residents and communities understand 
they need to be flexible to accommodate the growth. However, if changes 
do occur, they must be informed in a timely manner. ADC hopes that the 
military services will keep local officials updated on the numbers of 
troops, airmen, sailors and contractors expected to move to their 
communities.
    Mr. Ortiz. Are gaining communities able to sequence the 
construction of community infrastructure with actual arrival of 
military personnel?
    Mr. Houlemard. For most growth communities, the growth has yet to 
begin. Therefore, this question is more difficult to answer. Until new 
missions arrive in gaining communities, it will be difficult to assess 
the success of communities' planning efforts.
    The process of constructing new infrastructure or adding to 
existing infrastructure takes years. Communities can only respond if 
they can start the process now. Many growth communities are struggling 
to finance the necessary infrastructure to accommodate the wave of new 
residents and are not confident that new schools, roads, environmental 
infrastructure and other needs will be in place in time. The result 
could be problematic with overcrowding and service disruptions to 
soldiers and families, similar to those that occurred at some 
installations in the 1980's.
    On the other hand, several communities believe they are in better 
shape to host the thousands of new arrivals expected. They have plans 
in place to address many infrastructure needs and have identified 
sources of funding to complete at least some of the work. Even these 
communities cannot say with certainty that they will be ready in time. 
However, due to the lack of precise estimates of the level of new 
personnel moving and the timing of their arrival, the long lead time 
required to complete construction projects and regional labor shortages 
in the construction industry.
    Mr. Ortiz. The State of Maryland stands to receive an additional 
60,000 employees as a result of BRAC 2005. What challenges confront the 
State when faced with such a significant impact?
    Mr. Brown. The relocation will generate the single largest job 
growth in Maryland since the end of World War II. While poised to reap 
the tremendous benefits of BRAC, Maryland also faces some challenges 
posed by the expansion. The State has begun efforts to address these 
obstacles, and will continue to seek innovative and effective solutions 
to ensure a fully successful transition. As Maryland prepares to 
accommodate the thousands of relocating employees and families, the 
State must use this unusual opportunity to plan for growth by thinking 
through the full ramifications of where it should occur.
    With the level of growth anticipated from BRAC, the State must 
confront its limited land resources and rein in land consumption by 
promoting Smart Growth. Controlling sprawl will enable the State to 
ensure that sprawl will not compromise the integrity of our 
infrastructure, our ability to sustain BRAC growth or our cherished 
quality of life.
    Despite the State's superior transportation network, the 
substantial increase in workers and residents relying upon the 
transportation system will strain its current capacity. Because the 
system must be able to accommodate these increased demands, the State 
will not only have to augment capacity for existing modes of 
transportation, but will also have to engage in innovative planning and 
judicious decision-making with respect to the allocation of resources.
    Maryland is fortunate to enjoy a low unemployment rate which, at 
3.8%, is well below the national average. While generally a positive 
sign of Maryland's healthy economy, it sounds a cautionary note that 
the State may need more employees to fill the jobs generated by BRAC. 
Moreover, many of the jobs associated with the military installations 
and the BRAC transition generally will require specialized or technical 
training. The State must, therefore, ensure that it establishes 
adequate workforce development and education programs capable of 
producing a pipeline of future workers with the skills necessary for 
BRAC-related employment.
    Mr. Ortiz. Has the Department provided sufficient information to 
coincide the arrival of employees with State infrastructure expansions?
    Mr. Brown. The commands that are realigning, as well as the 
military installations within the State, are in communication with the 
State, providing the State with the latest employee movement 
information. In addition, the Governor's Subcabinet on Base Realignment 
and Closure, under the guidance of Lieutenant Governor Anthony G. 
Brown, have met on several occasions with the commands based in Ft. 
Monmouth in New Jersey and the Defense Systems Information Agency based 
at Ft. Myers in Virginia, to dialogue with military officials about 
their planning needs and activities. The Subcabinet intends to have 
regular meetings with these commands as the BRAC process continues to 
ensure accurate and effective communication exchange between the 
realigning capabilities and the State. Within Maryland specifically, 
both Governor Martin O'Malley and Lieutenant Governor Anthony G. Brown 
have met with the base commanders at Fort George G. Meade and Aberdeen 
Proving Ground to foster a working relationship between the gaining 
installations and their host state.
    Through the Maryland Military Installation Council (MMIC), Maryland 
has developed a state-wide strategy to address the BRAC 2005 decision. 
In addition, the military alliances throughout the state, which are 
composed of business partners that have a direct relationship with the 
various military installations, have become an invaluable conduit for 
information from the installations and continue to exemplify the 
public-private partnership that makes Maryland's BRAC planning efforts 
successful.
    Mr. Ortiz. The State has organized a regional partnership to 
address the increase in personnel that is rather unique in the overall 
management of BRAC 2005. How has the composition of the partnership 
allowed the State to address overall BRAC management?
    Mr. Brown. The Governor's Office on Base Realignment and Closure 
was created through State of Maryland legislation to horizontally 
integrate among state departments and vertically coordinate between 
state and county agencies to ensure a successful transfer of military 
personnel as mandate by the BRAC 2005 decisions. The Subcabinet is 
composed of nine State departments including; Department of Business 
and Economic Development, Governor's Office of Minority Affairs, 
Maryland Department of Planning, Maryland Department of the 
Environment, Department of Housing and Community Development, Maryland 
Department of Transportation, Maryland State Department of Education, 
Maryland Higher Education Commission, and the Department of Labor, 
Licensing and Regulation.
    The Local Government Subcommittee was first convened on August 20, 
2007 to supplement the planning actions of the Subcabinet and to 
vertically integrate the State, county and local BRAC initiatives. This 
group has served to create a designated point of contact at both the 
county and municipal level within in each county to ensure that 
communications and coordination among State, county and local agencies 
take place efficiently and effectively.
    The Subcommittee is composed of county representatives from each of 
the nine affected jurisdictions, including Baltimore City, as well as, 
municipal representatives from one town or city in each county. The 
Subcommittee meets monthly to discuss BRAC-related planning issues. To 
more effectively achieve this goal, the Subcommittee has convened four 
working groups; Education and Workforce, Public Safety, Transportation, 
and Land Use and Infrastructure, which meet and serve to focus the 
Subcommittee's efforts. To assist the Subcabinet in the development the 
State's BRAC Action Plan, the Subcommittee coordinated with local 
jurisdictions which provided advice in identifying and prioritizing 
BRAC-related projects and evaluations studies. This information was 
submitted in a report to the Subcabinet which evaluated and incorporate 
portions in the State Action Plan. As the State continues to progress 
with the BRAC process, the Local Government Subcommittee will remain an 
important resource to assist the Subcabinet as `boots on the ground' 
through the plan's implementation.
    Mr. Ortiz. How is the state managing the community infrastructure 
to support the Maryland installations? Specifically address roads, 
housing, medical facilities etc.
    Mr. Brown.

Transportation

    The Maryland Department of Transportation (MDOT) has a strategy to 
support Maryland's military installations, focused on short-term and 
long-term improvements. In the short-term, MDOT has identified 
intersections surrounding Maryland's installations, most significantly 
impacted by BRAC growth. A $139 million program has been created to 
fund improvements to those high priority intersections, providing 
additional turn lanes, capacity and geometric improvements, intended to 
maintain service levels. These projects are targeted for completion by 
2011. The Maryland Transit Administration continues to study potential 
new transit services to implement by 2011, as well. In the long-term, 
MDOT will continue to develop larger, higher capacity projects (highway 
and transit) which will serve the bases as well as other regional 
needs.
    Overall, Maryland currently has $1.7 billion programmed over the 
next six years for 31 projects improving access to BRAC-impacted bases, 
within both the 2008-2013 Consolidated Transportation Program and 
Maryland Transportation Authority capital program. In December, the 
Maryland General Assembly approved a $450 million annual increase in 
revenues for MDOT's Transportation Trust Fund, which supports the 
operating and capital needs of the department. This increase will 
provide for investments in transportation going forward, such as the 
intersection program and the MARC Growth and Investment Plan. Expanding 
MARC will enhance transit access in central Maryland, serving Fort 
Meade and Aberdeen Proving Ground. In support of the MARC plan, $200 
million was programmed to acquire additional rolling stock and to make 
line improvements.

Housing

    Maryland does have a variety of resources and tools for households 
and communities to respond to affordable/workforce housing needs. The 
Department of Housing and Community Development, which is Maryland's 
housing and community development finance agency, manages nationally 
recognized programs to help individuals and communities prosper. The 
Department administers a range of mortgage and down payment assistance 
programs and participates in financing the construction of affordable 
rental housing opportunities for seniors, families, and individuals 
with special needs through a range programs that leverage federal, 
State, local and private resources. In fiscal year 2007, DHCD helped 
3,900 households buy a home and financed 2,800 rental housing 
opportunities.
    The Maryland Mortgage Program, which has competitive mortgage 
rates, a variety of mortgage products, and range of down payment 
assistance options, is an important tool in DHCD's BRAC response. 
Particularly efforts related to the mortgage program will include 
incorporating BRAC businesses into the ``House Keys for Employees'' 
program which matches down payment assistance provided by participating 
businesses to their employees. The program is enriched by its Smart 
Growth incentive--``Smart Keys''--which provides additional down 
payment assistance if the participating household lives within 10 miles 
of their employer or within the same county.
    In addition to the homeownership activities, rental housing is also 
a focal point of DHCD activities. It is projected that 14% of BRAC 
households will be renters. DHCD will use the compendium of rental 
tools it has available and prioritize resources for BRAC to provide for 
the construction and rehabilitation of affordable rental housing. 
Rental housing can take a variety of forms and will be primarily needed 
for households with family members employed in lower paying BRAC jobs, 
as well as jobs in the service sector or that provide support services 
to BRAC related businesses.
    While enhancements to housing programs will serve to assist direct 
and indirect populations in need of housing assistance, DHCD's 
neighborhood revitalization programs will play a key role in shaping 
the location and quality of BRAC-related growth. DHCD's investment 
programs provide critical resources to spur redevelopment to support 
residential opportunities as well as revitalize commercial corridors 
and older retail shopping centers that provide key services for BRAC 
households. Through Maryland's Main Street Program, as well as flexible 
grant programs such as community legacy, Maryland is seeking to ensure 
that BRAC growth and housing market activity are connected to areas 
where there is both need and capacity.

Planning (using Smart Growth principles)

    To promote optimal use of the Maryland's mass transit options, the 
State will consider the development of BRAC Zones that will provide 
incentives for both employers and workers to relocate to areas of the 
State, such as Baltimore City, with ample, existing infrastructure and 
transportation capabilities. In keeping with a main tenant of Smart 
Growth to accommodate and encourage growth without contributing to 
sprawl, BRAC Zones will also provide local jurisdictions with 
incentives to enhance public infrastructure, such as streets, utilities 
and recreation venues, in designated revitalization and redevelopment 
areas. These incentives will reduce development pressures outside 
Priority Funding Areas (PFAs), while motivating BRAC employers and 
workers to relocate to desired areas.

Environment

    The Maryland Department of the Environment (MDE) is working closely 
with local governments, reviewing each local BRAC action plan, and 
identifying those items that require specific action by MDE. The agency 
is aligning its efforts to facilitate prompt MDE response to local 
government regarding water and wastewater infrastructure planning and, 
where desired, to assist in local efforts to reduce landfill capacity 
through innovative approaches. In addition, MDE is prepared to work 
with BRAC-related project sponsors (i.e. the Army or defense 
contractors) to ensure timely processing of environmental reviews that 
may involve air quality analysis, wetlands and storm water approvals, 
wastewater discharge permitting, Brownfields clean-up or hazardous 
materials approvals. As part of its FY08 budget, MDE is investing over 
$118.5 million to enhance local ability to provide safe drinking water 
and ensure adequate wastewater treatment protective of Chesapeake Bay 
and local waterways throughout Maryland's BRAC-impacted jurisdictions.

Healthcare

    Maryland is in the middle of an ambitious multi-billion dollar 
rebuilding of our hospital infrastructure, including the construction 
of new hospitals, the addition of new patient towers to existing 
facilities, and the renovation and modernization of hospital buildings. 
Maryland's hospital certificate of need process is based on projected 
clinical needs, which are in turn based on projected population 
changes. Population changes associated with base relocations have been 
incorporated into our planning estimates, assuring that there will be 
adequate hospital capacity throughout the state, particularly in those 
areas most affected by the BRAC process. Maryland's professional 
licensure boards have evaluated licensing and reciprocity policies to 
assure a smooth transition for health professionals relocating to 
Maryland as part of BRAC.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Were there savings on these closing the bases in 
Guam? Can I ask you to provide the committee with the cost savings?
    Secretary Grone. There were savings associated with the BRAC 1993 
recommendation to close Naval Air Station (NAS) Agana and the BRAC 1995 
recommendations to ``disestablish'' the Fleet Industrial Supply Center, 
realign Naval Activities Guam and Public Works Center (PWC), and close 
the Ship Repair Facility. As reflected in the FY 2008 President Budget 
Navy Justification Data submitted in February 2007, total savings for 
the period 1996-2001 approximate $260M. The annual recurring savings 
(ARS) beyond that period approximates $65M.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. BOYDA
    Mrs. Boyda. What savings are we trying to realize by not moving 
equipment around and storing it? What savings--are we looking at what 
we can save, our BRAC dollars, and use them for something else, if 
equipment is merely going to be moved and stored to just leave it? Do 
you have any thoughts that you could share with us on that?
    Secretary Grone. The Department of Army is taking only the 
equipment required to implement the BRAC 2005 actions and to support 
operational requirements at other military installations. The Army 
anticipates moving 212 pieces of equipment as part of the BRAC 
relocation. There are capabilities laid away at Kansas Army Ammunition 
Plant (AAP) that BRAC law requires the Army to move (Detonators/Relays/
Delays and 105MM Improved Conventional Munitions). The Army is 
selectively moving laid away equipment for those capabilities and will 
keep them in a laid away status at the gaining sites.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. I was informed that the Army informed the Iowa 
National Guard they do not intend to fund construction of field 
maintenance facilities that are meant to support multiple armories, 
despite having previously approved designs that are intended to do just 
that.
    I am, of course, deeply concerned that cost overruns and delays in 
the BRAC process have led the Army to prioritize funding in such a way 
that the National Guard is being left behind with the possible result 
that the Cedar Rapids, Muscatine and Middletown sites will have to be 
scaled back and the effectiveness of BRAC 2005 reduced.
    Can you just speak to some of those concerns that I have raised, 
Secretary Grone? I really appreciate that very much.
    And I guess one of the major questions is, are the cost overruns 
and construction delays resulting in scaled-back goals for the BRAC 
2005 process?
    Secretary Grone. The Army has not deleted any BRAC 2005 field 
maintenance facilities from the BRAC projects planned in Iowa. The 
issue described in testimony, ``The Army informed the Iowa National 
Guard they do not intend to fund construction of field maintenance 
facilities that are meant to support multiple armories, despite having 
previously approved designs that are intended to do just that . . .'', 
is incorrect. The Army has not informed the Iowa National Guard that 
their regional field maintenance mission will be deleted. When a BRAC 
closing maintenance facility supports regional armories, the Army 
constructs a replacement facility with the same regional mission. There 
are four BRAC 2005 Reserve Component projects in Iowa--one awarded in 
FY06 and three planned for FY10--and none have had an issue with 
maintenance facility scope.
    If the projects are required to implement the recommendation, they 
are funded as part of the BRAC effort. Delays in funding availability 
have presented execution challenges, however, at this time, we are not 
aware of any recommendations that cannot be implemented within the 
statutory timeline.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. I know in the case of Fort Bliss we are waiting on $32 
million. We need to have it by January, because otherwise that 
commissary project is delayed. Soldiers are coming back. We have 
promised them that everything we could do would be done.
    And yet we have got this issue because of an internal bureaucratic 
dispute that the decision hasn't been made. Two things. Can you tell me 
what the status is?
    Secretary Grone. The Army is committed to replacing the Ft. Bliss 
commissary and is reviewing all options for early funding.
                                 ______
                                 
                     QUESTION SUBMITTED BY MR. HOLT
    Mr. Holt. In their final report, the BRAC Commission stipulated 
that: ``The Secretary of Defense shall submit a report to the 
Congressional Committees of Jurisdiction that movement of 
organizations, functions, or activities from Fort Monmouth to Aberdeen 
Proving Ground will be accomplished without disruption of their support 
to the Global War on Terrorism or other critical contingency operations 
and that safeguards exist to ensure that necessary redundant 
capabilities are put in place to mitigate potential degradation of such 
support, and to ensure maximum retention of critical workforce.'' Why, 
more than two years after the BRAC Commission recommendations became 
law, has the Department thus far failed to give Congress this report?
    Secretary Grone. The recommendation did not specify timeline or 
conditions associated with the report and the Department expects to 
provide the report by the end of this calendar year.
    (Since the time of the hearing, the report was provided to the 
Committees of Jurisdiction on December, 28, 2007.)
    Mr. Holt. So let me get this straight: you told the Commission in 
2005 that you could make the move without jeopardizing support to the 
warfighter, but you provided no plan to back that up?
    Secretary Grone. The Department has gained extensive experience in 
implementing the four previous BRAC rounds, one of which was conducted 
and implemented during Operation Desert Storm in 1991. This experience 
also involved highly technical organizations providing support to 
warfighters. One example of a difficult Research, Development, Test and 
Evaluation (RDT&E) mission relocation facing similar intellectual 
capital challenges was the Navy's closure of ten and realignment of 
sixteen RDT&E and Fleet Support Facilities. This move involved 
intellectual capital and relocation concerns that are present at Fort 
Monmouth. Based on this experience, the Department is confident it can 
implement this recommendation within the statutory time frame without 
affecting the Army's mission support to our warfighters.
    Mr. Holt. It's taken you two plus years to develop a plan you 
claimed you already had in 2005?
    Secretary Grone. The Department's detailed implementation planning 
did not begin until after the Congress failed to enact a joint 
resolution of disapproval (November 9, 2005). To do otherwise, would 
presuppose the outcome of the Congressional review.
    Mr. Holt. You blew the cost estimate on this move by more than 
100%. Why should we believe you now when you say you can make the move 
without putting troops' lives at risk?
    Secretary Grone. The Department's BRAC recommendations are complex 
and were not undertaken lightly. They will provide significant 
benefits. The movement of the functions at Fort Monmouth to Aberdeen 
allows the Army to concentrate these capabilities at Aberdeen as part 
of its transformational goal of achieving Network Centric Warfare. 
Additionally, new construction at Aberdeen allows physical and 
organizational reorganization that is not possible at Fort Monmouth.
    As noted in my testimony, in arriving at its original estimates, 
the Department and Commission used the Cost of Base Realignment Actions 
(COBRA) model, which is a tool for comparative analyses of a variety of 
options using standard factors applicable during the timeframe within 
which the BRAC analysis was conducted. This provided for an equitable 
treatment of all facilities. As such, COBRA was not designed to, nor 
does it produce, budget quality estimates. For instance, in arriving at 
comparative assessments, COBRA displays financial information in 
constant dollars in the initial year of implementation, which are 
unaffected by the inflation experienced during the implementation 
period. Revised cost and savings estimates, supported by the detailed 
planning and site surveys necessary to support budget submissions, 
could not be conducted during the COBRA analyses. For Ft. Monmouth in 
particular, as planning proceeded users indicated that Command, 
Control, Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) required specific research and development lab 
facilities and Secret Compartmented Information Facility (SCIF) space 
not believed to be necessary when the COBRA estimates were developed, 
and dedicated supporting facilities were added to benefit incoming 
missions (e.g., communication building, special operations facility, 
classroom/video teleconference center/auditorium facility, and 
storage).
    Mr. Holt. During a May 18, 2005 hearing before the BRAC Commission, 
then--Army Secretary Francis Harvey engaged in the following exchange 
with BRAC Commissioner James Bilbray:

       Bilbray: ``But you know, at a time when we're in crisis, I mean 
this country's in crisis over what's going on in Iraq, the war on 
terror, we're not in a peace time kind of mode where we can shape these 
things slowly and hey, five years we'll be back to where we are right 
now. And that's my concern.''

       Harvey: ``Well, remember this is now R&D so that's the more 
strategic activity. It's not operational in that sense . . .'' 
(emphasis added)

    Mr. Ferlise, at the time Secretary Harvey made this statement, were 
personnel at Fort Monmouth providing direct, 24/7 operational support 
to troops in Iraq and Afghanistan? If so, could you give us some 
examples?
    Mr. Ferlise. He was absolutely mistaken on this point, as more than 
50% of the Army's National Stock Numbered items (60,000) currently in 
the field are acquired, managed and sustained through Fort Monmouth. 
More than 1000 requisitions are processed at Fort Monmouth daily in 
support of warfighters. Fort Monmouth is the National Inventory Control 
Point for Electronics for the Army and is inextricably engaged in 
supporting the deployed forces in Iraq and Afghanistan and around the 
world and performs critical functions in equipping divisions and 
brigades preparing to deploy and modularize. Fort Monmouth has been on 
a war footing every day since 9/11, with 24/7 operations. The impact of 
what CECOM does to develop, acquire, field and sustain critically 
needed systems to enhance operational effectiveness and maximize the 
safety of our Warfighters has immediate, real time consequences RIGHT 
NOW, while they are in the field. These systems include Force XXI 
Battle Command Brigade and Below (FBCB2)/Blue Force Tracking to prevent 
fratricide in battle; Duke, to provide force protection against 
Improvised Explosive Devices; the FIREFINDER and Lightweight Counter 
Mortar Radar Systems, to identify incoming artillery and mortar rounds 
and provide counter fire; Counter Rocket Artillery and Mortar (C-RAM), 
to intercept and destroy incoming projectiles; counter mine equipment; 
and missile warning systems, just to name a few. Additionally, Team 
C4ISR is involved in the development and fielding of classified ``quick 
reaction'' systems involving the National Security Agency. EVERY ONE OF 
THESE SYSTEMS AND MANY MORE, OPERATE 24/7.
    Mr. Holt. We've heard estimates that at most only a third of Fort 
Monmouth's current workforce may move to Maryland. If two-thirds of the 
workforce is lost, how would that impact support for our troops in the 
field?
    Mr. Ferlise. If adequate numbers of employees do not relocate to 
Aberdeen Proving Ground the impact will be catastrophic on warfighters 
and the Army. The Commission heard testimony from Major General 
(Retired) William Russ, the former Commander of CECOM as well as 
Commander of the Army Signal Command, where he had responsibility for 
every signal brigade in the Army, with 17,000 soldiers and civilians 
world wide. He stated unequivocally that he was certain that a re-
location of the magnitude contemplated in this case, would have a 
direct, immediate and catastrophic impact upon the mission performed by 
Team C4ISR and the Warfighter. He was joined by 10 other retired 
General Officers in a letter to the Commission in which they pointed 
out that the proposed relocation to an area devoid of any real 
connection to the C4ISR mission was a destructive proposal. I need to 
take a minute to explain the C4ISR mission that Fort Monmouth is 
engaged in before answering further. In his initial testimony before 
the Commission, former Secretary of the Army Harvey stated that the 
activities at Fort Monmouth are strictly ``R&D'' and ``Strategic'', and 
that moving them and sustaining a loss of personnel of 74% would not 
have immediate impact on the Warfighter. He was absolutely mistaken on 
this point, as more than 50% of the Army's National Stock Numbered 
items (60,000) currently in the field are acquired, managed and 
sustained through Fort Monmouth. Fort Monmouth is inextricably engaged 
in supporting the deployed forces in Iraq and Afghanistan and around 
the world and performs critical functions in equipping divisions and 
brigades preparing to re-deploy and modularize. Fort Monmouth has been 
on a war footing every day since 9/11, with 24/7 operations. The impact 
of what CECOM does to develop, acquire, field and sustain critically 
needed systems to enhance operational effectiveness and maximize the 
safety of our Warfighters has immediate, real time consequences RIGHT 
NOW, while they are in the field. These systems include Force XXI 
Battle Command Brigade and Below (FBCB2)/Blue Force Tracking to prevent 
fratricide in battle; Duke, to provide force protection against 
Improvised Explosive Devices; the FIREFINDER and Lightweight Counter 
Mortar Radar Systems, to identify incoming artillery and mortar rounds 
and provide counter fire; Counter Rocket Artillery and Mortar (C-RAM), 
to intercept and destroy incoming projectiles; counter mine equipment; 
and missile warning systems, just to name a few. Additionally, Team 
C4ISR is involved in the development and fielding of classified ``quick 
reaction'' systems involving the National Security Agency. EVERY ONE OF 
THESE SYSTEMS AND MANY MORE, OPERATE 24/7.
    Mr. Holt. And what would be the specific impact on our counter-IED 
programs like Warlock?
    Mr. Ferlise. The mission of Fort Monmouth encompasses far-ranging 
Research and Development of hardware and software for future C4ISR 
systems, as well as, Quick Reaction Capability [QRC] items for deployed 
forces for specially designed capabilities needed to meet crucial, 
urgent warfighter needs. These QRC capabilities are generally 
classified and represent the most compelling and urgent needs of 
warfighters on today's battlefields whether those battlefields are in 
Iraq, Afghanistan, or for that matter, in Cyberspace--today's newest 
battlefield. When it comes to C4ISR, these battles are invariably a 
battle of intellectual capacity. This is especially true in the area of 
counter IEDs. As I am sure the members of this Committee know, IEDs 
have accounted for more than half of the US fatalities in Iraq. 
Logistics support for all counter IED systems is orchestrated through 
Fort Monmouth, as well as the lion's share of the crucial Research and 
Development work. While many organizations are working on this issue, 
Fort Monmouth is the recognized center of excellence by all who are 
involved in this crucial technology. This is a very complex and rapidly 
changing technology, and enemy actuating mechanisms for IEDs have 
changed more than 500 times since the start of the war. As those 
actuating mechanisms changed, engineers at Fort Monmouth rapidly 
developed specifically designed counter measures. In fact, Fort 
Monmouth engineers continuously develop countermeasures before 
insurgents field their newest actuating measure and they already have 
solutions on the shelves at Fort Monmouth designed, developed, tested, 
and validated against the likely future threats.
    As I said, it is a battle of intellect and engineering skill with 
real life and death consequences for our warfighters. IEDs are the 
weapon of choice for our enemies and, like it or not, it is only a 
matter of time before they are used domestically.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. Do you know what the timeline is for the Armor Center 
to move from Fort Knox to Benning?
    Secretary Grone. Elements of the Armor School and Basic Combat 
Training at Fort Knox will move to Fort Benning based on course 
completion. Starting in October 2010 courses will be shifted to Fort 
Benning with all courses available by August 2011.

                                  <all>

</pre></body></html>
